<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Feinstein, Mikulski, Murray, 
Reed, Cochran, Shelby, Collins, Coats, and Blunt.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY


          opening statement of chairwoman barbara a. mikulski


    Chairwoman Mikulski [presiding]. Good morning, everybody. 
The Subcommittee on Defense will come to order. The 
subcommittee is chaired by Senator Dick Durbin, who is on the 
floor giving his speech about the vote that we will shortly 
have at 9. So in the interest of time and as a respect to our 
distinguished panelists here, the Secretary of the Navy, the 
head of the Marine Corps, and the head of the Navy, we are 
going to begin. And I would like to say a few opening words, 
and then turn to Senator Cochran. And I would also note Senator 
Cochran and Senator Shelby are here as well.
    So we thought we could do our part, and by that time 
Senator Durbin should be here, and we could then proceed. We 
know it is a busy morning, and there will be, I think, two or 
three votes beginning at noon.
    The subcommittee wishes to welcome the Secretary of the 
Navy, Mr. Ray Mabus, Admiral Jonathan Greenert, the Chief of 
Naval Operations, and General Amos, the Commandant of the 
Marine Corps. And we will be taking the testimony on the fiscal 
2014 request for the Department of Navy at today's hearing.
    In behalf, I think, of not only myself, but all of us on 
both sides of the aisle, we would like to welcome you here 
today. And in thanking you for your service, we really want to 
thank the men and women who serve under you. We really 
appreciate what they do every day in every way to keep America 
strong and to keep America safe. And they do it with 
extraordinary competence, dedication, and we call on them a 
lot. And often now after 10 years of war, we have asked a lot 
from a very few people for a very long time.
    We note that also that the Department of Navy is facing, as 
is the Department has stressed, the Department of Navy and the 
Department of Defense, incredible, incredible stress. We know 
that in addition to fiscal 2013, which was wrought with 
uncertainty because of the lack of certainty about whether we 
would have truly a continuing funding resolution for the rest 
of the year, plus sequester has added stress and strains in the 
management of the military and our ability to respond. At the 
same time, we are asking you--to call upon you with many, many 
other issues.
    We know that sequester will reduce the Navy and Marine 
Corps counts by $10.7 billion, that the enactment of the 
defense appropriation bill in the operation and maintenance 
(O&M) account provided some relief. I am so pleased to say that 
Senator Shelby, my vice chairman on the full committee, and I 
worked really hard together--we really worked together to pass 
that continuing funding resolution. And on a bipartisan basis, 
gentlemen, we passed it 73 to 26.
    So, you see, where there is a will, we found the wallet, 
and we found that we could govern with sensibility, 
affordability, and a sense of civility on the floor. And that 
is really the hallmark of the way we want to proceed as this 
subcommittee, and the committee operated under Senator Inouye, 
and the leadership of Senator Cochran.
    We also know, however, as we look forward to this year, the 
Navy and Marine Corps will have to absorb sequester and 
additional shortfalls for unanticipated increases. And I know 
the committee will want to hear more.
    But we are asking you to do more with less. We know that 
you have deployed over 100 of your 283 ships. We know that the 
Marine Corps has 10,000 marines in Afghanistan and 
approximately 3,500 marines in the Pacific and in the non-
Afghanistan Middle East area. And we are asking you to have a 
presence in Europe and also to be in Latin America. There are 
issues related to personnel and also other dynamics within the 
budget.
    So this is not only about numbers and statistics. It is 
about our fighting readiness and how are we ready. And in our 
meetings--in my meetings with both Secretary Hagel, Dr. Carter, 
General Dempsey, and Admiral Winnefeld, their concern was 
around readiness, that what we were doing in our budget was not 
only to support those who were already in the line of fire, but 
what other things that we needed to do to train and to be ready 
to deploy should the President ask for additional.
    So we have got a big job to do, but we have so much 
confidence in Senator Durbin and Senator Cochran to chair this 
subcommittee. We know that they will do it wisely and offer 
incredible guidance to the rest of us.
    Out of the $1.053 trillion expenditures, $620 billion in 
discretionary spending is in this subcommittee. It is big, and 
it has a big responsibility. So we look forward to them.
    And I would just like to also note that one of the other 
things in taking over the chair--Mr. Secretary, I spoke to 
you--we really need those within the Department to have a real 
understanding of this committee and every member, not only the 
full committee chairman and the vice chairman and the chairman 
of the subcommittee and Senator Cochran, but all of the 
committees. We have been deeply troubled from time to time that 
we have been treated in a dismissive way. The chairmen are 
always treated with respect. Everybody wants to come see us, 
have meetings, exchange coins, and we all Kumbaya together.
    But at the end of the day, there are many members here that 
want to be on this subcommittee so they can get simple answers 
about what is going on in their own State. They worry about 
silent base realignment and closures (BRACs), the moving of 
airplanes, the fact that a meeting with us is checking the box.
    So I bring this up with you. I brought it up with Hagel. I 
brought it up with Carter, Dempsey, and Winnefeld. I am 
bringing it up with you. Could you let them know that we do not 
see this as a choice between guns or butter? We just see that 
we need to be able to defend America. So we want meetings, and 
we want meetings that count. We do not just want meetings that 
give updates for decisions that were made.
    Secretary, I talked with you about it earlier. I know I 
have your word to correct this problem. I believe you are a man 
of honor and that we will address these issues, and the 
committee will appreciate it.
    So, Senator Durbin.


             opening statement of senator richard j. durbin


    Senator Durbin [presiding]. Thank you, Madam Chairman, and 
I apologize for being late. I have a bill on the floor, which 
turns out to take up a little time when you least expect it.
    I now turn to my ranking member, Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you. It is a personal 
pleasure for me to welcome Governor Mabus, Secretary of the 
Navy, who served as a distinguished Governor of our State and 
leader for some time, and is a personal friend. We also 
appreciate having with us today General Amos. We appreciate his 
special friendship to our State as well. And all of the leaders 
of the Navy and the Department, we appreciate your cooperation 
with our committee and working together to help ensure that we 
have the best Navy in the world.
    Thank you.
    Senator Durbin. Thank you very much.
    At this point, I would like to recognize the Secretary of 
the Navy, the Honorable Ray Mabus.


                  summary statement of hon. ray mabus


    Secretary Mabus. Chairman Durbin, Chairwoman Mikulski, Vice 
Chairman Cochran, senior senator from my home State, thank you 
so much for your words, but also thank you and the entire 
committee for all that you have done and are doing to support 
our Department of the Navy, our sailors and marines, our 
civilians, and their families.
    General Amos, the Commandant of the Marine Corps, Admiral 
Greenert, the Chief of Naval Operations, and I could not be 
prouder to represent those steadfast and courageous sailors, 
marines, and civilians. No matter what missions are given to 
them, as Chairwoman Mikulski said, no matter what hardships are 
asked of them, these men and women serve their Nation around 
the world with skill and dedication.
    In the past year, the Navy and Marine Corps team has 
continued to conduct a full range of military operations. From 
combat in Afghanistan, to security cooperation missions in the 
Pacific, to disaster recovery operations in the streets of 
Staten Island, sailors and marines have gotten the job done.
    As the United States transitions from two land wars in 
Central Asia to the maritime-centric defense strategy announced 
15 months ago, our naval forces will be critical in the years 
ahead. This strategy, which focuses on the Western Pacific, the 
Arabian Gulf, and on continuing to build partnerships around 
the globe requires a forward deployed, flexible, multimission 
force that is the Navy and Marine Corps, America's away team.
    Within this strategy, we have to balance our missions with 
our resources. We are working under Secretary Hagel's 
leadership on a strategic choices and management review to 
assess how we deal with budget uncertainty facing the 
Department as we go forward. He has directed that we review the 
basic assumptions that drive the Department's investment in 
force structure to identify institutional reforms that may be 
required, including, as we should do all the time, those 
reforms that ought to be pursued regardless of fiscal 
pressures. As he said during recent testimony, everything will 
be on the table during this review.
    As Chairman Mikulski pointed out, 2013 has been hard 
because we began this fiscal year operating under a continuing 
resolution that gave us little room to be strategic and to 
prioritize, limiting our ability to manage the Navy and Marine 
Corps through this new fiscal reality. Thanks to your efforts 
and the efforts of your congressional colleagues, we have an 
appropriation for this fiscal year, but sequestration is still 
forcing us to make across-the-board cuts totaling more than $4 
billion from our operation and maintenance accounts, and about 
$6 billion from our investment accounts.
    These cuts will have real impacts. We have prioritized 
combat operations in Central Command and deployments to Pacific 
Command. However, we have had to cancel a number of deployments 
to Southern Command.
    In order to maintain our priority deployments in 2013 and 
2014 to meet the Global Force Management Allocation Plan, 
funding shortfalls will cause our units back home to cut back 
training and maintenance. Pilots will get less flight time, 
ships will have less time at sea, and marines less time in the 
field. It will take longer for repair parts to arrive when 
needed. Our facilities ashore will be maintained at a much 
lower level.
    The Department's 2014 budget request is a return to a 
measured budget approach, one based on strategy and that 
protects the war fighter by advancing the priorities that I 
have referred to as the four P's--people, platforms, power, and 
partnerships. We are working to make sure that our people are 
resilient after more than a decade of very high operations 
tempo with programs like 21st Century Sailor and Marine.
    With this, we aim to bring all the efforts on protection 
and readiness, fitness inclusion, and continuing a service 
together as one coherent whole. It encompasses a wide range of 
issues from preventing sexual assault and suicide to fostering 
a culture of fitness, to strengthening the force through 
diversity, to ensuring a successful transition following 4 
years of service or 40.
    In the Marine Corps, we continue decreasing manpower to 
meet our new end strength of just over 182,000 by fiscal year 
2016. But we are doing this in a way that helps retain the 
right level of noncommissioned levels and field grade officers 
and their experience. We are also working to make sure that our 
sailors and marines have the tools and the platforms they need 
to do the missions they are given.
    One of the most important of these is our fleet. On 
September 11, 2001, the U.S. Navy had 316 ships. By 2008, after 
one of the largest build-ups in our Nation's history, that 
number was 278. In 2008, the Navy put only three ships under 
contract, far too few to maintain the size of the fleet or our 
industrial base, and many of our shipbuilding programs were 
over budget, behind schedule, or both.
    One of my main priorities as Secretary has been to reverse 
those trends. Today, the fleet has been stabilized, and the 
problems in most of our shipbuilding programs have been 
corrected or arrested. We have 47 ships under contract today, 
43 of which were contracted since I took office. And our 
current shipbuilding plan puts on track for 300 ships in the 
fleet by 2019.
    The way we power our ships and installations has always 
been a core and vital issue for the Department of the Navy. We 
continue to lead in energy as we have throughout our history. 
From sail, to coal, to oil, to nuclear, the Navy has led in 
moving to new sources of power, and every time it has made us a 
better war fighting force.
    Today, from marines making power in the field to 
alternatives on land, on and under the sea, and in the air, the 
Navy and Marine Corps are powering innovations that will 
maintain our operational edge, building partnerships in our 
operability and capacity and capability in our partners in a 
crucial component of this defense strategy. This strategy 
directs that this be done in a low cost, small footprint, 
innovative way. This is precisely what the Navy and Marine 
Corps do.

                           PREPARED STATEMENT

    The process we use to craft the Department's budget request 
was determined, deliberate, and dedicated to our responsibility 
to you and to the taxpayer. And like the Senate and House 
budget resolutions, we do not assume that sequestration will 
continue in fiscal year 2014.
    Mr. Chairman, members of the committee, the budget we are 
submitting supports the defense strategy and preserves the 
readiness of our people, and it builds on the success we have 
in shipbuilding. For 237 years, our maritime warriors have 
established a proven record as an agile and adaptable force. 
Forward deployed, we remain the most responsive option to 
defend the American people and our interests.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Hon. Ray Mabus
    Chairman Durbin and Vice Chairman Cochran, and members of the 
committee, today I have the privilege of appearing on behalf of the 
Sailors, Marines, and civilians who make up the Department of the Navy. 
This is the fifth time that I have been honored to report on the 
readiness, posture, progress, and budgetary requests of the Department. 
With my shipmates--Commandant of the Marine Corps, General James Amos, 
and Chief of Naval Operations (CNO), Admiral Jonathan Greenert--I take 
great pride in the opportunity to both lead and serve the dedicated men 
and women of the Department. This statement, together with the posture 
statements provided by CNO Greenert and Commandant Amos, present a 
comprehensive overview of the state of the Department of the Navy.
    For 237 years the United States Navy and Marine Corps have been 
deployed around the globe, conducting missions across the full spectrum 
of military operations. Whether ashore, in the air, on or under the 
world's oceans, or in the vast cyberspace, The Navy-Marine Corps team 
operates forward, as America's ``Away Team,'' to protect our national 
interests, respond to crises, deter conflict, prevent war or, when 
necessary, fight and win. The past year has been no different. Among 
myriad missions, our Sailors and Marines have continued to conduct 
combat operations in Afghanistan; maritime stability and security 
operations around Africa; ballistic missile defense with our allies in 
Europe, the Middle East and the Pacific; and humanitarian assistance 
and disaster relief missions from the archipelagos of Southeast Asia to 
the streets of Staten Island.
    Today we continue to transition from a decade of war and counter-
insurgency ashore to a time of increased global uncertainty. Eighty 
percent of the world's population live a short distance from the sea 
and 90 percent of global trade moves by sea, so our naval forces play a 
vital role in delivering the security needed to help address today's 
global challenges. The Nation's Defense Strategic Guidance, as 
announced by President Obama, directs focus toward the maritime-centric 
regions of Western Pacific and Arabian Gulf and uses innovative, low-
cost, light footprint engagements in other regions. These are tasks 
tailor made for the Navy-Marine Corps Team. The Commandant, CNO, and I 
are confident that with proper resourcing, the U.S. Navy and Marine 
Corps will meet today's and tomorrow's missions.
    Almost a century ago the United States began a fruitful period of 
profound military development between the First and Second World Wars. 
Vice Admiral William Sims, commander of our naval forces in England 
during World War I, wrote that ``. . . we must be on our guard against 
the dangers of a lack of vision.'' As then, strategic thinking and 
innovative development of our operating concepts will be central to our 
success now and in the future. The ability to think and adapt to 
changes in the fiscal and operational environment has been and will be 
the key to the success of American naval forces.
    The Department of the Navy has a proven track record of effective 
and efficient management of our Nation's most important maritime 
resources: people, platforms, power, and partnerships. The most 
resilient and capable force in our history protects the Nation. In the 
past 4 years, we have stabilized the size of the Fleet, and we are 
building more capable ships with greater accountability and at a better 
value to the taxpayer and we are on a trajectory to restore the Fleet 
to 300 ships by 2019. The Navy and Marine Corps are seeking ways to 
lessen dependence on fossil fuel and volatile oil prices, some of our 
greatest military vulnerabilities, by using more efficient and varied 
forms of power. And we are building and maintaining the global 
partnerships that are so critical to the Navy and Marine Corps' ability 
to project power throughout the world through forward deployment. As we 
sail into a new maritime century, the Navy and Marine Corps team is the 
most formidable expeditionary fighting force the world has ever known.
                        naval operations in 2012
    Operational tempo in 2012 was high. On a daily basis, almost half 
the fleet was at sea and more than 70,000 Sailors and Marines were 
deployed; our reserve components mobilized over 3,700 Sailors and 5,000 
Marines to support operations. Our forces conducted combat and maritime 
security operations, bilateral and multilateral exercises with our 
international partners, and humanitarian assistance missions.
Pacific Command (PACOM)
    The Asia-Pacific is fundamentally a maritime region, and over 50 
percent of the world's population and the world's five largest armed 
forces lie within the operating area of the U.S. SEVENTH FLEET. 
Emphasizing our existing alliances while also expanding our networks of 
cooperation with emerging partners is central to the defense strategy 
articulated by the President in January 2012. Our mission is to provide 
security with combat ready units, demonstrated by the forward basing in 
Japan of USS George Washington and her strike group as well as the USS 
Bonhomme Richard amphibious ready group and 31st Marine Expeditionary 
Unit. Destroyer Squadron 15 continues to conduct Ballistic Missile 
Defense (BMD) patrols that contribute significantly to this mission. 
When North Korea conducted launches using ballistic missile technology 
in both April 2012 and December 2012, our ships were on scene to 
monitor the situation and defend our forces and allies if needed.
    The first Marine rotational force arrived in Darwin, Australia 
early last year. The Marines, part of the 3rd Marine Expeditionary 
Force (MEF) soon after embarked USS Germantown and began operations in 
the region. Working with naval assets like the destroyer USS Lassen and 
the submarine USS Buffalo the Marines participated in the long standing 
Cooperation Afloat Readiness and Training (CARAT) exercises with a 
number of our allies and partners including Thailand, Singapore, and 
Bangladesh. Marines from 3rd MEF also participated in Mongolia's KHAAN 
QUEST 2013 exercise as part of a joint force that included the U.S. 
Army. The multinational exercise started 10 years ago as a bilateral 
training opportunity between U.S. Marines and Mongolian forces and has 
grown to include participants from ten countries.
    Exercise MALABAR, an annual bilateral exercise between U.S. and 
Indian Forces, continued to expand in 2012 and comprised training in 
numerous mission areas including maritime security operations and 
strike missions. U.S. units, including the USS Carl Vinson strike 
group, conducted operations both at sea and ashore with our partners 
from the Indian Navy. In cooperation with the Armed Forces of the 
Philippines in 2012 we expanded our annual BALIKATAN exercise to 
include 20 participating partners from the Association of South East 
Asian Nations (ASEAN). This year's exercise focused on Humanitarian 
Assistance, Search and Rescue, and helped develop interoperability with 
the participating forces.
    In 2012 our west coast hospital ship, USNS Mercy executed a 5-month 
PACIFIC PARTNERSHIP humanitarian assistance deployment, conducting 
medical and civic assistance missions in Indonesia, Vietnam, the 
Republic of the Philippines, and Cambodia. PACIFIC PARTNERSHIP began as 
a humanitarian response to one of the world's most catastrophic natural 
disasters, the 2004 tsunami that devastated parts of Southeast Asia. 
The PELELIU Amphibious Ready Group and Marines from the 15th Marine 
Expeditionary Unit (MEU) conducted Exercise CROCODILO with the Defense 
Forces of Timor-Leste, demonstrating the importance of working with all 
partner nations, no matter the size of their naval forces, which share 
our commitment to peace and security.
    Our largest operation in the Pacific this year was the biennial Rim 
of the Pacific Exercise (RIMPAC). The largest maritime exercise in the 
world, RIMPAC in 2012 had participants from 22 nations, including for 
the first time the Russian Navy. RIMPAC provides a unique training 
opportunity that helps foster and sustain the cooperative relationships 
that are critical to maritime safety and security not only in the 
Pacific, but across the globe. This year's exercise also displayed the 
Navy's commitment to energy security with the Great Green Fleet 
demonstration. USNS Henry J. Kaiser conducted an underway replenishment 
with USS Nimitz, USS Princeton, USS Chafee, and USS Chung-Hoon, 
refueling all the ships and types of aircraft in the Nimitz Strike 
Group with a 50/50 blend of advanced biofuels and petroleum-based 
fossil fuels. Every type of aircraft that flew from the strike group 
flew on this blend and all the surface ships sailed on this blend. No 
engines were changed in any way. This demonstrated the effectiveness 
and seamlessness of the use of advanced biofuels during operations at 
sea.
Central Command (CENTCOM)
    Marines and Sailors, active and reserve, remain engaged in 
operations in Afghanistan. They have denied the Taliban safe haven and 
substantially calmed the violent Helmand Province. Along with Coalition 
partners from eight nations and the Afghan National Security Forces 
(ANSF), Marines have succeeded in pushing enemy initiated attacks 
outside populated areas, diminishing the enemy's ability to disrupt 
governance efforts by Afghans and bringing increased security to 
population centers.
    As 9,000 Marines have been drawn down in Helmand over the course of 
the year, our forces there helped to standup the 215th Corps of the 
Afghan National Army as well as units of the Afghan National Police and 
Afghan Local Police. Through these efforts, ANSF has increasingly taken 
responsibility for securing this area. ANSF units currently conduct 80 
percent of operations on their own while leading 85 percent of all 
operations in Helmand Province.
    Aircraft from Carrier Strike Groups in the Indian Ocean conducted 
thousands of sorties supporting combat operations in Afghanistan with 
Intelligence, Surveillance, and Reconnaissance (ISR) and close air 
support. With two Carrier Strike Groups in the region for much of the 
year, regular flight operations were also conducted in the Arabian 
Gulf. USS Ponce also deployed to the region to demonstrate and employ 
the capabilities of our future Afloat Forward Staging Bases (AFSB).
    Off the Horn of Africa, we continue to work with partners in 
Combined Task Force 151 and other counter-piracy missions. Primarily as 
a result of these efforts, there was a dramatic drop in the number of 
pirate attacks during 2012. While the primary purpose and goal of 
counter-piracy operations is to enhance maritime security in the 
region, an additional benefit is the development of operational 
relationships with a wide range of partners. For example, in September 
USS Winston S. Churchill conducted exercises to expand counter-piracy 
expertise and promote interoperability with the Chinese frigate YI 
YANG, the first bilateral exercise of its kind between the navies of 
the United States and the People's Republic of China.
European Command/Africa Command/Southern Command (EUCOM/AFRICOM/
        SOUTHCOM)
    U.S. Navy ships teamed with 11 European and African partners for 
PHOENIX EXPRESS 2012, a maritime security exercise in the 
Mediterranean. AEGIS ships in EUCOM continued their BMD patrols for the 
European Phased Adaptive Approach to missile defense and planning 
continues to forward base four guided missile destroyers in Rota, 
Spain. The High Speed Vessel (HSV) Swift circumnavigated Africa for 
AFRICAN PARTNERSHIP STATION, making 20 port calls to conduct security 
cooperation missions and humanitarian assistance. Marines from Special 
Purpose Marine Air-Ground Task Force (SPMAGTF) Africa trained 
counterterrorism forces and provided support to forces across the 
Maghreb region of North Africa.
    In the Caribbean, western Atlantic, and eastern Pacific work 
continued with our regional partners to counter transnational organized 
crime. Aircraft from Helicopter Anti-Submarine (Light) and Carrier 
Airborne Early Warning squadrons flew detection and monitoring missions 
while our ships, working with the U.S. Coast Guard, helped confiscate 
millions of dollars of illegal drugs and illicit cargo.
    SOUTHERN PARTNERSHIP STATION provided both military to military 
training opportunities and humanitarian assistance missions to 
countries in Central and South America. The Navy also supported the 
annual UNITAS exercises, multinational naval exercises designed to 
enhance security cooperation and improve coalition operations. UNITAS 
exercises are typically conducted annually in Atlantic and Pacific 
waters around South America, and in 2012 U.S. Southern Command 
conducted bilateral training opportunities with nations including 
Guatemala, Honduras, and Belize. PANAMAX, the annual U.S. Southern 
Command-sponsored multinational exercise series, focused in 2012 on 
ensuring the defense of the Panama Canal. Personnel from 17 nations, 
including the United States, participated in simulated training 
scenarios from various U.S. locations.
Northern Command (NORTHCOM)
    When Hurricane Sandy came ashore in October, the Navy and Marine 
Corps immediately gathered resources to support the Federal Emergency 
Management Agency (FEMA) and other Federal agencies in the response to 
this disaster. USS Wasp, USS San Antionio, USS Carter Hall, and USNS 
Kanawha steamed to the coast of New York and New Jersey and became 
logistics bases for relief efforts following the storm, working in 
concert with units deployed to Lakehurst Naval Air Station in central 
New Jersey. Marines from 26th MEU went ashore from Wasp at Staten 
Island to clear debris and reopen streets, while Seabees ran supply 
convoys into hard hit areas and set up generators, removed beach sand 
from city streets, pumped over a million gallons of water from homes 
and removed tons of debris. Sailors from Mobile Diving and Salvage 
Units worked with FEMA and State officials in dewatering the World 
Trade Center site and the New York subway system, while members of the 
Coastal Riverine force cooperated with FEMA at the Hoboken Ferry 
Terminal to restore service.
    Our sea-based strategic deterrent force of ballistic missile 
submarines continues to provide the most survivable leg of the Nation's 
strategic deterrent triad. For 50 years, and for more than 4,000 
strategic patrols, our Navy's submarine force has patrolled, 
undetected, below the sea. Our Ohio-class ballistic missile submarines 
promote global stability and provide credible and reliable deterrence.
    There are countless other examples of Navy and Marine Corps units 
on, above and under the seas, on land both in the United States and in 
every corner of the globe, standing watch protecting this Nation.
             developing capabilities for future operations
    The 21st century presents us with new challenges or threats to both 
our national security and to global stability. The Navy and Marine 
Corps are working to develop new concepts and capabilities that will 
help address sophisticated anti access/area denial (A2/AD) networks, 
irregular and cyber threats, and the proliferation of precision guided 
munitions. The Navy, Marine Corps, Air Force and Army are working 
together to implement the Air-Sea Battle concept, which seeks to 
improve integration of air, land, maritime, space, and cyberspace 
forces. The Navy and Marine Corps are also developing the concept of an 
integrated battle force, taking many of the lessons we have learned 
about joint and combined operations, combining them with the results of 
exercises like BOLD ALLIGATOR 2012, the largest amphibious exercise in 
over a decade which was conducted on the coast of North Carolina in 
early 2012, and developing new frameworks for naval warfare and 
expeditionary operations.
Air Sea Battle
    In order to ensure that U.S. forces remain able to project power on 
behalf of American interests, the Departments of the Navy, Air Force, 
and Army continue to develop the Air-Sea Battle concept and its 
capabilities. The Air-Sea Battle Office, jointly manned by all four 
services, is working on a series of initiatives to achieve the 
capabilities and integration required in future Joint forces so that 
Combatant Commanders have the tools they need, delivered with the most 
efficient use of resources. Air-Sea Battle is building on the lessons 
learned by the joint force over the past three decades to enhance 
efficiency while confronting the challenge of A2/AD systems in all 
theaters of operations.
    DON continues to work on the integration of advanced air and cruise 
missile defense capabilities, the development of BMD enhancements, and 
``soft-kill'' capability. A new generation of Anti-Ship Cruise Missile 
(ASCM) remains a priority, which will increase the range and speed at 
which we can engage enemy surface combatants, the most capable of which 
are armed with advanced ASCMs. We are also developing the Virginia 
Payload Module for the Virginia-class submarines, to mitigate the loss 
of the undersea strike capacity of our guided missile submarines when 
they retire in the mid-2020s.
        defending freedom of the seas: law of the sea convention
    By custom, experience and treaty the traditional concept of freedom 
of the seas for all nations has developed over centuries. This vital 
part of the global order has been codified within the Law of the Sea 
Convention (LOS Convention). The DOD and DON continue to strongly 
support this important treaty. The LOS Convention guarantees rights 
such as innocent passage through territorial seas; transit passage 
through, under and over international straits; and the laying and 
maintaining of submarine cables. Nearly every maritime power and all 
the permanent members of the U.N. Security Council except the United 
States have ratified the convention. Our absence as a Party weakens our 
position and impacts our military, diplomatic, and economic efforts 
worldwide. Remaining outside the LOS Convention also undercuts our 
ability to challenge expansive jurisdictional claims that, if 
unchallenged, could undermine our ability to exercise our navigational 
rights and freedoms, conduct routine naval operations in international 
waters, and provide support to our allies. Additionally, only as a 
Party to the Convention can the United States fully secure its 
sovereign rights to the vast resources of our continental shelf beyond 
200 miles from shore. The uniformed and civilian leaders of the 
Department strongly support accession to the LOS Convention.
                        departmental priorities
    Maintaining the world's most capable expeditionary fighting force 
means developing our Navy and Marine Corps as a strategic asset that 
provides our Commander-in-Chief with the broadest range of options in a 
dynamic and complex global security environment. As Secretary, I 
continue to charge the Department to focus on four key priorities: 
people, platforms, power, and partnerships, by ensuring we do the 
following:
  --Support our Sailors, Marines, civilians, and their families;
  --Strengthen shipbuilding and the industrial base;
  --Promote acquisition excellence and integrity;
  --Continue development and deployment of unmanned systems;
  --Recognize energy as a strategic national security issue; and
  --Build partner capacity to help distribute the burden of securing 
        the global maritime domain based on alliances, shared values, 
        and mutual trust.
    From training our newest Midshipmen and recruits, to supporting 
ongoing operations in Central Asia and the Pacific, to preparing for 
the future force, these principles will guide the Department in all of 
its many tasks.
          supporting our sailors, marines, and their families
    Operational tempo is high and getting higher. The BATAAN Amphibious 
Ready Group and 22d Marine Expeditionary Unit's spent almost 11 months 
at sea, the longest amphibious deployment since World War II. Personnel 
with John Stennis Carrier Strike Group spent only 5 months at home 
between her two most recent 7-month deployments. Sailors, Marines, 
civilians, and their families are being asked to do more with less, and 
it is the job of the Department's civilian and military leaders to 
provide them with the resources to maintain readiness, both physically 
and mentally, and to support families while loved ones are forward 
deployed.
    The naval strategist and historian Alfred Thayer Mahan once wrote 
that being ready for naval operations ``consists not so much in the 
building of ships and guns as it does in the possession of trained 
men.'' The Department is committed to our most important asset and the 
most critical combat payload for our ships, aircraft, and units 
ashore--our people. Over the last 4 years, I have visited with Sailors 
and Marines deployed in 96 countries across the globe. When our U.S. 
Navy and Marine Corps team is on the job, they are far from home and 
from the people they serve. One of my core missions is to remind them 
we are grateful for their service, and humbled by their sacrifice.
    Pay and benefits are the most tangible example of our commitment to 
our Sailors and Marines, and an important focus for the Department. The 
President's budget includes a 1 percent pay raise for Sailors and 
Marines. The amount of this raise reflects the commitment to our 
Sailors and Marines, while adhering to the current budget constraints 
faced by DOD. We support the modest TRICARE fee increase in the fiscal 
year 2014 budget, which Congress has allowed the Department of Defense 
to link to CPI to help ensure an efficient and fair benefit cost, as 
well as efforts to introduce efficiency and cost savings into military 
pharmacies. These are important steps that help us introduce reform to 
the Department's personnel costs. The promise of a military retirement 
is one of the solemn pledges we make to compensate our service members 
when they volunteer for a full career. However, it is time for a review 
of this system. We fully support Congress's establishment of the 
Military Compensation and Retirement Modernization Commission to 
conduct a comprehensive review of military compensation and retirement 
systems. The commission must maintain a focus on ensuring any suggested 
changes support the required force profiles of the services. Keeping 
faith with those currently serving is a high priority, and the 
Commission and Congress should ensure that any resulting reforms 
protect our current service members through grandfathering those who 
prefer the current retirement structure.
    We must manage resources to ensure support for the most combat 
effective and the most resilient force in history. The standards are 
high, and we owe Sailors, Marines, and civilians the services they need 
to meet those standards. I am very proud of the dedicated service 
provided by our civilian workforce, who despite economic sacrifices, 
continue to deliver outstanding products and services in support of the 
DON mission. The continued development of the 21st Century Sailor and 
Marine Initiative will help ensure that Sailors and Marines maximize 
their professional and personal readiness with initiatives that cut 
across previously stove-piped programs. In March 2012, aboard USS 
Bataan, I outlined the five ``pillars'' of the 21st Century Sailor and 
Marine which are: readiness and protection, safety, physical fitness, 
inclusion, and the continuum of service.
    Readiness and protection will ensure Sailors, Marines, and their 
families are prepared to handle the mental and emotional rigors of 
military service. Ensuring the readiness of the force includes 
continuing campaigns by both services to deglamorize, treat, and track 
alcohol abuse.
    It also means maintaining the standard of zero tolerance for sexual 
assault. The DON Sexual Assault Prevention and Response Office (SAPRO) 
is responsible for keeping the health and safety of our Sailors and 
Marines at the forefront. SAPRO has developed training initiatives, 
opened new lines of communication, and worked to ensure that offenders 
are held accountable while reducing the number of attacks. In the last 
year, SAPRO conducted dozens of site visits to Navy and Marine Corps 
installations world-wide. Their sexual assault prevention programs for 
leadership reached over 5,000 Navy and Marine officers and senior 
enlisted personnel at eight operational concentration sites. 
Simultaneously, live-acted and vignette-based programs, emphasizing the 
importance of bystander intervention in preventing sexual assault, were 
presented to packed theaters totaling roughly 15,000 Sailors and 
Marines. The Commandant of the Marine Corps has personally championed a 
Sexual Assault Prevention and Response (SAPR) Campaign Plan that 
engages his senior leadership in top-down, Corps-wide training 
initiatives anchored on the core values of Honor, Courage, and 
Commitment. He and the Sergeant Major of the Marine Corps have been 
tireless in conveying their expectations in special forums and personal 
visits to virtually every Marine Corps installation. Across both 
Services, literally every Sailor and Marine is receiving special SAPR 
training that emphasizes the concept of Bystander Intervention to 
prevent sexual assaults, and additional training tools are in 
development.
    To enhance capabilities in the area of sexual assault prevention 
and prosecution, Naval Criminal Investigative Service (NCIS) created an 
advanced adult sexual assault training course. They have also launched 
a multidisciplinary Adult Sexual Assault Program, which synchronizes 
the efforts of investigators, prosecutors, and victim advocates. NCIS 
has continued its campaign to train the Department's leaders, 
conducting 389 briefings world-wide to over 48,000 service members. 
Last year they also introduced a 24-hour text-tip capability to enhance 
responsiveness to criminal allegations including sexual assault, 
receiving 1,300 Web based referrals.
    A ready force is also a force that understands how to respond to 
our shipmates in need in order to help stem the tide of military 
suicides. The Department will continue to work to improve suicide 
prevention programs to eliminate suicide from the ranks. This will not 
be easy. The complexities surrounding suicide requires an ``all-hands'' 
effort and comprehensive approach. New training programs, like the 
Marine Corps' R.A.C.E. (Recognize suicide warning signs, Ask one 
another about suicide, Care for one another through listening and 
support, and Escort fellow Marines to help), are just the start. Navy 
and Marine Corps commanders are fully engaged in promoting the 
psychological health of our Marines, Sailors, and family members and 
are receiving training on how best to provide solutions in their units. 
The message to all Navy and Marine Corps leaders is to look out for 
each other and to ask for help.
    The fiscal uncertainty we live with today not only affects 
operational readiness; the impact may also manifest itself in safety 
performance. More than ever, we must emphasize safety and risk 
management, both on- and off-duty as operational tempo increases and 
our Sailors and Marines are asked to do more with resources that are 
being stretched. Efforts to ensure the safest and most secure force in 
the Department's history include more targeted oversight of our high 
risk evolutions and training. To improve risk assessment, the 
Department is analyzing safety and safety-related data from a variety 
of sources and in 2012 committed to establishing a secure funding 
stream for the Risk Management Information System. The Department is 
also employing System Safety Engineers in the hazard and mishap 
investigation process.
    Physical fitness is central to the ability of our Sailors and 
Marines to complete their missions. More than just another program, it 
is a way of life and supporting it resonates throughout the 21st 
Century Sailor and Marine Initiative. Throughout the force personal 
fitness standards will be emphasized and reinforced. That commitment 
extends to improving nutrition standards at Navy dining facilities with 
the ``Fueled to Fight'' program, developed and used by the Marines. 
Fueled to Fight emphasizes the importance of nutrition and healthy food 
items, and ensures their availability.
    A cornerstone of the Department's commitments to individual Sailors 
and Marines is to ensure DON is inclusive and, consistent with military 
effectiveness, recruits, retains, and promotes a force that reflects 
the Nation it defends. The aim to increase the diversity of ideas, 
experiences, expertise, and backgrounds to ensure the right mix of 
people to perform the variety of missions required of the services. 
With military requirements as a guiding tenet, the Department will 
reduce restrictions to military assignments for personnel to the 
greatest extent possible.
    An officer corps must be representative of the enlisted force it 
leads. The United States Naval Academy, our Reserve Officer Training 
Corps programs, and Officer Candidate School have all continued to 
achieve high ethnic diversity rates as minority applications remain at 
historic levels. In recent years NROTC units have reopened at some Ivy 
League schools, and new units have opened at State Universities with 
large minority populations, including Arizona State University and 
Rutgers University. The first group of women assigned to the submarine 
force have deployed aboard their boats. Three of these trailblazing 
officers already earned their qualifications in Submarine Warfare and 
were presented their ``Dolphins'' in a ceremony last fall. With success 
aboard Ohio-class ballistic missile submarines (SSBNs) and guided 
missile submarines (SSGNs) women will now be assigned to the attack 
submarine fleet and enlisted women will soon be included in the 
submarine force.
    The final pillar, continuum of service, will provide the strongest 
transition support in the Department's history. The Navy and Marine 
Corps develop future leaders of our Nation, in and out of uniform. For 
that reason, and for their service, individuals separating or retiring 
from the Naval Service should be provided the best assistance programs 
and benefits available to get a positive start in civilian life. The 
Department's education benefits, transition assistance, career 
management training, life-work balance programs, and morale, welfare, 
and recreation programs are keys to their future and have been 
recognized by human resource experts as some of the best personnel 
support mechanisms in the Nation. Our transition efforts also bolster 
our ability to maintain a highly skilled Reserve force, ensuring those 
highly trained service members who want to continue to serve in a 
Reserve capacity are smoothly and appropriately aligned within the 
Reserve component.
    Both the Navy and Marine Corps reached our recruiting goals again 
in the past year. The Navy is on track to meet its active duty-manning 
ceiling of 322,700 Sailors by the end of this fiscal year. The Marine 
Corps continues to draw down from 202,001 to the goal of 182,100 by 
fiscal year 2016 and stood at about 198,000 at the end of 2012. The 
quality of our recruits continues to rise, with high levels of physical 
fitness and increasing numbers of recruits with a high school diploma 
rather than a GED. With high quality recruits the attrition numbers in 
Boot Camp have dropped, and more Sailors and Marines are successfully 
completing their follow-on schools, where they learn the basics of 
their military specialty.
    In order to address many of the asymmetric military scenarios we 
face, the Department has initiated programs in our Special Operations 
and Cyber Forces to ensure we have the right personnel for the mission. 
For instance, the Department conducted a Cyber Zero-Based Review and 
developed a Cyberspace Manpower Strategy. Operating in and 
strategically leveraging cyberspace requires a sophisticated and 
technically savvy force and we must invest in their training and 
development. We also need an equally sophisticated officer corps to 
lead this force and therefore, I will make the construction of a 
cybersecurity studies facility at the U.S. Naval Academy a top priority 
in developing the fiscal year 2015-2019 military construction program, 
looking for opportunities to accelerate this vital project. With 
respect to Special Forces, the Department continues to work closely 
with U.S. Special Operations Command (USSOCOM) on their manpower 
priorities, including emphasis on targeted recruiting of personnel with 
language capability and ethnic diversity, compensation issues, and 
ensuring the proper balance of SOF manning during times of fiscal 
austerity.
    The Department constantly evaluates its success at reintegrating 
the combat-wounded Sailor or Marine into civilian life. The Navy and 
Marine Corps have pressed forward in their efforts to support our 
wounded, ill, and injured (WII) Sailors and Marines. The Marine Corps' 
Wounded Warrior Regiment, based at Quantico, provides and facilitates 
non-medical assistance throughout all phases of recovery. With 
Battalions located on both coasts and detachments around the world, it 
has the global reach needed to support our men and women. The Navy has 
established the Safe Harbor Program to coordinate the non-medical care 
of WII Sailors, Coast Guardsmen, and their families. The program 
provides a lifetime of individually tailored assistance designed to 
optimize the success of our shipmates' recovery, rehabilitation, and 
reintegration activities and has representatives at military treatment 
facilities all over the world, including partnering with some Veteran's 
Affairs facilities.
    A key to successful integration is meaningful employment and the 
Department continues to lead by example in providing employment 
opportunities for Wounded Warriors and veterans. Civilian careers 
within the DON offer a wealth of opportunities that allow Wounded 
Warriors to apply the wide array of skills and experience gained from 
their military service. Last year, veterans represented more than 50 
percent of new hires, with nearly 1 in 10 having a 30 percent or more 
compensable service-connected disability. Additionally, nearly 60 
percent of the Department's civilian workforce has prior military 
experience. The Department also continues to share best practices 
across the Federal and private sector, and annually hosts the Wounded 
Warrior Hiring and Support Conference.
    In addition to the successful efforts to help employ transitioning 
Sailors and Marines, the Department has also made tremendous strides to 
improve overall career readiness through the implementation of the 
newly designed Transition Assistance Program. Both the Navy and Marine 
Corps have reported compliance with the mandatory components of the 
transition program required by the Veterans Opportunity to Work to Hire 
Heroes Act (VOW Act) and implemented new and revised curriculum to 
facilitate pursuit of post-military goals. By the end of this year, 
program enhancements will also include the program's three 
individualized tracks for education, technical training, and 
entrepreneurship.
           strengthening shipbuilding and the industrial base
    Much has been said and written about the size of our Fleet. A few 
facts are in order. On September 11, 2001, the Navy's battle force 
stood at 316 ships. By 2008, after one of the great military buildups 
in American history, our battle force had shrunk to 278 ships. In 2008, 
the Navy built only three ships, and many of our shipbuilding programs 
were over budget or over schedule or both. Over the past 4 years, the 
Fleet has stabilized and many problems in our shipbuilding programs 
have been corrected or arrested. There are now 47 ships under contract, 
many under fixed-price contracts that ensure the Department receives 
the best value for our shipbuilding programs.
    Maintaining and increasing current Fleet numbers is a challenge in 
the current fiscal environment. However, it is important that we 
succeed in this effort as our defense strategy calls upon us to focus 
on the maritime-centric theaters of Pacific and Central Command, while 
still remaining engaged globally. This is why building up the number of 
ships in our Fleet has been my priority from day one. With your support 
it will continue to be a priority as we allocate our resources moving 
forward.
    The fiscal year 2013 shipbuilding plan projected that, by the end 
of the 5 years of the Future Years Defense Plan (FYDP), the Fleet, 
because of a large number of retirements, would have 285 ships, about 
the same number as exist today. Beyond the FYDP, the Fleet would again 
experience growth reaching 300 ships before the end of the decade. The 
plan maintains a flexible, balanced battle force that will prevail in 
combat situations, including in the most stressing A2/AD environments, 
while living within the reduced means allocated.
    Furthermore, our shipbuilding plan aims to build a Fleet designed 
to support the new defense strategy and the joint force for 2020 and 
beyond. A force structure assessment was recently completed and it 
found, due to the new defense strategy, forward basing and other 
variables that about 300 ships will be needed to meet the Navy's future 
responsibilities.
    Regardless of the final battle force number, the Fleet's ship count 
will begin to rise as major surface combatant and submarine building 
profiles are sustained and as the Littoral Combat Ships (LCS) and Joint 
High Speed Vessels (JHSVs) built during the next 5 years begin to enter 
fleet service.
    A healthy industrial base is necessary to support the Department's 
priorities going forward. Our Nation faces tough economic times, so our 
plan, as we noted earlier, to grow the Fleet to 300 ships by 2019 means 
we have to work closely with the shipbuilding industry to ensure we 
maintain their skill and capability while growing a fleet affordable to 
the American people. The industrial base also includes our aircraft 
manufacturers, and the industry teams that develop the payloads aboard 
our ships. We will work to ensure diversity in supply as we move ahead, 
and we will look for opportunities to compete.
             promoting acquisition excellence and integrity
    One of the most important obligations of public service is a 
responsibility to be good stewards of the American people's money; it 
is particularly important given today's fiscal realities. Rebuilding 
the fleet with the right platforms continues to be a top priority, and 
requires efficient and smart spending based on a realistic vision of 
the future force. At the heart of the Department's improved stewardship 
and leadership is the acquisition excellence initiative in force since 
2009.
    The central role Navy and Marine Corps play in the Nation's defense 
strategy drives the acquisition programs currently underway and those 
planned in the future. Contract requirements, aggressive oversight, and 
competition drive affordability. At every appropriate opportunity the 
Department pursues fixed price contracts like those in use for the LCS 
program, or multiyear procurements like those used to purchase the 
Virginia-Class Submarines, MV-22 Ospreys and MH-60 helicopters. The 
Department continues to look for other innovative funding strategies 
that help ensure a consistent workload for the industrial base, as well 
as focus on increasing productivity and fostering innovation both in 
industry and government. Total ownership costs, eliminating unnecessary 
bureaucracy, and unproductive processes are always considered as 
programs are developed. Using these methods to inject affordability and 
refine requirements in the LCS and DDG 51 programs, the Department cut 
over $4.4 billion from the projected cost of the ships, and over $4.9 
billion in projected life-cycle costs.
    To be responsible with the taxpayer's money also means we must take 
action against fraudulent contractors and shoddy work. The DON has 
greatly strengthened our suspension and debarment system, and enhanced 
its ability to protect the Department from unscrupulous and 
irresponsible contractors. NCIS has made significant investments in our 
major procurement fraud program and has realized a 300-percent return 
on investment through fines and recoveries associated with criminal 
prosecutions this year. During fiscal year 2012, the DON Suspending and 
Debarring Official (SDO) suspended or debarred 344 contractors, a 75-
percent increase from the previous year. Most of this increase was the 
result of aggressive pursuit of ``fact-based'' debarments of 
contractors who had been terminated for default or poor performance 
under a DON contract or who had mischarged costs against DON contracts, 
but also includes conviction-based debarments taken against contractors 
for fraud associated with Government contracts. The Government 
Accountability Office (GAO) has recognized the DON for its very active 
procurement fraud program, which actively pursues leads of contractor 
misconduct from numerous sources, and effectively carries out its 
suspension and debarment responsibilities under the Federal Acquisition 
Regulations.
    To protect the Department's research, development and acquisition 
(RDA) process from a counterintelligence (CI) perspective, NCIS has 
partnered with intelligence community members at locations of special 
interest. For example, integration of NCIS resources at University 
Applied Research Centers (UARC) and the Applied Research Laboratories 
has allowed NCIS CI agents and analysts to intensify their operational 
efforts and investigations that protect these prioritized programs and 
technologies. Operation ``Bigger Game'', an integrated RDA CI effort, 
resulted in the arrest of seven individuals affiliated with a UARC for 
illegally exporting high-tech microelectronics from the United States 
to Russian military and intelligence agencies.
    Over the past decade and a half the acquisition workforce was 
downsized. As a result, our expertise and experience was stretched too 
thin. With your support the Department has been slowly increasing the 
number of acquisition professionals, restoring the core competencies 
inherent in their profession and to our responsibilities in the 
Department to organize, train and equip the Navy and Marine Corps. 
Since starting the effort 3 years ago, the Department has grown the 
acquisition work force by 4,700 personnel, which has been key to 
increasing the necessary technical authority and business skill sets, 
and improving the probability of program success.
    Additionally the Department is keeping program managers in place 
longer to build up their expertise in and oversight of individual 
programs, which also contributes to program stability and success. The 
Department also invests in education for our program managers, who are 
sent to an intensive short course at the graduate business school at 
the University of North Carolina specifically targeting a better 
understanding of defense contractors. A pilot for mid-level managers 
began last year for a similar graduate level course at the University 
of Virginia Darden Business School. The Department is also changing the 
way program leaders are evaluated and now incentivizes them to work 
with their industry counterparts to manage costs. Finally, acquisition 
workforce professionalization is receiving the attention it deserves, 
and more resources are targeted to individual training, education, and 
experience for individuals in key leadership positions.
               developing and deploying unmanned systems
    Unmanned systems will continue to be key military platforms, both 
in the maritime domain and ashore. Successful integration of the 
unmanned systems begins with the Sailors and Marines who support the 
effort. In October 2012, we established Unmanned Helicopter 
Reconnaissance Squadron 1 (HUQ-1), the first dedicated rotary-wing UAV 
squadron in the Navy, to train Sailors on the aircraft as well as 
provide deployable detachments. Across the entire spectrum of military 
operations, an integrated and hybrid force of manned and unmanned 
platforms is the way of the future. In the past year the Department has 
made significant movement forward in the development of unmanned 
systems.
    In 2012 USS Klakring deployed with four MQ-8B Fire Scouts operated 
by Helicopter Anti-Submarine Squadron (Light) 42 to conduct operations 
in the FIFTH and SIXTH Fleets. The ship and squadron, which deployed 
with a Fire Scout detachment in 2011 in support of counterpiracy 
operations and operations off of Libya, continued to develop the 
tactics, techniques, and procedures to integrate the Fire Scout 
helicopters into fleet operations. Another detachment of three Fire 
Scouts flew over 3,000 hours of ISR missions for Marines engaged in 
combat operations in Afghanistan. The next generation Fire Scout, the 
MQ-8C, made its first flight in 2010 and began production in 2012. It 
has greater range and payload capacity and it will fly its first 
missions to serve with Naval Special Warfare.
    In unmanned rotary-wing aviation, the Marines have continued 
experimenting with the Cargo Resupply Unmanned Aerial System (CRUAS), 
using unmanned K-MAX helicopters for resupply in Afghanistan. These 
UAVs carry cargo to patrol bases and forward operating bases, 
eliminating the need for dangerous convoys. The contract was extended 
for another 6-month deployment in Afghanistan, in order to build on the 
system's success.
    A good example of integrating manned and unmanned systems is the 
Mine Countermeasures (MCM) Mission Module in LCS. This module includes 
the Remote Multi-Mission Vehicle (RMMV), which will tow the AN/AQS-20A 
mine hunting sonar to find mines, paired with a manned MH-60S 
helicopter with the Airborne Mine Neutralization System (AMNS) system 
to neutralize them. The development team is working with unmanned 
surface craft for autonomous mine sweeping and shallow water mine 
interdiction, as well as vertical take-off UAVs for detection and 
neutralization. USS Independence (LCS 2) has already conducted 
developmental testing of the RMMV and continues to develop operating 
concepts and procedures.
    This spring will bring the first flight of the MQ-4C Triton, the 
unmanned element of Navy's maritime patrol system of systems. Based on 
the proven Global Hawk, the Triton will play a central role in building 
maritime domain awareness and prosecuting surface targets. Further 
testing and evaluation will occur in 2013. Its experimental 
predecessor, the BAMS-D demonstrator aircraft, continues to provide 
maritime surveillance in FIFTH Fleet and to develop operating concepts 
for the aircraft.
    The Unmanned Carrier Launched Airborne Surveillance and Strike 
system, or UCLASS, is changing the way reconnaissance and strike 
capabilities are delivered from our aircraft carriers. Designed to 
operate alone in permissive environments or as part of the air wing in 
contested environments, UCLASS will conduct ISR&T and/or strike 
missions over extended periods of time and at extreme ranges. Unlike 
manned carrier aircraft, UCLASS will not require flights solely to 
maintain pilot proficiency. The UCLASS airframe will be employed only 
for operational missions and operators will maintain proficiency in the 
simulator, extending its useful life expectancy considerably. Its 
airborne mission time will not be limited by human physiology but 
rather will be determined by tanker availability, ordnance expenditure, 
or the need to conduct maintenance. At NAS Lakehurst, the X-47 Unmanned 
Combat Air System, Aircraft Carrier Demonstrator (UCAS-D) conducted its 
first launch via catapult. In December, the X-47 went to sea for the 
first time aboard USS Harry S Truman and conducted integration testing 
and evaluation with the flight deck crews for taxi checks and flight 
deck operability. Increased autonomy will continue to evolve and will 
continue to expand the possibilities of what can be done with unmanned 
systems flying from a carrier. Integrated manned and unmanned systems 
will provide a more effective fighting force while helping to reduce 
risk to our Sailors and Marines.
       recognizing energy as a strategic national security issue
    How the Navy and Marine Corps use, produce, and procure energy is a 
critical operational element. From the adoption of steam power over 
sail, the development of oil burning power plants, or the move to 
nuclear power more than half a century ago, the Navy has a history of 
leading in energy innovation. In this fiscally constrained environment 
we must use energy more efficiently and effectively. This fiscal 
environment also means that the Department must continue to lead on and 
invest in alternative energy. Failure to do so will leave a critical 
military vulnerability unaddressed and will expose the Department to 
price shocks inherent in a global commodity like oil.
    The Department's energy initiatives are about combat and 
operational effectiveness. In wartime, energy is a tactical and 
operational vulnerability. Because of the massive amount of fuel that 
the Department uses, price shocks in the global market have a 
significant impact on budget resources. Every time the cost of a barrel 
of oil goes up a dollar, it effectively costs the Department an 
additional $30 million in fuel costs. These price spikes are mostly 
paid out of operational funds, which mean less steaming time, less 
flight time, less training time for our Sailors and Marines and lack of 
facilities sustainment. To help address these operational 
vulnerabilities and threats to our combat effectiveness, in 2009 I 
established energy goals for the Department. These goals drive the Navy 
and Marine Corps to strengthen our combat capability by using energy 
more efficiently and by diversifying our sources of power.
    Efficiency and innovation are key starting points to changing the 
way we use energy. USS Makin Island, the fleet's newest amphibious 
assault ship, is a great example. Designed with energy efficiency in 
mind, it has a unique hybrid electric power plant instead of the steam 
plant powering the rest of the Wasp class. The ship returned from its 
maiden deployment last year and, between the highly efficient systems 
and the energy awareness of the crew, saved the Navy $15 million in 
fuel costs out of a budgeted $33 million over the 7-month deployment. 
Plans for the two following ships, USS America and USS Tripoli, include 
hybrid electric systems like Makin Island and we are working on a 
similar system to back-fit it onto Flight IIA Burke Class DDGs.
    The Marine Corps has proven and is proving that energy efficient 
and renewable energy equipment increases combat effectiveness. 
Recognizing a combat multiplier, the Marines Corps came up with an 
innovative process to shorten the timeline from concept to combat. In 
just a year, using the Experimental Forward Operating Base (ExFOB) 
process, the Marine Corps equipped Marines with new capabilities that 
reduce the burden of fuel and batteries. Since Third Battalion, Fifth 
Marines deployed to Helmand Province in fall of 2010 with solutions 
identified through ExFOB, this equipment has become a standard part of 
the Marine Corps kit. Marine Battalions in Afghanistan are equipped 
with these energy technologies so we now have sniper teams, Special 
Operations teams, Communication units, Infantry and Artillery Units, 
and teams training our Afghan partners employing ExFOB-proven gear, 
from solar blankets to power radios, LED lights to illuminate tents, 
and solar generators to provide power at forward operating bases and 
combat outposts. These capabilities have made a real impact: enabling a 
foot patrol to operate for 3 weeks without battery resupply, reducing 
the backpack load on Marines, and increasing self-sufficiency at 
operations centers. Continuing to aggressively pursue solutions, ExFOB 
deployed hybrid power solutions to Patrol Base Boldak in Afghanistan. 
With the lessons learned at Boldak, the Marine Corps is now writing 
requirements to redefine how they power the Force-with hybrid power 
systems and fewer generators that are right-sized for the mission. 
Capabilities that increase combat power through greater energy 
performance have become fundamental to Marine Corps modernization.
    The Department continues to develop the drop-in, advanced biofuel 
initiative for our ships, aircraft, and shore facilities. Under the 
Defense Production Act, the Department of the Navy has teamed with the 
Departments of Agriculture and Energy to fund the Advanced Drop-in 
Biofuel Initiative to help the development of multiple, geographically 
dispersed biorefineries. Last fall, DOD issued a multi-stage 
solicitation under Title III of the Defense Production Act (DPA) that 
sought to construct or retrofit through public-private partnerships 
multiple, commercial-scale next generation bio-refineries 
geographically located and capable of producing cost-competitive, ready 
drop-in biofuels that meet or exceed military specifications. Soon, DOD 
will finalize negotiations with several companies that have met the 
criteria, including demonstrating the ability to domestically produce 
alternative fuels by 2016-2017 that are very cost-competitive with 
petroleum.
    This past year the Navy purchased a B20 blend (80 percent 
conventional/20 percent biodiesel) for the steam plant at the St. 
Julien's Creek Annex, near Norfolk, VA. The cost of the B20 is 13 cents 
per gallon less expensive than conventional fuel, and is projected to 
save the facility approximately $30,000 over the 2012-2013 heating 
season.
    Drop-in fuels are necessary so that no changes to our engines, 
aircraft, ships, or facilities are needed to burn the fuel and so we 
retain operational flexibility to use whatever fuel is available. After 
testing individual platforms in 2011, in 2012 the Department took an 
important leap forward toward the goal of globally deploying ships and 
aircraft in maritime operations on competitively priced biofuels by 
2016. At RIMPAC, the entire Nimitz Carrier Strike Group, from the 
surface escorts to the helicopters flying patrol and logistics 
missions, conducted operations on a 50/50 conventional and biofuel 
blend. The ships of the strike group also demonstrated energy efficient 
technologies to reduce the overall energy use, including solid-state 
lighting, on-line gas turbine waterwash, and shipboard energy 
dashboards.
    This year I issued the Department's ``Strategy for Renewable 
Energy'' to outline our path to procuring one gigawatt (GW) of 
renewable energy for our shore facilities by 2020. For reference, one 
GW can power a city the size of Orlando. This strategy will help us 
achieve the goal of obtaining 50 percent of our power ashore from 
alternative energy sources, at no additional cost to the taxpayer. The 
Department chartered a 1GW Task Force to create an implementation plan, 
calling on each region of our shore establishment to develop their own 
energy plans to help achieve these goals. In fiscal year 2012 we 
initiated four power purchase agreements for large scale renewable 
energy including three photovoltaic projects, each of which will 
provide electricity cheaper than conventional sources and will save a 
total of $20 million over the lives of the agreements, and a waste-to-
energy facility at MCAS Miramar that is cost neutral when compared to 
conventional power. All four of these projects have been developed with 
third party financing.
    Continued leadership in this field is vital to the Nation's future. 
Our allies and friends around the world are actively exploring the 
potential of efficiency and alternative energy to increase combat 
effectiveness and strategic flexibility. The Australian Navy is 
drafting an alternative fuels policy, and the Department is working 
closely with them to ensure interoperability so that our forces can use 
alternative fuels together. The British Army, partnered with Marines in 
Afghanistan, has begun to use alternative energy equipment developed by 
the Marines in their ExFOB program at the bases they operate in 
theater. These partnerships are emblematic of the types of engagements 
with our allies around the world on important topics such alternative 
fuels, energy efficiency and renewable energy that we must continue to 
lead to provide secure alternatives, improve reliability of fuel 
supplies, and enhance combat and operational effectiveness.
    Energy, fuel, and how we power our ships have always been a vital 
issue for the United States Navy. Those who question why the Navy 
should be leading in the field forget the Navy's leadership in energy 
throughout history. From John Paul Jones rebuilding the sailing rig of 
USS Ranger in France in order to make the ship faster and more 
efficient before raiding the British seacoast, to the deployment of our 
first nuclear powered aircraft carrier USS Enterprise, which was just 
decommissioned, the energy and fuel to propel the Fleet has been a key 
element of the U.S. Navy's success.
               maritime partnerships and forward presence
    For almost seven decades, U.S. Naval forces have maintained the 
stability and security of the global maritime domain, upholding the two 
key economic principles of free trade and freedom of navigation, which 
have underwritten unprecedented economic growth for the global economy. 
As 90 percent of worldwide trade and over half of global oil production 
are moved at sea, this system, and the sophisticated set of 
international rules and treaties upon which it is based, has become 
central to the economic success of the global marketplace. However its 
efficiencies, and the demanding timelines of a ``just in time'' 
economy, place it at risk from the destabilizing influences of rogue 
nations and non-state actors. While our engagement with and assurance 
of this global system are not without cost, the risk of instability, 
stagnant global economic growth and a decline in national prosperity 
could be dramatic.
    Providing security across the global maritime domain requires more 
capacity and capability than any single nation is able to muster 
especially within the current fiscal constraints. Building partner 
capacity helps distribute the burden of securing the global maritime 
domain based on alliances, shared values and mutual trust. The Navy and 
Marine Corps are naturally suited to develop these relationships. Trust 
and partnerships across the globe cannot be surged when conflict looms 
if they have not been established in times of peace.
    Forward presence is the key element of seapower, which can help 
deter or dissuade adversaries from destabilizing the system or starting 
a military conflict. U.S. Naval forces operating around the world 
underwrite the credibility of our global leadership, and give meaning 
to our security guarantees. They demonstrate shared commitments and 
concerns, and reinforce regional security without a large and expensive 
footprint ashore. Forward deployed naval forces allow us to provide a 
full range of options to the President and the Combatant Commanders; 
from a single Patrol Craft to a Carrier Strike Group; from a platoon of 
SEALs to a Marine Air-Ground Task Force; that ensure our leaders have 
the adaptable and flexible forces needed to respond to any challenge 
and retain an element of control in the escalation of conflict. The 
ability to concentrate forces for military operations in times of 
crisis, or distribute them to engage allies, partners, and friends in 
times of relative peace, depends on maintaining naval forces forward. 
As does our ability to be present during a crisis and avoid the 
appearance of escalation.
    In addition to the exercises and operations previously described, 
senior leader engagement and training opportunities for our allies, 
partners, and friends are important components of building 
international relationships and trust. As Secretary, I have had the 
opportunity to meet with 35 heads of state and government, over 60 
ministers of defense, over 80 Chiefs of Navy, as well as additional 
military leaders and many foreign military personnel. The U.S. Naval 
Academy, the U.S. Naval War College, Marine Corps University, and the 
Naval Post Graduate School host international students who return home 
with not only a first-rate education, but with friendships and new 
perspectives on the United States and its people that can have a 
significant impact on future military-to-military relationships.
                   fiscal year 2014 budget submission
    Every strategy is a balance of responsibilities and resources. The 
Department's ability to meet the demands of today's operations, in 
support of our Defense Strategic Guidance, depends on anticipating and 
preparing for the changing geopolitical landscape and having the proper 
resources ready to deploy. The Department will continue to maintain the 
capabilities required to ensure that the Navy and Marine Corps is the 
finest expeditionary force in the world, however proper resourcing is 
needed to maintain our capacity for global operations.
    With the resources as laid out in the fiscal year 2014 budget 
request, the battle force of 2019 will include the following platforms.
Nuclear-Powered Aircraft Carriers and Air Wings
    With the 2016 delivery of USS Gerald R. Ford, the first of a new 
class of nuclear-powered aircraft carriers, the number of carriers in 
commission returns to eleven. The Department will sustain that number 
at a minimum through the middle of this century. The Ford class of 
carrier is a completely new ship within a rearranged Nimitz hull. The 
Ford class contains new shipboard systems like an electromagnetic 
launch system and advanced arresting gear, and with advanced combat 
capabilities resident in the F-35C Lightning II Joint Strike Fighter, 
F/A-18E/F Super Hornet, EA-18G Growler electronic attack aircraft, E-2D 
Advanced Hawkeye airborne early warning aircraft, the MH-60 Sierra and 
Romeo tactical helicopters, and new unmanned aerial systems.
Nuclear-Powered Attack Submarines
    There are nine Virginia-class submarines already in commission and 
seven more at various stages of construction. The planned fiscal year 
2014-2018 Multi-Year Procurement (MYP) of nine submarines remains 
intact, and, with the 2013 congressional action, advanced procurement 
has been authorized and appropriated for a tenth boat to be ordered in 
2014. I would like to thank the Congress for their support of our 
submarine programs. Your continued support is needed for the advance 
appropriation required to complete the procurement of the tenth 
Virginia-class boat. This means that these flexible, versatile 
platforms will be built at the rate of two per year during the FYDP 
with the cost-saving benefits afforded by the multiyear procurement 
contract.
    With four guided missile submarines (SSGNs) decommissioning in 
2026-2028, the Department will continue to invest in research and 
development for the Virginia Payload Module (VPM). VPM could provide 
future Virginia-class SSNs with four additional large diameter payload 
tubes, increasing her Tomahawk cruise missile capability from 12 to 40 
and adding other payload options.
Guided Missile Cruisers and Destroyers
    Modular construction of the DDG 1000 Class Destroyers is proceeding 
apace, with commissioning of all three ships of this class planned 
between 2015 and 2019. The Arleigh Burke-class DDGs (DDG 51s) remain in 
serial production, with plans in place for a multiyear purchase of up 
to ten ships through fiscal year 2017. As part of that multiyear 
purchase, the Navy intends to seek congressional approval for 
introducing the DDG 51 Flight III aboard the second fiscal year 2016 
ship based on the achievement of a sufficient level of technical 
maturity of the Air and Missile Defense Radar (AMDR) development 
effort. The Flight III Destroyer will include the more powerful AMDR 
providing enhanced Ballistic Missile Defense (BMD) and Air Defense 
capability. The modernization program for in-service Ticonderoga-class 
CGs and Arleigh Burke-class DDGs is progressing satisfactorily, with 
hull, machinery, and electrical system maintenance and repairs; 
installation of advanced open architecture combat systems, and upgrades 
to weapons/sensors suites that will extend the service life and 
maintain the combat effectiveness of these fleet assets.
Littoral Combat Ships
    With their flexible payload bays, open combat systems, advanced 
unmanned systems, and superb aviation and boat handling capabilities, 
LCSs will be an important part of our future Fleet. This spring we 
forward deployed the first LCS, USS Freedom, to Singapore and will 
forward deploy four by ca lender year 2016. Crew rotation plans will 
allow for substantially more LCS forward presence than the frigates, 
Mine Counter-Measures ships, and coastal patrol craft they will 
replace, and will free our multi-mission capable destroyers for more 
complex missions. The Department remains fully committed to our plan of 
purchasing 52 Littoral Combat Ships.
Amphibious Ships
    Thirty amphibious landing ships can support a two-Marine 
Expeditionary Brigade (MEB) forcible entry operation, with some risk. 
To generate 30 operationally available ships, the strategic review 
envisions an amphibious force consisting of 33 ships total. The 
objective fleet will consist of 11 big deck Amphibious ships (LHA/LHD), 
11 Amphibious Transport Docks (LPD), and 10 Landing Ship Dock (LSD). To 
support routine forward deployments of Marine Expeditionary Units 
(MEUs), the amphibious force will be organized into nine, three-ship 
Amphibious Ready Groups (ARGs) and one four-ship ARG forward based in 
Japan, plus an additional big-deck Amphibious ship available to support 
contingency operations worldwide.
Afloat Forward Staging Bases (AFSBs)
    The Navy is proposing to procure a fourth Mobile Landing Platform 
(MLP) in fiscal year 2014, configured to serve as an Afloat Forward 
Staging Base (AFSB). This AFSB will fulfill an urgent Combatant 
Commander requirement for sea-based support for mine warfare, Special 
Operations Forces (SOF), Intelligence, Surveillance and Reconnaissance 
(ISR), and other operations. The work demonstrated by the interim AFSB, 
USS Ponce, has been very encouraging. To speed this capability into the 
fleet, and to ultimately provide for continuous AFSB support anywhere 
in the world, we are designing and building the fiscal year 2012 MLP 3 
to the AFSB configuration, resulting in a final force of two MLPs and 
two AFSBs. This mix will alleviate the demands on an already stressed 
surface combatant and amphibious fleet while reducing our reliance on 
shore-based infrastructure and preserving an important part of our 
shipbuilding industrial base.
Naval Aviation
    The Department continues to evaluate the needs of naval aviation to 
ensure the most efficient and capable force in line with the Defense 
Strategic Guidance. The Navy procured the final F/A-18 Super Hornet in 
fiscal year 2013 for delivery in fiscal year 2015 for a total of 552 
aircraft. EA-18 Growler will complete program of record procurement 
with 21 EA-18G in fiscal year 2014 for delivery in fiscal year 2016 for 
a total of 135 aircraft. The Department's review of aviation 
requirements has validated the decision to purchase 680 Navy and Marine 
Corps F-35s. The F-35 procurement remains steady, with 4 F-35C and 6 F-
35B. The Marine Corps stood up the first F-35 operational squadron, 
VMFA-121, in November, 2012. The Fleet Replacement Squadron, VFA-101, 
is expected to receive its first F-35C in April 2013.
    The Department of the Navy continues to monitor strike fighter 
capacity. Changes in the USMC force structure, accelerated transition 
from the legacy Hornet aircraft to the Super Hornets, high flight hour 
extensions for legacy hornets and lowered utilization rates resulted in 
an appropriately sized strike fighter aircraft inventory. Based on 
current assumptions and plans, strike fighter aircraft shortfall is 
predicted to remain below a manageable 29 aircraft through 2023, with 
some risk.
    In the long term, the Navy will need to replace its F/A-18E/F 
Fleet. Pre-Milestone A activities are underway to define the follow-on 
F/A-XX aircraft. Navy continues to develop the first-generation 
Unmanned Carrier-Launched Airborne Surveillance and Strike System 
(UCLASS), which will provide long-range, persistent ISR&T with 
precision strike capability, enhancing the carrier's future ability to 
provide support across the range of military operations in 2020 and 
beyond. UCLASS will utilize the flexibility and access inherent in 
carrier operations to provide the Joint Force and Combatant Commanders 
with on demand intelligence and strike capability against time-
sensitive targets while on station.
    In fiscal year 2014 the DON is seeking approval for a MYP of 32 E-
2D aircraft over a longer term than originally proposed. Over the FYDP, 
purchases of P-8s have been reduced by eight aircraft, which reflects 
the Department's intent to procure all the aircraft originally planned, 
but at a slower rate in order to distribute the costs more evenly.
                              marine corps
    As the Nation's ready response force, the Marine Corps, by 
definition, remains at a high state of readiness. The demands of a 
ready force require careful balance across these accounts to avoid a 
hollowing of the force. The Department is executing an approved multi-
year plan to draw down the Corps from an end strength of 202,100 in 
early 2012 to 182,100 by the end of fiscal year 2016. The drawdown is 
on pace at approximately 5,000 Marines per year and anticipates that 
voluntary separations will be adequate to meet this planned rate. The 
Marines will resort to involuntary separations only if absolutely 
necessary. But, no matter how a Marine leaves, we remain committed to 
providing effective transition assistance and family support.
    The Joint Strike Fighter continues as the Marine Corps number one 
aviation program. The F-35 will replace the Marine Corps' aging legacy 
tactical fleet; the F/A-18A-D Hornet, the AV-8B Harrier and the EA-6B 
Prowler, bringing the force to one common tactical fixed-wing aircraft. 
The integration of F-35B will provide the dominant, multi-role, fifth-
generation capabilities needed across the full spectrum of combat 
operations, particularly to the Marine Air Ground Task Force (MAGTF) 
and the Joint Force. Having successfully completed initial ship trials, 
dropping a variety of ordnance and completing hundreds of successful 
test flights, the F-35B continues to make significant progress, 
culminating with the standup this past November of the first 
operational JSF squadron, VMFA-121, in Yuma, AZ.
    The Marine Corps' ground vehicle programs are also a critical 
element of revitalizing the force after age and operational tempo have 
taken their toll on the equipment. Two key programs for the Ground 
Combat Elements are the Joint Light Tactical Vehicle (JLTV) and the 
Amphibious Combat Vehicle (ACV). The JLTV will provide the Marine Corps 
tactical mobility with a modern expeditionary light utility vehicle. 
The initial planned purchase of 5,500 vehicles has been reduced based 
on our constrained fiscal environment, and the Marine Corps will need 
to refurbish the remaining High Mobility Multi-Purpose Wheeled Vehicle 
(HMMWV) fleet in order to fill out less dangerous missions. The ACV is 
central to the Marine Corps role as an amphibious force providing 
forcible entry and crisis response. The ACV program will develop the 
next generation amphibious, armored personnel carrier that will help 
ensure the Marine Corps can continue to bridge the sea and land 
domains. The Marines' Light Armor Vehicle (LAV) Mobility and 
Obsolescence program is on track to extend the service life of the LAV 
by replacing or upgrading several components including the suspension 
and drive systems. The Marine Corps' ability to exploit an obsolete but 
already produced suspension system from the Army's Stryker vehicles has 
saved at least $162 million taxpayer dollars.
    Of particular concern is the fact that the Marine Corps 
modernization accounts represent only 14 percent of the Marines' total 
obligation authority. Because of this level of modernization funding, 
even proportional cuts have disproportionate impact on the many small 
programs essential to modernization of the Corps. Combining this with 
efforts to reconstitute the force as it returns from Afghanistan, our 
reset strategy, which focuses on the most economical way to restore 
equipment readiness, is vital to the Marine Corps' future.
    Keeping faith with our Marines as we reduce the force, maintaining 
our plans for the modernization of the force, and resetting our 
equipment after a decade in combat depend on appropriate funding.
                               conclusion
    The Founding Fathers, in their wisdom, placed in the Constitution 
the requirement that Congress ``provide for and maintain a Navy.'' In 
the 21st Century, that force is as vital, or more so, to our national 
security as it has been throughout our Nation's history. As we 
commemorate the bicentennial of the Battle of Lake Erie, we continue to 
recognize our Navy's history in the War of 1812. Captain Oliver Hazard 
Perry led his men through a bloody battle, in the end reporting that 
``we have met the enemy, and they are ours.'' It was the first time 
that an entire squadron of the Royal Navy surrendered to an enemy 
force. The battle was a critical naval victory and represents more than 
just the skill and daring of our Navy in the Age of Sail. The joint 
operations that followed, with Perry's naval forces conducting an 
amphibious landing and providing naval gunfire support for an Army 
invasion of Canada, were early examples of joint power projection. It 
serves as a reminder that the Navy and Marine-Corps Team has a vital 
role to play in the defense of our Nation, but is a teammate with our 
joint partners who all contribute to success and victory.
    The goals and programs we have discussed today will determine our 
future as a global force. We have worked to streamline our processes 
and increase efficiency, to work toward innovative new solutions to our 
21st Century problems, and to eliminate programs that no longer apply 
in the current strategic environment. We have done this to ensure that 
we retain the ability to deter regional conflict and respond rapidly 
and decisively to emerging crises.
    Our specific requests are reflected in the President's fiscal year 
2014 budget submission. Today's economic environment and our Nation's 
fiscal constraints demand strict stewardship and leadership. The 
process by which we arrived at the Department's budget requests was 
determined, deliberate, and dedicated to our responsibility to you and 
the taxpayer. I can assure you that the Department has thoroughly 
considered the risks and applied our available resources efficiently 
and carefully to align our request with the President's Defense 
Strategic Guidance.
    Today, your Navy and Marine Corps are deployed across the spectrum 
of military engagement around the world, from direct combat operations 
to providing security in the maritime domain to humanitarian 
assistance. Our Sailors and Marines often seem to be everywhere except 
at home. Their hard work and success are based on the unparalleled 
professionalism, skill, and dedication that ensure their dominance in 
every clime and place. The Commandant, CNO, and I look forward to 
answering your questions. This Committee's continued and enduring 
support for our policies, payloads, platforms, and people enables us to 
fulfill the historic charge of the Founders to sail as the Shield of 
the Republic.
    Thank you.

    Senator Durbin. Thank you, Mr. Secretary.
    Now the Chief of Naval Operations, Admiral Jonathan 
Greenert. Your written statement will be made part of the 
record.
STATEMENT OF ADMIRAL JONATHAN W. GREENERT, CHIEF OF 
            NAVAL OPERATIONS, UNITED STATES NAVY
    Admiral Greenert. Thank you, Mr. Chairman. Chairman Durbin, 
Chairwoman Mikulski, Vice Chairman Cochran, and distinguished 
members of the committee, it is my pleasure to appear before 
you today to testify on the Navy's fiscal year 2014 budget and 
our posture. I am honored to represent the 613,000 Active and 
Reserve sailors, Navy civilians, and their families who are 
serving today.
    I want to thank the committee for Public Law 113-6. That 
bill, that appropriation, made a huge impact on our readiness, 
and I thank you all very much individually and collectively for 
your dedication to that.
    This morning, I would like to address three points: Our 
enduring tenets for decisionmaking, our budget strategy for 
2013 and the subsequent carryover that we will have as we go 
into 2014, and our intended course in 2014.
    Two important characteristics of our naval forces describe 
our mandate, and that is that we will operate forward where it 
matters, and that we will be ready when it matters. Our 
fundamental approach to meeting this responsibility remains 
unchanged.
    We organize, man, train, and equip the Navy by viewing our 
decisions through what I would call lens or tenets, and they 
are war fighting is first, we will operate forward, and we need 
to be ready. Regardless of the size of our budget or the size 
of our fleet, these three tenets are the lens through which we 
will evaluate all of our decisions.
    If you refer to the chart that I have provided for you that 
is in front, you will see that on any given day we have about 
50,000 sailors and 100 ships deployed overseas, providing a 
forward presence around the world.
    [The chart follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Admiral Greenert. The orange kind of bow ties on the chart 
represent what I call maritime crossroads in and around the 
world where shipping lanes and our security concerns tend to 
intersect.
    A unique strength of your fleet is that it operates forward 
from bases represented by circles in the continental United 
States, and outside the continental United States, and from 
places that are provided by partner nations. And they are 
represented there on your chart by squares. These places are 
critical to your Navy being where it matters because they 
enable us to respond rapidly to crises, and they enable us to 
sustain forward presence with fewer ships by reducing the 
number of ships that need to be on rotational deployment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Admiral Greenert. The reverse of the chart will describe 
the plan for our deployments in the future, clearly showing the 
rebalance and shifts to the Asia-Pacific region while 
sustaining our presence in the Middle East.
    Now in February, we faced a shortfall of about $8.6 billion 
in our 2013 operations and maintenance account. Since then, 
thanks to the efforts of this committee in particular, we 
received a 2013 appropriation in March. In accordance with our 
priorities and our tenets, we plan to invest our remaining 2013 
operations and maintenance funds to fund our must-pay items, 
such as contracts, leases, and utilities to reconcile our 2013 
presence with our combatant commanders, and to conduct training 
and maintenance for forces that will be next to deploy, and to 
prepare to meet the 2014 Global Force Management Allocation 
Plan. That is my covenant with the global combatant commanders, 
to provide forces. And lastly, to restore critical base 
operations and renovation projects.
    Although we intend to meet our most critical operational 
commitments to the combatant commanders, sequestration leaves 
us with a $4.1 billion operation and maintenance shortfall, and 
a $6 billion investment shortfall in 2013. This will result in 
our surge capacity of fully mission capable carrier strike 
groups and amphibious ready groups, for example, being reduced 
by two-thirds through 2014. Further, we will have deferred 
about $1.2 billion in facility maintenance as well as depot 
level maintenance for 84 aircraft and 184 aircraft engines.
    All combined, our operations and maintenance and our 
investment shortfalls will leave us with a $9 billion carryover 
challenge for 2014. A continuation of sequestration in 2014 
will compound this carryover challenge from $9 billion to $23 
billion. Further, the accounts and the activities that we were 
able to protect in 2013, such as manpower, and nuclear 
maintenance, and critical fleet operations, will be liable to 
reduction in this scenario.
    Our people have remained resilient in the face of this 
uncertainty, and I frankly have been amazed throughout this 
process with their patience and their dedication, both of our 
sailors and our civilians, and, of course, their families.
    Our 2014 budget submission supports the defense strategic 
guidance that enables us to maintain our commitments in the 
Middle East and our rebalance to the Asia-Pacific. Now, we 
prepare the 2014 budget with the following priorities: One, to 
deliver overseas presence in accordance with the Global Force 
Management Plan; two, to continue our near-term investments to 
address challenges in the Middle East and the Asia-Pacific 
region; and three, to develop long-term capabilities at the 
appropriate capacity to address war fighting challenges in the 
Middle East and the Asia-Pacific region.
    Our budget submission continues to invest in the future 
fleet. We have requested $44 billion in ships, submarines, 
manned and unmanned aircraft, weapons, cyber, and other 
procurement programs, like the Joint Strike Fighter, combat 
ship, unmanned aerial vehicles, the DDG-1000, the P-8 Poseidon, 
just to name a few. These investments will deliver a fleet of 
300 ships by 2019 with greater interoperability and greater 
flexibility when you compare it with today's fleet.
    We continue also to fund important high technology and 
asymmetric capabilities, such as a laser weapon system for 
small boat and drone defense, which will deploy aboard the 
ship, Ponce, in the spring of 2014. Also in 2014, we will 
deploy on the carrier George Herbert Walker Bush a prototype 
system that was tested to detect and defeat advanced wake-
homing torpedoes.
    We continue to grow our manpower by about 4,600 sailors 
compared to our plan in last year's budget. These new sailors 
will reduce our manning gaps at sea, enhance Navy cyber 
capabilities, and improve our waterfront training.
    We will continue to address critical readiness and safety 
degraders, such as sexual assault, suicides, operational tempo 
increase, and our at-sea manning.

                           PREPARED STATEMENT

    Mr. Chairman, this budget places our Navy on a course which 
enables us to meet the requirements of defense strategic 
guidance today, while building a relative future force, and 
sustaining our manpower for tomorrow. We appreciate everything 
you and this committee do for our sailors and civilians of our 
Navy as well as their families. We again ask for your support 
in removing the burden of sequestration so that we may better 
train, better equip, and deploy these brave men and women in 
defense of our Nation.
    Thank you.
    [The statement follows:]
           Prepared Statement of Admiral Jonathan W. Greenert
    Chairman Durbin, Vice Chairman Cochran, distinguished members of 
the committee; it is my pleasure to appear before you today to testify 
on the Navy's fiscal year 2014 budget and posture. I am honored to 
represent the approximately 613,000 active and reserve Sailors and Navy 
Civilians serving today, as well as their Families.
             establishing the baseline for fiscal year 2014
    Before discussing our fiscal year 2014 budget submission, we have 
to clarify our current situation in fiscal year 2013. This will form 
the baseline for our fiscal year 2014 program. In February, Navy faced 
a shortfall of about $8.6 billion in our fiscal year 2013 operations 
and maintenance (O&M) account due to a combination of requirements 
growth, the Continuing Resolution and sequestration. Since then, thanks 
to the Congress's efforts, we received a fiscal year 2013 appropriation 
in March as part of the Consolidated and Further Continuing 
Appropriations Act of 2013. This appropriation restored about $4.5 
billion toward our total need in operations and maintenance. As a 
result, we have a fiscal year 2013 shortfall in operations and 
maintenance of about $4.1 billion, approximately 10 percent of the 
planned amount for this fiscal year.
    In accordance with our priorities and strategy, we are applying our 
remaining O&M funds to the following:
  --Pay ``Must Pay Bills''.--Ensure we have funding for bills such as 
        utilities, contracts, and reimbursables.
  --Reconcile Fiscal Year 2013 Readiness.--Sustain operations and 
        maintenance for the priority forces in accordance with the 
        defense strategy that will deploy to meet the current approved 
        fiscal year 2013 Global Force Management Allocation Plan 
        (GFMAP), which describes the forces required to be provided by 
        the services to the Combatant Commanders (CCDR) as directed by 
        the Secretary of Defense. Our remaining spending plan for 
        fiscal year 2013 will address furloughs of Civilians and 
        sustain non-deployed ship and aircraft operations so 
        appropriate forces prepare to deploy, and other forces operate 
        enough to be able to safely respond if needed to support 
        homeland defense.
  --Prepare To Meet Fiscal Year 2014 GFMAP.--Conduct training and 
        maintenance for forces that will deploy as part of the fiscal 
        year 2014 GFMAP, including guided missile destroyers (DDG) 
        transferring to Rota, Spain as part of the Forward Deployed 
        Naval Force (FDNF).
  --Restore Critical Base Operations and Renovation.--Sustain base 
        infrastructure and port and airfield operations to support 
        training and deployments needed for the fiscal year 2013 and 
        fiscal year 2014 GFMAP. We will also conduct health and safety-
        related facility repairs and continue high-return energy 
        efficiency projects.
    However, sequestration will result in a fleet and bases less ready 
than planned. For example, at sea we were compelled to recommend the 
fiscal year 2013 GFMAP be changed to cancel one ship deployment to the 
Pacific, two ship deployments to Europe and cancel all but one fiscal 
year 2013 ship deployment to U.S. Southern Command. We continue to 
evaluate opportunities to add deployments to these regions as our 
fiscal position becomes clearer. In addition to reducing overseas 
deployments, we will also reduce the amount of operations and training 
our ships and aircraft will conduct when not deployed.
    And, we reduced maintenance, including deferral of depot 
maintenance on 84 aircraft and 184 engines, and reducing the scope of 
two ship maintenance availabilities. We plan to recover this backlog 
during fiscal year 2014. With the Congress's approval of our proposed 
fiscal year 2013 reprogramming, we will restore all of our planned ship 
maintenance availabilities remaining in fiscal year 2013.
    The impact of reduced fleet operations and maintenance will be less 
surge capacity, but we will retain the ability to support the fiscal 
year 2014 GFMAP. All our forces deploying in fiscal year 2013 and 
fiscal year 2014, including two carrier strike groups (CSG) and two 
amphibious ready groups (ARG) (one each in the Middle East and the 
Asia-Pacific), will be fully mission-capable and certified for Major 
Combat Operations. All our forces supporting operations in Afghanistan, 
where Navy aircraft fly about one-third of all tactical sorties, will 
also be fully mission-capable and certified. For surge, we will retain 
one additional CSG and ARG in the United States that are fully mission-
capable, certified for Major Combat Operations and available to deploy 
within 1-2 weeks. This is about one-third of our normal surge capacity. 
Overall, due to reduced training and maintenance, about two-third of 
the fleet will be less than fully mission capable and not certified for 
Major Combat Operations. Historically, about half of our fleet is in 
this status, since ships and squadrons are in training or maintenance 
preparing for their next deployment. While these forces will not be 
ready or certified to deploy overseas, they will remain able to 
respond, if needed, to support homeland defense missions.
    Ashore, we deferred about 16 percent of our planned fiscal year 
2013 shore facility sustainment and upgrades, about $1.2 billion worth 
of work. Recovering these projects could take 5 years or more, and in 
the meantime, our shore facility condition will degrade. We were able 
to sustain our Sailor and Family Readiness programs through fiscal year 
2013, including Child Development Centers, Fleet and Family Support 
Centers, and Sexual Assault and Prevention programs. We also fully 
funded a judicious Tuition Assistance program for our Sailors. Despite 
these efforts to reduce the impact of sequestration on our people, 
however, we must still consider furloughs for our Navy Civilians.
    Sequestration reduced the fiscal year 2013 funding for each of our 
investment programs by about eight percent, or about $6.1 billion 
total. We are still reconciling the impact of this reduction, but due 
to the mechanics of sequestration and limited reprogramming authorized 
by the fiscal year 2013 Defense Appropriations Act it is likely we will 
be compelled to reduce the number of weapons we purchase and the number 
of aircraft we buy in some of our aviation programs due to the 
reduction--including one E-2D Hawkeye, one F-35C Lightning II, one P-8A 
Poseidon and two MQ-8C Firescout. Our ship construction programs will 
need to restructure schedules and shift some outfitting costs to future 
years to address the nearly 8 percent sequestration reduction in fiscal 
year 2013. This will pass on ``costs to complete'' that will need to be 
reconciled in future years. These costs will not be an insignificant 
challenge as they may compel Navy to cancel the procurement of future 
ships to complete outfitting ships that are nearing delivery.
                  the impact of continued uncertainty
    Over the past 4 months we slowed our spending, stopped new program 
starts, and proceeded very deliberately in choosing our operations, 
deployments, and investments. We brought ``all hands on deck'' to work 
on revised plans for everything from how we provide presence to what we 
buy in fiscal year 2013. In the Fleet, this is standard procedure for 
proceeding through a fog bank--slow, deliberate and with limited 
visibility ahead; effectively, most other operations and planning stop 
because of the dangerous near-term situation. With a fiscal year 2013 
appropriation, we are now coming out of this ``fog,'' increasing speed, 
heading toward a national future, and reestablishing momentum behind 
our top priorities.
    This momentum, however, may be short-lived. While the fiscal year 
2014 budget submission includes deficit reduction proposals beyond that 
called for by the Budget Control Act of 2011 (BCA), it requires the 
BCA's lower discretionary budget caps are replaced in fiscal year 2014 
and beyond. If the discretionary caps are not revised, our fiscal year 
2014 obligation authority could be reduced $10-14 billion. This would 
compel Navy to again dramatically reduce operations, maintenance and 
procurement in fiscal year 2014, preventing us from meeting the fiscal 
year 2014 GFMAP and negatively impacting the industrial base. While 
military personnel compensation was exempted in sequestration during 
fiscal year 2013, if the lower discretionary budget caps of the BCA are 
retained, we will evaluate options to reduce personnel and personnel 
costs, including compensation and entitlements.
    The uncertainty inherent in our fiscal outlook prevents effective 
long-term planning and will begin to affect the ``Health of the 
Force.'' We can ill-afford the distraction of planning for multiple 
budget contingencies, stopping and restarting maintenance, changing 
operational schedules and restructuring investment programs. This 
constant change negatively impacts our Sailors and Civilians and their 
Families here at headquarters and in the Fleet. It also precludes us 
from looking long-term at how we should build, train, develop and 
posture the future force as we end two land wars in Middle East and 
rebalance our effort toward the Asia-Pacific.
    To begin planning for the long-term and ensure we are realistically 
confronting our strategic and fiscal challenges, the Secretary of 
Defense ordered a Strategic Choices and Management Review (SCMR). The 
review does not assume or accept that deep reductions to defense 
spending, such as those from sequestration, will endure or that they 
could be accommodated without a significant reduction in military 
capabilities. The review does reflect the Secretary's view that the 
Department of Defense must constantly examine the choices that underlie 
our defense strategy, posture, and investments, including all past 
assumptions.
    The SCMR will consider the 2012 Defense Strategic Guidance as the 
point of departure. It will define the major strategic choices and 
institutional challenges affecting the defense posture in the decade 
ahead that must be made to preserve and adapt defense strategy and 
management under a wide range of future circumstances. The results of 
this review will frame the Secretary's guidance for the fiscal year 
2015 budget and will ultimately be the foundation for the Quadrennial 
Defense Review due to Congress in February 2014.
                         our strategic approach
    Our first responsibility is to ensure Navy is able to deliver the 
overseas presence and capabilities required by our Defense Strategic 
Guidance (DSG) ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense'', as manifested in the GFMAP.
    Our mandate per the DSG is to be present overseas where it matters, 
and to be ready when it matters. A central element of the DSG to Navy 
is to field a ready force, with the right capabilities, postured in 
each region. The DSG concludes that a prompt, credible response by 
forward U.S. forces can demonstrate American resolve and can blunt the 
initial actions of an aggressor. This can in turn deter, assure, and--
if necessary--control escalation, contain the conflict and prevent it 
from growing into a larger war.
    Our fundamental approach to making decisions and implementing the 
DSG is unchanged since I assumed the office of the Chief of Naval 
Operations. We organize, man, train and equip the Navy by viewing our 
decisions through three lenses, or tenets. They are: Warfighting First, 
Operate Forward, and Be Ready. Regardless of the size of our budget or 
our fleet, these tenets are the key considerations we apply to each 
decision.
Warfighting First
    ``Warfighting First'' is a first principle. It is our fundamental 
responsibility; each decision inherent in our fiscal year 2014 program 
was viewed in terms of its impact on warfighting. Our forces must have 
relevant warfighting capability today to be credible--not at some point 
in the future. If the credibility of our forces is lost (or perceived 
lost) they cannot rebuild it easily or quickly. In developing our 
fiscal year 2014 budget submission we did not ``let perfect be the 
enemy of good--or good enough.'' For example, if a new system or 
capability would provide a probability of successfully defeating a 
threat 60 percent of the time, we will deploy it, particularly if 
today's probability of success is zero percent.
    To develop future capability, ``Warfighting First'' compels us to 
look for the most effective way to defeat a threat or deliver an effect 
that can be realistically fielded, efficiently. The logic we use to 
identify our most effective capabilities is to analyze the adversary's 
``kill chain'' or ``effects chain'' and pursue an asymmetric means to 
``break the chain.'' For example, to execute a successful attack, an 
adversary has to:
  --Find the target.
  --Determine the target's location, course and speed (or relative 
        motion).
  --Communicate that information coherently to a platform or unit that 
        can launch an attack.
  --Execute an attack using anything from a kinetic weapon to 
        electromagnetic systems to cyber.
Each (or any) of these ``links'' in the chain can be broken to defeat 
the threat. But some are more vulnerable than others and kinetic 
effects are not always the best way to break the chain. So instead of 
overinvesting and trying to break every part of the effects chain, we 
focus on those where the adversary has a vulnerability we can exploit 
or where we can leverage one of our own advantages asymmetrically.
    Similarly, we analyze our own effects chains for strengths and 
weaknesses; our fiscal year 2014 budget submission emphasizes proven 
technologies that limit the adversary's ability to defeat our ability 
to project power.
    We addressed challenges in the Arabian Gulf throughout 2012 and 
into this year by emphasizing ``Warfighting First.'' For example, in 
response to a Central Command urgent request and with the help of 
Congress, we rapidly outfitted the amphibious ship USS Ponce, 
previously an amphibious ship slated for decommissioning, to be an 
Afloat Forward Staging Base-Interim (AFSB-I) in support of mine warfare 
and special operations forces in the Arabian Gulf. To improve our mine 
warfare capabilities we rapidly deployed Mark 18 mine-hunting unmanned 
underwater vehicles (UUV) and SEAFOX mine neutralization systems to 
Ponce and our minesweepers (MCM). These systems became force 
multipliers and enable our forces to find and/or clear mines twice as 
quickly as the forces we deployed to the Arabian Gulf in 2012--taking 
1-2 weeks instead of 1-2 months depending on the size (and our 
knowledge) of the minefield. We tested these new capabilities and 
improved our ability to operate with a coalition by organizing and 
conducting an International Mine Countermeasures Exercise (IMCMEX) with 
34 other navies in the Arabian Gulf last September. We will hold 
another IMCMEX next month.
    In addition to improving our mine warfare capability in the Arabian 
Gulf, we increased our surveillance capability and our ability to 
counter fast attack craft and submarines in the region. Through rapid 
fielding efforts supported by the Secretary of Defense and the 
Congress, we added new electro-optical and infra-red sensors to our 
nuclear aircraft carriers (CVN), upgraded the guns on our Patrol 
Coastal (PC) ships based in Bahrain, fielded upgraded torpedoes for our 
helicopters deployed in the Arabian Gulf and deployed additional anti-
submarine warfare (ASW) sensors in the region. Each of these 
initiatives and our mine warfare improvements continue into fiscal year 
2014 as part of our budget submission.
    We also continued implementing the Air-Sea Battle concept as part 
of ``Warfighting First.'' We practiced and refined the concept in war 
games and real-world exercises including VALIANT SHIELD and Rim of the 
Pacific (RIMPAC) last summer. RIMPAC brought together 40 ships and 
submarines, more than 200 aircraft and over 25,000 personnel from 22 
nations, including Russia and India for the first time. RIMPAC enabled 
forces to practice high-end ballistic missile defense, surface warfare 
and anti-submarine warfare in simulations and more than 70 live-fire 
missile and torpedo events. RIMPAC 14, supported by our fiscal year 
2014 budget submission, will include as many or more live-fire events 
and nations, including China for the first time.
    We reinvigorated our efforts to conduct integrated operations with 
the Marine Corps as the war in Afghanistan draws down and demands for 
naval crisis response grow in the Mediterranean and Middle East. The 
Navy-Marine Corps team conducted BOLD ALLIGATOR in 2012; our largest 
amphibious exercise in more than a decade, yielding dozens of lessons 
learned which we are incorporating into our capability development 
efforts. Some of these changes, particularly in command control 
organizations and communications systems, are reflected in our fiscal 
year 2014 program. BOLD ALLIGATOR 14, supported by our fiscal year 2014 
budget submission, will build on the results of last year's exercise 
and will explore the concepts and capabilities needed for a range of 
amphibious operations from single ARG up to large-scale amphibious 
assaults.
Operate Forward
    The Navy and Marine Corps are our Nation's ``away team'' and first 
responders to crisis. History has demonstrated that the Navy is at its 
best when we are forward and ready to respond where it matters, when it 
matters. To ``operate forward'' we focus our deployed presence at 
strategic maritime crossroads such as the Straits of Malacca and Hormuz 
or the Suez and Panama Canals. It is in these areas and others where 
sea lanes, resources and vital U.S. interests intersect that influence 
matters most.
    On any given day, about 50,000 of our Sailors are underway on 145 
ships and submarines, 100 of them deployed overseas as depicted in 
Figure 1. They are joined by about 125 land-based patrol aircraft and 
helicopters, 1,000 information dominance personnel, 1,000 Naval Special 
Warfare operators, and 4,000 Naval Combat Expeditionary Command Sailors 
on the ground and in inland waters.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                Figure 1

    The tenet ``Operate Forward'' compels us to look for new ways to 
increase the amount of presence we can deliver at the right places--and 
to do so more efficiently. Each of these ways places ships overseas 
where they deliver continuous (``non-rotational'') presence, instead of 
having to deploy from the continental United States (CONUS) to provide 
``rotational'' presence. One ship operating from an overseas port in 
this manner provides the same presence as about four ships operating 
from homeports in the United States.
    There are two basic ways in which we can sustain ships overseas:
  --Ships can be homeported overseas as part of the Forward Deployed 
        Naval Force (FDNF) with their Sailors and their Families as we 
        do in Japan and will soon do in Rota, Spain. This provides 
        continuous presence, immediate response to crisis, and the 
        means to build a strong relationship with the host nation.
  --Ships can also Forward Station overseas and be manned by civilian 
        or military crews that rotate out to the ship. Rotating 
        civilian crews man our Mobile Landing Platform (MLP), Joint 
        High Speed Vessel (JHSV), Afloat Forward Staging Base (AFSB) 
        and Combat Logistics Force (CLF) ships. Rotating military crews 
        man our Littoral Combat Ship (LCS) and nuclear guided missile 
        submarines (SSGN).
    Both of these ways of operating forward rely on ``places'' overseas 
where our partners and allies allow us to use their facilities to rest, 
repair, resupply and refuel. Our fiscal year 2014 budget submission 
continues to sustain development of these facilities. Overseas military 
construction (MILCON) for these facilities comprises only 27 percent of 
our fiscal year 2014 MILCON program funding, a slightly smaller 
percentage than in fiscal year 2013. These 8 projects will provide 
essential support facilities at ``bases'' and ``places'' around the 
world such as Guam and Japan. Without this investment our forces will 
be less able to operate forward and more dependent on support from 
CONUS.
    Our posture in the Arabian Gulf will improve this year with the 
addition of three PCs in Bahrain for a total of eight. Further, our 
fiscal year 2014 program supports the homeporting of two more PCs there 
for a total of 10 by the end of fiscal year 2014. During fiscal year 
2013 we will permanently homeport all our PCs and our four MCMs in 
Bahrain, instead of manning them with crews rotating from the United 
States. This will increase the crews' proficiency and continue to build 
our relationship with partners throughout the Arabian Gulf.
    In Europe, we continued preparations for the planned move of four 
destroyers to Rota, Spain, which highlights the benefit of FDNF ships. 
Conducting the European ballistic missile defense (BMD) mission today 
takes 10 ships deploying from CONUS. This same mission can be done with 
four destroyers based forward, freeing up six rotationally deployed 
destroyers to deploy to other regions such as the Asia-Pacific.
    In the Pacific, we deployed our first LCS, USS Freedom, to 
Singapore where it will remain for two crew rotations (8 months) to 
evaluate LCS operational concepts. Our posture in the Asia-Pacific will 
increase as part of the Department's overall rebalance to the region. 
Our fiscal year 2014 program supports the basing of another nuclear 
attack submarine (SSN) in Guam (for a total of four) and the increase 
in the number of LCS operating from Singapore to four by fiscal year 
2017. In addition to the increase in rotational forces made available 
by FDNF DDG in Rota and the introduction of new ships such as JHSV in 
Africa and South America, our efforts to shift 60 percent of our fleet 
to Pacific homeports will increase our day-to-day presence there by 15-
20 percent.
    Fundamentally, ``operate forward'' is about making the most 
effective and efficient use of what we own. Each of these initiatives 
reflects that idea.
Be Ready
    Our fleet must be ready to meet today's challenges, today. This 
means more than ensuring maintenance is done and parts and fuel are on 
hand. Those elements are essential to readiness, but our tenet to ``Be 
Ready'' requires that our Sailors be confident in their abilities and 
equipment and proficient in their operations. ``Be Ready'' compels us 
in our decisionmaking to always consider what our Sailors need to be 
confident and proficient. We will buy proven technology that our 
Sailors can use and depend on instead of new, unproven equipment. We 
will use empirical data, such as Board of Inspection and Survey 
reports, as much as possible in our decisionmaking. This is what our 
Sailors experience and we must work to make them as confident as 
possible in the warfighting capability of themselves and their gear. 
Applying our tenet to ``Be Ready'' requires that we consider all the 
factors that will detract from our Sailors' ability to effectively 
fight when the time comes.
    In the past year we increased the proficiency of our Sailors by 
conducting more live-fire and practical training events. In addition to 
exercises such as RIMPAC and BOLD ALLIGATOR, we increased live-fire air 
defense and surface warfare and practical ASW training in our 
preparations for deployment and purchased additional training missiles, 
sonobuoys, ammunition and targets. To enhance the proficiency of our 
operators more efficiently, we funded completion and installation of 
trainers for new systems such as the P-8A Poseidon, E/A-18G Growler and 
LCS.
                            current concerns
    We are encountering four major factors now that detract from our 
Sailors' readiness and hinder our ability to make progress in line 
toward the vision described in Sailing Directions. They are: Sexual 
assault, suicide, at-sea manning shortfalls, and high operational 
tempo.
    Sexual Assault.--Sexual assault is a crime that happens to about 
two Sailors every day. Sexual assault creates an unsafe workplace and 
degrades the readiness of our ships and squadrons. Last year we began a 
concentrated effort to change our culture and get after sexual assault 
in our Navy. We implemented a series of measures, including:
  --Completed training for all Navy military personnel, conducted by 
        mobile training teams of experts in sexual assault prevention 
        and response. We have received superb feedback on this 
        training.
  --Refined our reporting criteria for sexual assault to help 
        understand victim and offender demographics, find out where 
        these attacks happen and focus our efforts accordingly. We also 
        required that all sexual assault incidents be briefed by unit 
        commanders to the first flag officer in the chain of command.
  --Established programs in Fleet Concentration Areas such as our Great 
        Lakes training facility and San Diego which reduced the number 
        of reported sexual assaults--by 60 percent in the 20-month 
        program at Great Lakes. We established a similar program in San 
        Diego in December 2012 and will implement programs in Europe 
        and Japan this summer. Our San Diego program provided insights 
        that enabled us to address contributors to sexual assault 
        there, and we are seeing a near-term downward trend in the 
        number of San Diego-area Navy sexual assault reports--we'll 
        watch this closely.
  --Continued quarterly meetings with all Navy 4-star commanders to 
        review the data from our ``first flag officer'' reports, refine 
        our plan and adjust our approaches as needed.
    We are seeing some clear trends regarding sexual assault in the 
Navy. There appears to be less stigma associated with reporting sexual 
assault, as indicated by an increased number of sexual assault 
reports--in particular delayed reports of sexual assaults that occurred 
weeks or months earlier. Most sexual assaults are Sailors assaulting 
other Sailors; most victims and offenders are junior Sailors; more than 
half of incidents occur on base or on ship; and alcohol is a factor in 
the majority of sexual assaults. We are applying these findings to 
develop our efforts to prevent sexual assault. I see a great 
opportunity for future success in three main areas:
  --Disrupting the ``Continuum of Harm''.--Or the chain of events and 
        contributors that tend to be associated with sexual assault. We 
        continue to focus, in particular, on alcohol as a factor in 
        sexual assault. This year we fielded Alcohol Detection Devices 
        to the fleet to help educate Sailors on their alcohol use.
  --Prosecuting the offenders using specially trained investigators, 
        victim advocates, prosecutors, and paralegals. As part of this 
        effort we established dedicated Naval Criminal Investigative 
        Service (NCIS) agent-teams in Norfolk, San-Diego, Bangor, and 
        Okinawa that exclusively handle adult sexual assault 
        investigations. In Norfolk, these teams reduced the average 
        sexual assault investigation timeline from 324 days to 80 days. 
        NCIS is expanding this model during fiscal year 2013 to 
        Yokosuka, Japan, Hawaii and Mayport, Florida.
  --Support for Victims.--We prioritized prompt and effective care for 
        victims of sexual assault that maximizes the ability to 
        apprehend offenders. We continue to train and qualify our 
        military and civilian medical care workers to conduct Sexual 
        Assault Forensic Exam (SAFE); all our Military Treatment 
        Facilities and operational settings will be able to perform 
        SAFE exams by the end of this fiscal year. To support victims 
        through the investigation and judicial process we will complete 
        professionalizing our Sexual Assault Response Coordinator 
        (SARC) and Victim Advocate (VA) cadre by hiring 10 additional 
        SARCs and 66 full-time VAs in fiscal year 2013.
    Suicide.--Suicide is a growing problem in our Nation, our military, 
and our Navy. The number of suicides per 100,000 Sailors per year has 
risen steadily from 13 2 years ago to 16 in the last 12 months. To help 
address this trend, Navy stood up a task force to examine Navy suicide 
prevention and resilience-building programs as well as evaluate DOD, 
other service, and non-DOD approaches and programs. The task force 
completed their assessment this month and is providing a comprehensive 
set of actions for implementation. Their findings showed that while no 
program to date has stopped suicides in the military, there are some 
key factors contributing to suicide that we can address. Their 
recommendations are being incorporated into our existing efforts to 
prevent suicide, focused on education and awareness; intervention; 
Sailor care; and continued assessment of our progress.
    In particular, the task force will revise our current collection of 
123 programs designed to improve resiliency or prevent suicide and 
focus them on the factors they found to be most effective at preventing 
suicide. We will implement many of these recommendations in fiscal year 
2013 and into fiscal year 2014. The Navy also works with DOD's Defense 
Suicide Prevention Office to promote awareness of the Military Crisis 
Line, a service that provides 24/7 confidential crisis support to those 
in the military and their families. This line provides immediate access 
to care for those who may be at risk for suicide, along with additional 
follow-up and connection with Metal health services.
    At-Sea Manning Shortfalls.--Our goal for at-sea manning is 95 
percent of billets filled and 90 percent ``fitted'' with a Sailor 
having the right specialty and seniority. At the start of fiscal year 
2013, we were at about 90 percent fill and 85 percent fit--5 percent 
short of our goal in each measure and about 7,000 short of our goal in 
at-sea manning. We put in place a number of initiatives to shift more 
Sailors to sea including Sea Duty Incentive Pay, changes to Sea-Shore 
rotation and shifts of Reserve Component Sailors to Active Duty. We are 
on track to reach our fit and fill goals by the end of fiscal year 
2013. An enduring factor behind at-sea manning shortfalls is the fact 
we are about 4,000 Sailors below our planned and budgeted end strength. 
To permanently address our end strength shortfall we increased 
accessions by 6,000 per year and broadened and increased reenlistment 
bonuses for undermanned ratings, adding bonuses for 18 specialties and 
increasing them for 42 more. We expect to reach our end strength goal 
by the end of fiscal year 2013.
    High Operational Tempo (OPTEMPO).--Over the last decade, our fleet 
shrank by about 10 percent while our deployed presence remained about 
the same. As a result, each ship and aviation squadron spends on 
average about 15 percent more days away from home per year now than it 
did 10 years ago. This is an average, however. Our increased OPTEMPO is 
not evenly distributed. Our CSGs and ARGs will deploy on average 7-8 
months in fiscal year 2013, but some will deploy for 9 months or more 
due to emergent maintenance or the effects of sequestration on 
operational schedules. Our BMD ships are similarly deploying for about 
9 months at a time. To better understand how unit OPTEMPO affects 
individual Sailors, this year we began monitoring the time each Sailor 
is away from home (ITEMPO) and will use this information to guide our 
future decisions. For the long term, however, we have to adopt a more 
sustainable process to provide ready forces. For that reason, we are 
shifting to a ``supply-based'' model to prepare forces for deployment 
starting in fiscal year 2014. As part of this we will revise our Fleet 
Readiness Training Plan (FRTP) to make it more predictable and provide 
more presence from the same size fleet.
    When Sailors are gone up to 9 months at a time, Family readiness is 
vitally important. Our fiscal year 2014 budget submission sustains 
family support programs that provide counseling, education, child care 
and financial advice. We also continue developing our Sailors' 
readiness and protection, safety, physical fitness, inclusion and 
continuum of service as part of our 21st Century Sailor and Marine 
initiative. The actions described above to address sexual assault and 
suicides are part of this initiative. To improve our resourcing, 
management and oversight of the programs that support our Sailors and 
their Families, I am reorganizing my personnel headquarters to bring 
all these aspects of a Sailors' total health and personal readiness 
under a 21st Century Sailor office led by a 2-star Admiral.
    Our responsibility of support to our Sailors and their Families is 
most important when they are wounded, ill or injured. Navy's ``Safe 
Harbor'' program helps about 1200 Sailors and Coast Guardsmen and their 
Families through their recovery with travel orders for treatment, 
lodging, child and respite care, employment and education assistance, 
mental health assistance and career counseling. We implemented a 
campaign over the past year that increased enrollment in Safe Harbor 30 
percent by reaching out to service members who were eligible but had 
not signed up. Our fiscal year 2014 budget submission sustains Safe 
Harbor and improves the program's level of service.
                    our course for fiscal year 2014
    Our fiscal year 2014 budget submission implements the DSG and 
continues our current efforts by making decisions based on our three 
tenets. Our approach to building our fiscal year 2014 program focused 
on three main areas, in order:
  --First, we ensured sufficient forces and readiness to provide the 
        presence required to meet the current and projected future 
        GFMAP.
  --Second, we sustained our fiscal year 2013 investments required to 
        support our critical near-term capability to perform DSG 
        missions.
  --Third, we addressed our most relevant future capability 
        requirements to support the DSG missions.
    The resulting fiscal year 2014 program and associated plans 
implement DSG direction to rebalance our effort toward the Asia-Pacific 
region, support our partners in the Middle East, sustain our alliance 
commitments in Europe and employ low-cost, small footprint approaches 
to security on other regions.
    1. Delivering Presence.--Our fiscal year 2014 submission includes 
the investments in force structure needed to meet the presence 
requirements of the fiscal year 2014 GFMAP. Our investments in ships 
and aircraft are complemented with the funding for training, 
maintenance and operations necessary for readiness today and to ensure 
they can continue to provide presence over their expected service life. 
Figure 2 depicts the presence levels generated by our planned 
investments in the fiscal year 2014 Future Years Defense Program 
(FYDP). Figure 2 also includes the number of ``non-rotational'' ships 
that are either homeported in the region or are Forward Stationed in 
the region and manned by rotational crews from CONUS.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                Figure 2

    Shipbuilding.--We determined the number and type of ships required 
over the long-term through a comprehensive, analytically driven Force 
Structure Assessment (FSA). The FSA determined the day-to-day presence 
required to execute the DSG, informed by today's GFMAP and the 
introduction of new ships, systems or payloads, and concepts that 
deliver presence more efficiently or that better match capabilities to 
their theater. The FSA resulted in a required number of each type of 
ship to meet the projected presence requirements. Although presence is 
the governing factor for Navy force structure requirements, the FSA 
also ensured Navy's force structure would be sufficient to meet the 
surge requirements of CCDR operational plans and DOD Defense Planning 
Scenarios, informed by the DSG direction to reevaluate those plans in 
view of our resource limitations.
    The FSA analysis resulted in a battle force requirement of 306 
ships. This requirement is different from our previous 313-ship 
requirement because of: (1) reduced presence requirements resulting 
from the DSG's priorities; (2) increased forward basing of ships; (3) 
introduction of new payload capacity for SSNs (replacing the SSGNs); 
and (4) the increased use of ships manned with rotating civilian and 
military crews which provide more presence per ship.
    Our fiscal year 2014 long-term shipbuilding plan is designed and 
planned to deliver the fleet, by ship type, required per our FSA over 
the long term. Over the fiscal year 2014-fiscal year 2018 FYDP our 
program will fund construction of 41 ships. Our investments are not 
programmed to reach the precise number and mix of ships within this 
FYDP, but do deliver a fleet of 300 ships by 2019 with increased 
capability and flexibility compared to the fleet of today. To meet the 
required force mix and number, however, Navy will need the means to 
resource, in particular, construction of the next generation nuclear 
ballistic missile submarine (SSBN). Deputy Secretary of Defense Carter 
acknowledged this resourcing challenge in his memo of March 2012 that 
forwarded the fiscal year 2013 Shipbuilding Plan to Congress.
    Our fiscal year 2014 program continues the construction of ships 
that employ rotational military or civilian crews to improve their 
ability to operate and stay forward. Our fiscal year 2014 budget 
submission funds the final MLP, which will be configured as an AFSB and 
manned by rotating civilian crews with military detachments, and four 
LCS that will employ rotational military crews. During fiscal year 2014 
we will deploy the first JHSV, USNS Spearhead, and continue the first 
deployment of USS Freedom. We will use these deployments to integrate 
these new, highly adaptable platforms into the fleet and evaluate the 
ways we can employ their combination of persistent forward presence and 
flexible payload capacity.
    During fiscal year 2014, seven ships will enter the fleet, 
including two new classes of ships. The first Zumwalt class DDG will 
deliver next year, bringing with it an all-electric integrated 
propulsion system and the Advanced Gun System, able to reach targets 
with precision up to 60 miles away. The amphibious assault ship USS 
America will join the fleet in fiscal year 2014 and empower new 
concepts for amphibious operations that take advantage of its expanded 
aviation capacity. Over the next 5 years, we will deliver 47 ships, 
including the Gerald R. Ford, the first of a new class of CVN that will 
provide much higher sortie generation with about 500 fewer Sailors.
    Aviation.--Our aviation requirements are tied to requirements for 
the ships from which they operate, and on our required forward presence 
of land-based aircraft such as the P-8A Poseidon. Our fiscal year 2014 
program invests in aircraft to meet those requirements. To support our 
carrier air wings and independent deploying ships, our fiscal year 2014 
budget submission continues construction of the proven and adaptable 
MH-60R/S Seahawk and E-2D Hawkeye. We also continue investment in 
development and low-rate production of the F-35C Lightning II to 
replace our older F/A-18 Hornet models (A-D).
    Readiness.--Our funded operations and maintenance in fiscal year 
2013 will complete the manning, training, maintenance and other 
preparations necessary to enable Navy to meet the fiscal year 2014 
GFMAP. Our fiscal year 2014 budget submission, combined with 
anticipated Overseas Contingency Operations (OCO) funding, fully funds 
our planned ship and aircraft maintenance and the ship and aircraft 
operations needed to execute the fiscal year 2014 GFMAP.
    Our overall fiscal year 2014 readiness is dependent on OCO funding. 
OCO funding subsidizes about 20 percent of our ship and aircraft 
maintenance costs in fiscal year 2014, including depot maintenance, as 
our fleet supports operations in Afghanistan. We are requesting OCO 
funding for about 20 percent of our planned ship operations to support 
training and certification for deployment and deployed operations. Our 
dependence on OCO funding for baseline operations has decreased from 
$3.3 billion in fiscal year 2011 to $2.3 billion fiscal year 2013 as we 
``migrate OCO to base'' funding. A more enduring funding strategy will 
eventually be required for Navy to maintain its current readiness and 
level of overseas presence into the future.
    The Navy also continues to develop more efficient ways to generate 
presence. Our fiscal year 2014 budget submission requests investments 
needed to modify the Fleet Readiness Training Plan (FRTP), which is the 
means Navy uses to train and maintain ships and aircraft in our CSGs 
and ARGs in preparation for deployment. This change, called ``Enhanced 
CSG Presence,'' will enable increased overseas presence of 
rotationally-deployed CSGs by: lengthening the overall FRTP cycle; 
adding time for maintenance and training; and increasing the total 
deployed time of each CSG per operating cycle. This transition will 
take about 2 years to complete, but when completed we will have 
established a more sustainable process for training and maintaining our 
rotationally deploying ships, aircraft and crews.
    Enhanced CSG Presence addresses increased use and increased 
overseas presence of CSGs over the last decade, since the current FRP 
was first developed. The current FRTP organizes the training and 
maintenance of ships and aircraft in the CSG to conduct one deployment 
(nominally 7 months) per 32-month cycle; the CSG is then available to 
deploy for contingencies for another 12 months. In the last several 
years, Requests For Forces (RFF) added to the GFMAP compelled Navy to 
routinely deploy CSGs twice in each operating cycle. This caused 
personnel to exceed DOD personnel tempo limits and expended the CVNs 
nuclear fuel at a higher rate than planned--causing some CVN to be 
constrained in the amount of operations they can do before they are 
refueled. Enhanced CSG Presence is designed to deploy CSGs twice each 
operating cycle while providing the time at home needed to stay within 
PERSTEMPO limits and maintain ships and aircraft. This model is more 
efficient because it trains and maintains the CSG once for up to two 
deployments. It is also a ``supply-based'' model because it delivers a 
set amount of overseas CSG presence and does not include ``on demand'' 
surge capacity except in most extreme contingencies. Our fiscal year 
2014 program includes the near-term investment in personnel and 
shipyard capacity needed to implement Enhanced CSG Presence, but future 
investment in CVN and aircraft recapitalization may be needed to 
address increased usage over time.
    Our shore establishment is a key contributor to our operational 
readiness. Sequestration in fiscal year 2013 reduced by more than half 
our planned facilities sustainment, renovation and modernization (FSRM) 
projects. This $1.2 billion reduction in shore investment will be 
``carried over'' into fiscal year 2014 and beyond and will degrade our 
shore readiness over time. Our fiscal year 2014 budget submission funds 
FSRM at acceptable levels of risk overall, but this ``carryover'' will 
have to be addressed.
    One particular area of emphasis in our facilities investment 
remains unaccompanied Sailor housing. In 2001, 21,000 of our junior 
Sailors had to live on their ship even when the ship was in port 
because there were no quarters ashore for them. Our military 
construction in fiscal year 2013 will complete our effort to provide 
every Sailor a room ashore by 2016, while our FSRM investments going 
forward will improve the quality of our Sailor's quarters. These 
efforts are important to our Sailors' quality of life and personal 
readiness, but also will improve the safety and security of our on-base 
housing.
    Arctic.--Emerging projections assess that the Arctic will become 
passable for shipping several months out of the year within the next 
decade--about 10 years earlier than predicted in 2009 when we first 
published our Arctic Roadmap. This will place new demands on our fleet 
for presence in the Arctic and capabilities to operate in the Arctic 
environment. Between now and the start of fiscal year 2014 we will 
update our Arctic Roadmap, and accelerate many of the actions Navy will 
take in preparation for a more accessible Arctic. During fiscal year 
2014 we will implement this revised roadmap, including developing with 
the U.S. Coast Guard plans for maintaining presence and search and 
rescue capability in the Arctic and pursuing exchanges with other 
Arctic countries to familiarize our Sailors with Arctic operations.
    2. Fielding Near-Term Capabilities.--Mine warfare continues to be a 
significant emphasis in the near-term. Our fiscal year 2014 program 
increases investment in the new AQS-20 towed mine hunting sonar and the 
new unmanned surface vehicle that will tow it, freeing up manned 
helicopters and ships and further expanding our mine hunting capacity. 
Our budget submission funds upgrades for our existing helicopter-towed 
mine hunting sonar and MCM hull-mounted sonar and accelerates fielding 
of the Mk-18 UUV and Sea Fox mine neutralization system. To support our 
MCMs and PCs in Bahrain, Navy's fiscal year 2014 program sustains USS 
Ponce as an AFSB-I in the Arabian Gulf and funds the outfitting of its 
replacement--the first MLP modified to be an AFSB.
    To address the near-term threat from submarines, our fiscal year 
2014 program sustains accelerated procurement of Mk-54 torpedoes, 
improves sustainment and replacement of today's fixed and mobile 
undersea sensors and improves our current periscope detection radars on 
surface ships and aircraft. To counter wake-homing torpedoes we 
installed a prototype Surface Ship Torpedo Defense (SSTD) system on USS 
George H.W. Bush this year and it is being tested. The SSTD system will 
deploy with Bush during fiscal year 2014.
    Small boats with explosives or anti-ship missiles remain a 
potential threat to our forces in the constrained waters of the Arabian 
Gulf. Our fiscal year 2014 program funds integration of the Advanced 
Precision Kill Weapon System (APKWS) onto our MH-60R helicopters to 
counter this threat. We also will test the new Laser Weapons System 
(LaWS) during fiscal year 2014 in the Arabian Gulf aboard USS Ponce. 
LaWS brings capabilities to defeat small boats and unmanned air 
vehicles (UAV) for about $1 a shot compared to thousands or millions of 
dollars per artillery round or missile. To improve our ability to 
defeat larger surface combatants, our fiscal year 2014 program invests 
in development and testing of near-term modifications to existing 
weapons that would enable them to be used for surface warfare.
    3. Developing Future Capabilities.--Our development of future 
capability is bench-marked to support our rebalance toward the Asia-
Pacific and is guided in large part by the Air-Sea Battle concept, 
which implements the Joint Operational Access Concept. Both these 
concepts are designed to assure U.S. forces freedom of action and 
access to support deterrence, assurance of our allies and partners, and 
the ability to respond to crises. Our investments focus on assuring 
access in each domain, often by exploiting the asymmetric capability 
advantages of U.S. forces across domains
    Undersea.--Navy's dominance of the undersea domain provides U.S. 
forces their most significant asymmetric advantage. Our fiscal year 
2014 program continues improving our capability to deny the undersea to 
adversaries, while exploiting it for our own operations. Our ASW 
concepts combine U.S. air, space, cyber, surface and subsurface 
capabilities to prevent adversaries from effectively using the undersea 
domain. Navy's fiscal year 2014 budget submission sustains and plans 
production of proven ASW platforms including MH-60R Seahawk 
helicopters, P-8A Poseidon maritime patrol aircraft, Arleigh Burke 
class destroyers and Virginia class nuclear submarines (SSN)--including 
a second SSN in fiscal year 2014 thanks to Congressional support in 
fiscal year 2013. Our budget submission also funds Advanced Airborne 
Sensors for the P-8A Poseidon, accelerates torpedo defense systems for 
our aircraft carriers, transitions the PLUS system to an acquisition 
program and improves Navy's Integrated Undersea Surveillance System. To 
tie these manned and unmanned air, surface and undersea systems 
together in a networked, our fiscal year 2014 budget submission 
continues development of the Undersea Warfare Decision Support System.
    Our submarines and undersea vehicles can exploit their ability to 
circumvent anti-access challenges to conduct missions such as 
surveillance, strike, and ASUW into the air and surface domains with 
near-impunity. In addition to building two Virginia-class SSNs in 
fiscal year 2014 our budget submission continues development of the 
Large Displacement Unmanned Underwater Vehicle (LDUUV) and additional 
payloads for our existing submarines.
    Air.--Our fiscal year 2014 program continues to improve the 
capability of our CSGs to project power despite threats to access. In 
fiscal year 2014 our budget submission funds two squadrons E/A-18G 
Growler electronic warfare aircraft and the Next Generation Jammer. E/
A-18G provides key and critical capabilities to our CVW and 
expeditionary forces by jamming or deceiving adversary electromagnetic 
sensors while providing improved capability for sensing of adversary 
electromagnetic emissions. Our fiscal year 2014 budget submission also 
continues to invest in the development and low-rate production of the 
new F-35C Lightning II. We will continue to evaluate how to best 
integrate F-35C into our CVW from a training, logistics and operational 
perspective. In particular, we are concerned about the sustainment 
model and costs for F-35C and how to manage them. While we expect the 
F-35C to be able to do all the missions of today's F/A-18 E/F, it will 
also bring improved C4ISR capabilities that will make possible a number 
of new operational concepts.
    Our fiscal year 2014 program funds the fielding of new ``kill 
chains'' that are better able to defeat adversary jamming. One chain 
uses infra-red sensors and weapons to provide air-to-air capability 
that operates outside the radiofrequency (RF) band and is therefore not 
susceptible to traditional RF jamming. The other kill chain uses 
networked sensors and weapons in the Navy Integrated Fire Control-
Counter Air (NIFC-CA) system. NIFC-CA uses the Cooperative Engagement 
Capability (CEC) datalink between Aegis ships and E-2D aircraft and 
Link-16 between E-2D and F/A-18 aircraft to seamlessly share threat 
information between Navy ships and aircraft. NIFC-CA enables each 
platform to engage targets on another platform's data, even if the 
shooting platform does not even see the target on its own radar due to 
jamming or extreme range. Since NIFC-CA incorporates Link-16, other 
Link-16-equipped sensors such as the Army's Joint Land Attack Cruise 
Missile Elevated Netted Sensor (JLENS) and Airborne Warning and Control 
System (AWACS) could also participate in the network. We will field the 
first NIFC-CA equipped CSG in 2015 and will pursue greater Joint and 
coalition employment of NIFC-CA as part of the Air-Sea Battle Concept.
    Enhancements to our manned aircraft are still limited by the range 
and persistence of manned platforms. Our fiscal year 2014 program 
continues testing and development of the X-47 Unmanned Combat Air 
System Demonstrator (UCAS-D) UAV, which completed flight deck trials at 
sea aboard USS Harry S Truman, its first land-based catapult launches, 
and is slated for its first at-sea catapult launch and recovery in late 
May. This spring we will finalize the requirements for the follow-on 
Unmanned Carrier Launched Airborne Strike and Surveillance (UCLASS) 
system, followed by an initial request for proposals from industry. By 
fiscal year 2020, UCLASS will enhance the reach and persistence of our 
CSGs by conducting surveillance and strike missions several hundreds of 
miles from the carrier and with two to three times the endurance of a 
manned aircraft. The UCLASS can also be equipped to take on missions 
such as tanking that today take several F/A-18 E/F out of the tactical 
missions for which they were designed.
    Electromagnetic Spectrum (EMS) and Cyber.--Future conflicts will be 
fought and won in the electromagnetic spectrum and cyberspace, which 
are converging to become one continuous environment. This environment 
is increasingly important to defeating threats to access, since through 
it we can disrupt adversary sensors, command and control and weapons 
homing. Our fiscal year 2014 budget submission aggressively supports 
Navy's efforts to exploit the EMS and cyberspace. In addition to E/A-
18G aircraft and Next Generation Jammer, our fiscal year 2014 budget 
submission funds seven SLQ-32 Surface Electronic Warfare Improvement 
Program (SEWIP) Block 1 upgrades and fields new deployable decoys to 
defeat anti-ship missiles. The fiscal year 2014 program also 
accelerates research and development on SEWIP Block 3, which expands 
the frequency range of the SLQ-32 electronic warfare system to address 
emerging missile threats and provides enhanced electronic attack 
capabilities. To disrupt adversary surveillance and communications, our 
fiscal year 2014 budget submission continues procurement of 
improvements to Navy's Ships Signal Exploitation Equipment (SSEE), 
which will host a growing number of electronic surveillance and attack 
payloads.
    Improving the defense of our computer networks depends on reducing 
our ``footprint'' or the number of different networks; reducing the 
number of different applications on our networks; improving our day-to-
day cyber ``hygiene''; and developing an effective cyber workforce. Our 
fiscal year 2014 program continues fielding the Consolidated Afloat 
Network and enterprise Services (CANES) on ships and the Next 
Generation Network (NGEN) ashore to reduce the number of Navy networks 
and applications while we continue to expand the inspection of our 
cyber ``hygiene'' with improving results. To expand our cyber warfare 
capabilities, our fiscal year 2014 program funds the manpower and 
training to man and train a cyber force increase of about 1,000 
personnel by fiscal year 2016 in addition to the 800 billets realigned 
in fiscal year 2013 from other specialties. These cyber specialists 
will help form 40 computer defense, attack and exploitation teams at 
U.S. Cyber Command. Navy studied the challenges associated with the EMS 
and cyber domains in 2012. We are now building on these initial 
capabilities with a comprehensive plan to improve our ability to 
exploit the EMS and cyberspace.
    Amphibious Warfare.--Not all threats to access are from enemy 
missiles or torpedoes. Adversaries will exploit geography and coerce 
neighbors to not allow our forces to use their facilities. Naval forces 
also need the flexibility to come ashore in unexpected areas or from 
less predictable directions to catch the adversary off guard. 
Amphibious warfare exploits the inherent maneuverability of naval 
forces to provide an asymmetric advantage against adversary anti-access 
efforts. Our fiscal year 2014 budget submission funds construction of 
an 11th ``big deck'' amphibious assault ship (LHA), LHA-8, which will 
bring enhanced aviation capacity and a traditional well deck to expand 
its ability to support the full range of amphibious operations. Our 
fiscal year 2014 program also extends the life of USS Peleliu through 
fiscal year 2015 and sustains our ship to shore connector capacity 
through life extensions and recapitalization. We are complementing this 
investment with revised concepts for Marines to operate at sea on a 
larger number of ships to conduct missions from peacetime security 
cooperation to wartime amphibious assault.
    While developing new Navy-Marine Corps operating concepts, we will 
address in the near-term the need for improved communications systems 
on our amphibious ships. Our fiscal year 2014 program continues to 
install the CANES on San Antonio-class Amphibious Transport Dock ships 
(LPD) and on LHAs and LHDs. This only addresses a part of our 
shortfall. We are analyzing the need for upgraded communications on our 
older amphibious ships and will correct those shortfalls in the near-
term. We are also developing changes to our command and control 
organizations to enable our amphibious forces to scale their operations 
from disaggregated Amphibious Ready Groups (ARG) up to large scale 
operations involving multiple ARGs and CSGs.
    Asia-Pacific Rebalance.--Our fiscal year 2014 program continues 
rebalancing our efforts toward the Asia-Pacific region in four main 
ways:
  --Increased Presence.--As indicated in Figures 1 and 2, our fiscal 
        year 2014 budget submission enables Navy presence in the Asia-
        Pacific to increase by almost 20 percent between now and 2020. 
        This is in large part a result of more ships operating from 
        forward locations, including an additional SSN homeported in 
        Guam, LCS operating from Singapore and JHSV, MLP and AFSB 
        operating from ports throughout the region. It also reflects 
        additional DDG and amphibious ships rotationally deployed to 
        the Asia-Pacific after being made available by forward 
        homeporting of DDG in Rota, Spain or because they were replaced 
        by JHSV and LCS in Africa and South America.
  --Homeporting.--We implemented a plan in fiscal year 2013 to shift 60 
        percent of our fleet to be homeported on the Pacific by 2020. 
        Our fiscal year 2014 program continues this plan.
  --Capabilities.--Our capability investments for the Asia-Pacific are 
        guided by the Air-Sea Battle concept and the future 
        capabilities described above will be deployed preferentially 
        and first to the Asia-Pacific region. For example, the P-8A 
        will conduct its first deployment to the Asia-Pacific in 2014, 
        followed by the MQ-4C and F-35 later this decade. Our improved 
        aviation kill chain capabilities will go first to the CVW in 
        Japan and NIFC-CA will be first fielded to the Pacific Fleet 
        once it completes its operational testing.
  --Intellectual Capital.--Our investments in education, exercises, 
        interoperability and engagement continue to focus on the Asia-
        Pacific region. We continue to conduct more than 150 exercises 
        annually in the Asia-Pacific and our plan for RIMPAC 14 is to 
        continue growing in sophistication and participation, including 
        China for the first time. We established a permanent squadron 
        staff to support LCS in Singapore and manage Navy security 
        cooperation activities in the South China Sea.
                               conclusion
    Budget uncertainties or reductions may slow progress toward our 
goals, but the tenets which guide our decisions will remain firm. Along 
with our primary joint partner the U.S. Marine Corps we will remain 
America's ``force in readiness,'' prepared to promptly respond to 
crises overseas. On behalf of the approximately 613,000 Navy Sailors 
and Civilians, I appreciate the support that the Congress has given us 
to remain the world's preeminent maritime force. I can assure the 
Congress and the American people that we will be focused on warfighting 
first, operating forward and being ready.

    Chairwoman Mikulski [presiding]. Thank you, Admiral.
    General Amos, we are going to ask you to proceed. And we 
are glad to see you. I remember this time last year when you 
testified, you had had your back surgery and were under a lot 
of stress. You are under a different kind of stress, but we can 
see that you are fit, and ready for duty, and participating. So 
we welcome you with warmth and glad to see you in good health.
STATEMENT OF GENERAL JAMES F. AMOS, COMMANDANT, UNITED 
            STATES MARINE CORPS
    General Amos. Chairwoman, you have got a great memory. It 
was a little bit painful last year, but it has been fixed, and 
I feel great. And thank you for remembering that.
    And, Chairwoman, it is good to see you again. Vice Chairman 
Cochran, ranking--or members of the committee, I am pleased to 
appear before you today to outline the 2013 posture of your 
United States Marine Corps. I am equally pleased to be sitting 
alongside my service Secretary, the Honorable Ray Mabus, and my 
good friend and fellow shipmate, Admiral Jonathan Greenert, 
Chief of Naval Operations.
    For more than 237 years, your Corps has been a people 
intense force. We have always known our greatest asset is the 
individual marine. That has not changed during 12 years of hard 
combat. Our unique role as America's premiere crisis response 
force is grounded in the legendary character and war fighting 
ethos of our people. Today's marines are ethical warriors, 
forged by challenging training and made wise through decades of 
combat. You can take great pride in knowing that as we gather 
here in this storied hearing room, some 30,000 marines are 
forward deployed around the world, promoting peace, protecting 
our Nation's interests, and securing its defense.
    Sergeant Major Barrett and I recently returned from 
Afghanistan and can attest to the progress there. Marines have 
given the Afghan people a vision of success and the possibility 
of a secure and prosperous society. I am bullish about the 
positive assistance we are providing the people of the Helmand 
Province, and I remain optimistic about their future.
    Afghanistan Security Forces have the lead now in almost 
every single operation. Our commanders and their marines assess 
the Afghan National Security Forces that they over match the 
Taliban in every single way and in every single engagement.
    Speaking today as both as the service chief and a member of 
the Joint Chiefs of Staff, the foundations of our Nation's 
strategic guidance depends upon persistent regional stability 
and an international order to underwrite the global economic 
system. Failing to provide leadership in the collective 
security of the global order will have significant consequences 
for the American people. Worse, a lapse in American leadership 
in forward engagement will create a void in which lasting 
security threats will be left unaddressed and new security 
challenges will find room to grow.
    The reality of today's security environment reveals the 
value of forward naval presence. With declining resources to 
address the emerging security challenges, neo-isolationism does 
not advance our country's national interests. Forward deployed 
sea-based naval forces do, however. They support our proactive 
security strategy while remaining capable of shaping, 
deterring, and rapidly responding to crisis, all while treading 
lightly on our allies and our partners on their sovereign 
territory.
    Amphibious ships and forces are a sensible and unmistakable 
solution in preserving our national security. Naval forces and 
the Marine Corps are in particular our Nation's insurance 
policy, a hedge against uncertainty in an unpredictable world. 
A balanced air ground logistics team, we respond in hours and 
days to America's needs, not in weeks and not in months. This 
is our raison d'etre. It has always been that way.
    This year's baseline budget submission of $24.2 billion was 
framed by our following service led priorities: First, we will 
continue to provide the best-trained and equipped marine units 
in Afghanistan; second, we will protect the readiness of our 
forward deployed forces and our rotational forces; third, we 
will reset and reconstitute our operating forces as our marines 
and equipment return from nearly 12 years of persistent combat; 
fourth, as much as is humanly possible, we will modernize our 
force through investing in the individual marine first, and by 
replacing aging combat systems next; and lastly, as 
importantly, we will keep faith with our marines, our sailors, 
and our families.
    We have remained committed to these priorities despite the 
fiscal year 2013 significant reductions in our facility 
sustainment and home station unit training accounts due to the 
loss of $775 million in operations and maintenance funding due 
to sequestration. We have, however, traded long-term 
infrastructure and unit readiness for near-term deployable 
forces capable of meeting all current deployment requirements.
    We cannot continue to sustain this level of reduction in 
fiscal year 2014 without immediate impact to our deployed and 
next-to-deployed forces, and our non-deployed crisis response 
forces at home. Sequestration in fiscal year 2014 will mean a 
direct loss to the readiness of the United States Marine Corps.
    Ladies and gentlemen, your Marine Corps is well aware of 
the fiscal realities confronting our Nation. During these times 
of constrained resources, the Marine Corps remains committed to 
being responsible stewards of scarce public funds. In closing, 
the success of your marines and your Marine Corps is directly 
linked to the unwavering support of Congress and the American 
people.

                           PREPARED STATEMENT

    You have my promise that during our economic challenges, 
the Marine Corps will only ask for what it needs, not for what 
it might want. We will continue to prioritize and make the hard 
decisions before coming to Congress. We will continue to offer 
a strategically mobile force optimized for forward presence and 
rapid response. Your Marine Corps stands ready to respond 
whenever the Nation calls, wherever the President may direct.
    Once again, I thank the committee for your continued 
support, and I am prepared to answer your questions.
    [The statement follows:]
              Prepared Statement of General James F. Amos
                    marines and the nation's defense
    Our Nation has long recognized the need for a ready expeditionary 
force, one able to deter those who would do us harm, swiftly intervene 
when they act to do so, and fight to win where the security interests 
of our Nation are threatened. I am pleased to report that your Marines 
remain that ready force. Because of the faithfulness and trust of the 
American people, Marines are forward deployed today; on ships at sea, 
at our diplomatic posts, in key security locations, and alongside our 
allies. They are poised to respond wherever crisis looms. Thousands of 
your 21st Century Marines and Sailors remain deployed to Afghanistan 
where they are putting relentless pressure on a disrupted enemy, while 
setting the conditions for a transition of security responsibilities to 
the Afghans themselves. Marines here at home are in the field, training 
at their bases and stations. Wherever they serve, whatever their 
mission, your Marines are ready, motivated, and eager. Their 
professionalism and patriotism are undimmed by over a decade of combat. 
They carry the timeless ethos and deep pride Marines have built over 
237 years of service to this Nation. You can be proud of their service.
    The need for this highly capable and ready force is more pressing 
now than ever. Today, we see a world marked by conflict, instability, 
and humanitarian disaster. We see the disruptive changes that accompany 
a rapidly modernizing world; a world in which tyranny is challenged, 
power is diffused and extremism finds fertile ground in the 
disenfranchised. While America's continued prosperity and security are 
found in a stable global order; instability, extremism, and conflict 
create disorder instead. In what has been described as a ``new 
normal,'' extremism, economic disruption, identity politics, and social 
change generate new potential security threats at an accelerating pace. 
While we desire peace as a nation, threats to our citizens, allies and 
national interests compel our response when crisis occurs.
    The unpredictable and chaotic security environment in which we find 
ourselves presents security challenges that are aligned exactly with 
the core competencies of the Marine Corps. While Marines have acquitted 
themselves well during two long campaigns ashore, our fundamental ethos 
and character remains that of the Nation's Expeditionary Force in 
Readiness. The Marine Corps is purpose-built for the very world we see 
emerging around us . . . purpose-built to intervene in crisis, purpose-
built to forge partnerships in collective security, purpose-built to 
defend our Nation from the wide range of security threats it faces 
today.
    This unique role is grounded in the special nature of the 
individual Marine. America's Marines hold to a professional ethos 
anchored in honor, discipline, fidelity, and sacrifice. Today's Marines 
are ethical warriors, forged in hard training and made wise through 
years of experience in combat. Courageous in battle and always 
faithful, Marines stand as pillars of just action, compassion, and 
moral courage. This ethos defines our warfighting philosophy and is the 
timeless scale upon which we continually measure ourselves . . . it has 
always been this way.
    The Marine Corps remains first and foremost a naval service, 
operating in close partnership with the United States Navy. We share 
with them a storied heritage that predates the signing of our 
Constitution. Together, the two naval services leverage the seas, not 
only to protect the vast global commons, but also to project our 
national power and influence ashore where that is required. The world's 
coastal regions are the home to an increasing majority of the human 
population, and are thus the scene of frequent conflict and natural 
disaster. These littoral regions comprise the connective tissues that 
connect oceanic trade routes with the activities of populations ashore. 
In an era of heightened sensitivities over sovereignty, and where large 
foreign military footprints are unwelcome, the seas provide maritime 
forces with a means of less obtrusive access. Maritime expeditionary 
forces can be located close enough to act when crisis threatens and 
hours matter, without imposing a burden on host nations. Expeditionary 
maritime forces can operate in the air, at sea, and on land, without 
the necessity of infrastructure ashore. They can loiter unseen over the 
horizon, and can move swiftly from one crisis region to another. 
Importantly, maritime forces also have the ability to rapidly return to 
the sea when their mission is complete.
    This flexibility and strategic agility make Marine forces a key 
tool for the Joint force in major contingencies. Operating in 
partnership with the Navy, the Marine air-ground-logistics task force 
creates the strategic asymmetries that make the joint force so 
effective on the modern battlefield. Amphibious and expeditionary 
capabilities contribute to each of the 10 mission areas of the joint 
force, and are directly responsive to the security demands articulated 
in the President's ``Defense Strategic Guidance for the 21st Century''. 
By design, Marines smoothly integrate with the other elements of the 
joint force, enable our interagency partners in response to disaster or 
humanitarian crises, and provide a naturally complementary team when 
working with special operations forces.
    As the Nation prepares for an uncertain future, its expeditionary 
Marine forces provide a highly utilitarian capability, effective in a 
wide range of scenarios. Marines remain a cost-effective hedge against 
the unexpected, providing a national ``insurance policy'' against 
strategic surprise. Thanks to the support of American people, the 
Marine Corps remains responsive to its Congressional mandate to be the 
``most ready when the nation is least ready.''
2012 Operational Highlights
    This past year, Marines have been actively engaged in every corner 
of the global security environment. The Marine Corps continued to meet 
operational commitments in Afghanistan, while simultaneously working 
with more than 90 allies and partners to train, to learn, and to build 
effective security institutions. In addition to forces committed to 
Operation Enduring Freedom (OEF), our Marine Expeditionary Units 
(MEUs), in partnership with Navy Amphibious Ready Groups (ARGs), 
continued to patrol regions of likely crisis. Other task-organized 
Marine Air Ground Task Forces (MAGTFs), operating from expeditionary 
locations, supported U.S. national security objectives through forward 
presence, deterrence, multinational theater security cooperation 
exercises, and building partner capacity. Marines have been active in 
every geographical combatant command, serving as a key component of the 
joint force. Even under fiscal restraint, we will continue to support 
these strategically important activities to the greatest extent 
possible.
Afghanistan
    Our number one priority remains providing the best-trained and 
best-equipped Marine units to Afghanistan. As long as we are engaged 
there, this will not change. Active and Reserve Marines continue 
operations in Helmand Province, comprising approximately 7,000 of the 
16,000 Coalition personnel in Regional Command Southwest (RC-SW). By 
the end of this year, we expect our contribution will be closer to half 
its current size. Through distributed combat operations conducted with 
their Afghan counterparts, Marines have continued to deny the Taliban 
safe haven. Your Marines, with Coalition partners from nine nations and 
the Afghan National Security Force (ANSF), have restored stability in 
one of the most critical regions of Afghanistan, creating breathing 
space for the establishment of effective tools of governance. These 
combat operations have been marked by the continued bravery and 
sacrifice of American, Coalition, and Afghan service members.
    One measure of our battlefield success is the continued progress in 
implementing the mechanisms of effective governance in Helmand 
Province. In 2012, citizens of Helmand conducted three successful 
elections for district community councils, with more than 5,000 
participants vying for approximately 45 council seats. There are new 
district governors in 12 of 14 districts, and new provincial 
authorities in the capital of Lashkar Gah. Within the provincial 
judicial system, the numbers of judges, prosecutors, and defense 
counselors are steadily growing.
    Provincial social conditions also show marked improvement. Marines 
have helped open 86 schools, providing a new normal of daily classroom 
participation by over 121,000 children. This total includes more than 
28,000 female students, a 432-percent increase since 2005.
    Healthcare is another area of vast improvement. In 2006, only six 
health clinics served the needs of the population of Helmand province, 
an area nearly twice the size of Maryland. Six years later, 57 health 
care facilities provide basic health services to more than half of the 
population. Infrastructure improvements currently underway include a 
$130 million major electrical power system project and additional major 
road construction projects.
    Transitioning from counter-insurgency operations to security force 
assistance in Afghanistan, we are adjusting our force posture into an 
advisory role in support of the ANSF. U.S.-led missions have given way 
to U.S.-Afghan partnered missions; and now are transitioning once again 
to missions conducted entirely by Afghan forces with only advisory 
support from U.S. forces. As nearly all Districts in RC-SW have entered 
the transition process, the next year remains a delicate and extremely 
important time. Afghan local authorities, supported by the ANSF and 
their citizens, have welcomed their responsibility to lead and are 
taking it upon themselves to contribute to the transition process.
    I recently returned from visiting your Marines in Helmand province, 
and I can attest to the progress there. Marines have given the people 
of Helmand a vision for a secure and prosperous society, and the 
responsibilities that come with that freedom. The Marines are proud of 
what they and their predecessors have accomplished, and want to see 
this mission through to completion.
    That mission is not complete until the massive project of 
retrograding our equipment from our dispersed operating locations 
across southern Afghanistan is completed. I am happy to report to you 
the tremendous progress our Marines have made in recovering and 
redeploying our equipment. Our logisticians have spearheaded a recovery 
effort that has been proactive, cost-effective, and in keeping with the 
high stewardship of taxpayer resources for which the Corps is known. 
Much of our equipment, unneeded in Afghanistan but required for home-
station training, has been successfully returned to the United States, 
where it can be refurbished and reissued. We are proud to preserve our 
reputation as the frugal force.
Global Crisis Response
    Concomitant with our Afghan commitments, Marines have been vigilant 
around the globe, responding to crises ranging from civil conflict to 
natural disasters. Crisis response is a core competency of your 
expeditionary force in readiness. The Marine Corps provides six MEUs 
operating from the continental U.S., and one operating from its bases 
in Japan. Teamed with Navy ARGs, these expeditionary forces provide a 
rotational forward presence around the globe. Special-purpose MAGTFs, 
capable of rapidly responding when conditions deteriorate, augment the 
MEUs from forward security locations in key regions. The recent 
deployment of our 24th MEU and the Iwo Jima ARG is instructive. As this 
Navy-Marine expeditionary team transited the Mediterranean Sea and 
operated off the horn of Africa, they participated in their normal 
syllabus of exercises and operations to include African Lion with the 
Moroccan military, Eager Lion with the Jordanian Navy and the 
International Mine Countermeasures Exercise that included more than 30 
international partners. While forward deployed participating in these 
partnership initiatives, however, they also provided an essential 
response capability for our national leadership when U.S. interests or 
citizens were threatened due to violence in Syria, Gaza, Sudan, Libya, 
Egypt, and Yemen. These forces planned against a variety of scenarios 
and were poised to swiftly intervene from the sea in each of these 
cases. Although past the end of their scheduled deployment, this Navy-
Marine team was extended on-station, and maneuvered throughout the 
region in order to ensure our Nation could respond if crisis 
necessitated intervention to protect our citizens. If even one of these 
smoldering situations had ignited into the flames of crisis, our 
Marines would have been quickly on the scene, protecting human life, 
preserving our interests, and evacuating our citizens. For our 
diplomats and citizens in these troubled parts of the world, there is 
no substitute for the capabilities brought by forward-deployed Marines 
and their Navy partners. Their ability to quickly respond to a variety 
of missions gave decision makers at all levels time to develop their 
plans, created options for execution, and provided assurance that there 
was a force ready to be called on if needed. This utility, flexibility 
and forward presence is an essential feature of our Nation's ability to 
respond to crisis at a moment's notice.
    In 2012, our diplomatic posts and embassies remained highly visible 
symbols of U.S. presence and commitment. In the threat environment 
posed by the new normal, the protection offered by host states is often 
threatened by groups and organizations that do not respect the 
conventions of the state system. Marines are a key component in 
ensuring the security of these most vulnerable nodes of U.S. presence. 
Marine Security Guards are currently deployed to 152 embassies and 
consulates around the world. With Congressional guidance, we are 
seeking to increase this number in close coordination with the State 
Department. Marine Embassy Security detachments and Fleet Anti-
terrorism Security Teams (FAST), alongside their State Department 
colleagues, also protect our diplomatic missions against a range of 
threats. During 2012, specialized FAST Marines deployed to reinforce 
U.S. diplomatic missions abroad, providing physical security and force 
protection. Last year we provided each Geographic Combatant Commander 
with FAST support to aid in protecting U.S. interests worldwide. These 
teams provided immediate relief in Libya following the deadly terrorist 
attack on the consulate that claimed the lives of the Ambassador and 
three other Americans. As demonstrations spread across the Middle East 
and North Africa, Marines from an additional FAST platoon deployed to 
Yemen when violent protests threatened American diplomatic personnel. 
These specially trained Marines remain forward deployed at naval 
commands around the globe, poised to respond on short notice when our 
citizens and diplomats are threatened.
Humanitarian Assistance and Disaster Relief
    Over the past decade, in the Asia-Pacific Area alone, major natural 
disasters have claimed the lives of an average of 70,000 people each 
year. American leadership in response to global natural disaster is a 
clear and unambiguous demonstration of our strength, our values, and 
our good intentions. This demonstration gives credibility to our 
security promises, strengthens the value of our deterrence, and creates 
goodwill among our potential partners. Although built for war and 
maintained forward to protect our security interests, the utility of 
expeditionary Marine forces makes them a natural response option when 
disaster strikes. Forward-deployed Marines responded to numerous 
natural disasters over the past year, smoothly integrating as a 
contributor to multiagency and multinational relief efforts. As an 
example, just this last December, Marines from the III Marine 
Expeditionary Force supported a USAID-led response by providing 
disaster relief in the aftermath of super typhoon Pablo in the 
Philippines. When hours mattered and the survival of large populations 
was at stake, Marines from their forward bases in Japan quickly 
organized and executed their participation in the U.S. relief effort. 
KC-130J Hercules transport planes delivered critical food packages and 
other supplies to Manila for distribution by the Philippine military. 
This is but one example of a regular feature of the global security 
environment, and the utility of your forward-postured Marines.
Defense Support to Civil Authorities
    In a similar vein, when Hurricane Sandy struck our own Nation in 
October 2012, more than 300 Marines and Sailors from the 26th Marine 
Expeditionary Unit provided critical recovery and relief operations in 
support of Americans in need in New York City and Long Island. Marines 
were one part of a multiagency response that included ships of the USS 
Wasp ARG and other military assets. Marine aviation conducted disaster 
relief assessments and provided the necessary airlift for Marines to 
deploy into the hardest-hit areas. On the ground, Marines successfully 
coordinated with local leaders and residents for priority relief 
requirements, providing critical supplies and assisting with clearing 
debris and helping restore normalcy to people's lives. The swiftness of 
the Marine response, and their ability to conduct relief efforts from 
the sea made them an important contributor, without imposing additional 
strain on the roads, airfields, and infrastructure supporting the 
broader relief effort.
Security Cooperation
    In 2012, Marines participated in more than 200 security cooperation 
engagements, including multilateral and bilateral exercises, training, 
and military-to-military engagements. Forward-deployed MEUs 
participated in joint and coalition exercises around the globe from 
Morocco to the Philippines, strengthening our partnerships with allies 
such as Kuwait, Oman, Saudi Arabia, United Arab Emirates, Jordan, 
Thailand, Malaysia, Indonesia, Korea, and Japan.
    In Europe, Marine trainers deployed to support battalions of the 
Georgian Army, strengthening a decade-long partnership with that 
nation. Because of this small investment of Marines, Georgian 
battalions have been effectively fighting alongside U.S. Marines in 
Afghanistan since 2008. Marines continue to provide forces and 
leadership to activities such as the Black Sea Rotational Force, an 
annual U.S. European Command initiative with the Romanians, Bulgarians, 
and other Black Sea regional allies.
    In Africa, a Special Purpose MAGTF, tailored to conduct theater 
security cooperation in support of OEF-Trans Sahara, trained counter-
terrorism forces, and supported coalition forces combating al-Qaeda 
affiliates across the Maghreb region. This MAGTF also trained with 
forces from the African Union Mission in Somalia (AMISOM), providing 
well-trained African peacekeeping forces that are currently countering 
the Al Shabaab terrorist group in Somalia.
    In Australia, our new rotational units continued to expand the 
training and partnership opportunities offered by one of our strongest 
and oldest allies in the Pacific. This past year, Marine Rotational 
Force Darwin conducted bilateral training with their hosts on the 
superb training ranges available in Northern Australia. The partnership 
of our Australian allies is a cornerstone of our Pacific rebalance. 
Marines are natural partners for an Australian military that continues 
to expand its expeditionary capabilities. As the Australians take 
delivery of their new big-deck amphibious ships, U.S. Marines look 
forward to more combined training opportunities and reinforced crisis 
response capabilities. From Darwin, Marines embarked aboard USS 
Germantown to participate in the annual Landing Force Cooperation and 
Readiness Afloat Training (LF CARAT) amphibious patrol of the Southeast 
Asian neighborhood. Through LF CARAT, Marines conducted training 
exercises with our partners in Thailand, Indonesia, and Malaysia.
    Maintaining a sound international economic system and a just 
international order are the foundations of our Nation's Defense 
Strategic Guidance. Your Marines remain forward deployed around the 
world, projecting U.S. influence, responding to contingencies, and 
building strong international relationships. By doing so, we 
significantly enhanced the security and stability of the global commons 
and contributed to the mechanisms of collective security that underpin 
the global economy and our own return to prosperity.
             fiscal year 2014 budget submission highlights
    As we move into fiscal year 2014 and beyond, our budget submission 
balances our force structure, our readiness, and our capability to meet 
national security commitments. A critical measure of the effectiveness 
of our Marine Corps is its readiness. Our readiness is preserved 
through a careful balance of high-quality people, well-trained units, 
modernized equipment, well-maintained installations, and a force level 
sufficient to accomplish our many missions. Failure in any one of these 
pillars of readiness begins to set the conditions for an eventual 
hollowing of the force. We will do everything within our power to avoid 
this outcome and request your continued support. The linkage between 
resources and readiness is immediate and visible, and our fiscal 
restraint has caused us to pay keen attention to our priorities. To 
guide us as we optimize investments and readiness in our force, our 
priorities are as follows:
  --We will continue to provide the best-trained and equipped Marine 
        units to Afghanistan.
  --We will continue to protect the readiness of our forward-deployed 
        rotational forces within the means available.
  --We will reset and reconstitute our operating forces as our Marines 
        and equipment return from more than a decade of combat.
  --We will modernize our force through investments in human capital 
        and by replacing aging combat systems.
  --We will keep faith with our Marines, our Sailors, and our families.
    This year we are seeking $24.2 billion to fund our baseline 
operations. This funding allows the Marine Corps to continue to provide 
forward-deployed and engaged forces, rapid crisis response 
capabilities, and the necessary training to ensure readiness for our 
forces to fulfill strategic demands. In addition, this funding provides 
adequate resources for us to reset our combat-worn equipment, rebalance 
to the Asia-Pacific region, and keep faith with our Marines, Sailors, 
and their families.
    Two years ago, the Marine Corps initiated a Force Structure Review 
(FSR) whose mission was to re-shape the Marine Corps for a Post-OEF 
environment. This FSR sought to find ways to meet our national security 
responsibilities in the most resource-efficient manner possible. Our 
goal was to provide the most ready, capable, and cost-effective Marine 
Corps our Nation could afford. Last year, we reported on our approved 
multi-year plan to draw down the Corps from the end strength of 202,100 
in fiscal year 2012 to 182,100 by the end of fiscal year 2016. I am 
pleased to report that these reductions are being made in a measured 
and responsible way, maintaining our commitment to provide adequate 
transition time, effective transition assistance, and family support 
for our Marines who have given so much to our Nation . . . we remain 
committed to doing so.
    We will continue to reshape the force, ever mindful of our 
operational requirements and our responsibility to keep faith with the 
Marines that fulfill them. As the Nation's principal crisis response 
force, we must maintain a continuous high state of readiness in both 
our forward deployed and ready forces at home station. Maintaining an 
expeditionary force in a high state of readiness creates a hedge 
against the unexpected, giving the Nation the ability to swiftly 
contain crisis, respond to disaster, and buy time for strategic 
decisionmakers. For us, a hollow force is not an option. This not only 
enables joint success, but also allows selected follow-on capabilities 
of the joint force to be maintained at more cost-effective readiness 
levels. Marines are poised to swiftly fill the temporal gap between 
crisis initiation and when the joint force is fully prepared to conduct 
operations; buying time for the deployment of the larger joint force in 
major contingencies. Readiness is a key to making this possible.
    This high state of readiness is necessary for security of our 
global interests, but financing near-term readiness has caused us to 
continually decrement our modernization and infrastructure accounts. To 
meet strategic guidance during the current period of fiscal austerity, 
the Marine Corps has funded near-term manpower and readiness accounts 
at the cost of significantly increased risk in longer-term equipment 
modernization. Over the long-term, resourcing short-term readiness by 
borrowing-forward from long-term investment resources is unsustainable, 
and will eventually degrade unit readiness to an unacceptable level. 
Full implementation of sequestration and the associated cap reductions 
in the coming years will require a top to bottom re-examination of 
priorities, missions, and what it will take to continue to be the 
Nation's Expeditionary Force in Readiness.
    The current period of fiscal austerity significantly pressurizes 
each of our appropriation accounts, especially operations and 
maintenance, equipment modernization, and military personnel. Our 
challenge in balancing modernization and end-strength costs is 
especially acute, as we invest nearly 60 cents of every appropriated $1 
on our most vital assets, our personnel. Our ground materiel 
modernization investment accounts comprise a mere 10 percent of our 
baseline budget. Because of this significant variance between personnel 
and ground modernization funding, even proportional cuts across the 
Services have disproportionate impacts on our already pressurized small 
investment programs. In the Marine Corps' ground investment portfolio, 
the top 25 programs consume 60 percent of the available budget, while 
the remaining 40 percent supports 171 small programs. These small 
programs are essential to equipping individual Marines and providing 
their qualitative edge. These programs, and the small businesses they 
support, have limited flexibility to respond to reduced funding, and 
are increasingly vulnerable as resource shortfalls become more acute.
    Sustained combat operations in the harsh environments of Iraq and 
Afghanistan have also significantly degraded the readiness of our 
existing ground equipment. Our combat equipment has aged far faster 
than it would have given normal peacetime utilization rates. 
Accordingly, we are requesting funding to support the reset and 
restoration of our equipment to ensure we provide Marines the most 
combat-ready equipment needed to respond to future crisis and 
contingencies around the world.
    We are proud of our reputation for frugality, and will always 
remain good stewards of every defense $1 we are entrusted with. In a 
period of budget austerity, we offer a strategically mobile force 
optimized for forward presence and rapid crisis response for a notably 
small portion of the Department of Defense (DOD) budget. The Marine 
Corps will remain ready to fulfill its role as the crisis response 
force of choice for our Nation's leaders.
                        shared naval investments
    The Department of the Navy's (DON) investment in amphibious 
warships, maritime prepositioning ships, ship-to-shore connectors, mine 
countermeasures, and the Navy Expeditionary Combat Command (NECC) 
represent critical Navy investments that also support the Marine Corps. 
Due to current fiscal challenges, we have agreed to take risk in the 
number of amphibious ships to a fiscally constrained fleet of 33 
amphibious warships, producing 30 operationally available ships if 
readiness levels are significantly improved. Thirty operationally 
available amphibious warships allow for the employment of two Marine 
Expeditionary Brigades (MEBs), the minimum capability and capacity 
necessary to fulfill our Combatant Commander commitments for sea-based 
forcible entry. This represents a minimal capacity for a maritime 
nation with global interests and key dependencies on the stability of 
the global system. By way of comparison, a two brigade force was 
necessary to wrest control of the mid-size city of Fallujah from 
insurgents in 2004. Two brigades of forcible entry capacity are 
required to create access for the rest of the joint force should 
defense of our interests make it necessary. There are no acceptable 
substitutes for this capability within our national defense inventory. 
This fiscal year, the total amphibious warship inventory will rise to 
31 ships with the delivery of LPD-25. Within the next 2 years, the 
inventory will decline before rising to an average of 33 amphibious 
warships across the 30-year shipbuilding plan.
    The Navy's programs and plans to sustain fleet quantities of 
landing craft include the Landing Craft, Air Cushion (LCAC) Service 
Life Extension (SLEP), LCAC Fleet Maintenance Program (FMP), and the 
Ship-to-Shore Connector (SSC) program which will produce the 
replacement LCAC-100 class craft to maintain the non-displacement ship-
to-shore capability of the fleet. The LCU Sustainment Program is the 
single program to maintain the displacement component of the connector 
fleet. The Surface Connector (X) is Navy's planned program to replace 
and recapitalize the aging LCU. These Navy programs are important to 
Marines, and are essential for our Nation's ability to project its 
influence from the sea. Additionally, we support the Navy's idea to 
extend the life of select LCAC SLEP craft for 10 years to reduce 
inventory shortfalls in the 2020s. The Marine Corps actively supports 
and depends upon these programs.
    To complement our amphibious capabilities, the Maritime 
Prepositioning Force (MPF) program is designed to rapidly deploy the 
combat equipment and logistics required to support Marine Air Ground 
Task Forces from the sea. The MPF provides the capability to rapidly 
equip MAGTF personnel, who fly in to marry up with their gear. Although 
Maritime Prepositioning Ship Squadron One (MPS Squadron One)--home 
ported in Rota, Spain--was eliminated in 2012, efforts are currently 
underway to enhance MPS Squadron Two (Diego Garcia) and MPS Squadron 
Three (Guam) to ensure the two remaining squadrons are optimized for 
employment across the full range of military operations. The current 
12-ship inventory has been re-organized into two Maritime 
Prepositioning Ship Squadrons that possess new sea basing-enabling 
capabilities, including at-sea selective offload of equipment and 
supplies, thereby providing Combatant Commanders a greater range and 
depth of sea-based capabilities. An additional two ships will be added 
during fiscal year 2015, for a total of 14 ships, seven in each MPS 
Squadron. Additionally, the Marine Corps Prepositioning Program in 
Norway (MCPP-N) is being reorganized to provide Combatant Commanders 
with balanced MAGTF equipment set for training and operations. This 
combination of prepositioned equipment locations, afloat and ashore, 
greatly enhances our ability to swiftly establish critical combat 
capabilities in times of major crisis.
                        investing in our marines
    The core of our overall readiness and combat effectiveness resides 
in the individual Marine. Recruiting and retaining high-quality people 
is essential to attaining a dedicated and professional Marine Corps. 
Recruiting provides the lifeblood of our Corps; the foundational step 
in making Marines. To maintain a force comprised of the best and 
brightest of America's youth, the Marine Corps uses a variety of 
officer and enlisted recruiting processes that stress high mental, 
moral, and physical standards. We retain the most qualified Marines 
through a competitive career designation process for officers, and a 
thorough evaluation process for enlisted Marines. Both processes 
measure, analyze, and evaluate our Marines performance and 
accomplishments for competitive retention.
    Our ability to attract young men and women is tied directly to our 
ability to establish and foster a dialogue with the American people. We 
do this through an aggressive outreach and advertising campaign that 
seeks to reach all sectors of American society. We continue to seek 
qualified young men and women of any race, religion, or cultural 
background who are willing to commit to our demanding standards.
    Marine Reserve Forces continue to serve as a strong force 
multiplier of the total force, and are a high-payoff investment in 
capability. Since September 11, 2001, more than 60,000 Marine 
Reservists, from all across the United States, have participated in 
over 80,000 activations or mobilizations. Our Reserve Marines are 
uniquely well-positioned to seamlessly integrate with the active 
component, to reinforce our service priorities, and to provide a 
reservoir of capacity for future national emergencies. Our Reserve 
Marines are well-equipped and highly trained professionals, providing 
an essential shock absorber for the active component in the uncertain 
global environment.
    Professional Military Education (PME) is designed to produce 
leaders who are proficient in the thinking skills necessary to face the 
complexity of conflict we expect in the future. As such, PME represents 
a key, cost-effective investment in our most valued resource--our 
Marines. Marine Corps University (MCU), a part of Training and 
Education Command (TECOM), is a regionally accredited, degree-granting 
institution committed to providing world-class educational 
opportunities through both resident and distance/outreach programs. 
Marine Corps University is a globally recognized, world-class PME 
institution that is designed to advance the study and application of 
the operational art. Our commitment to improve the quality of our PME 
programs and advance the PME opportunities for our Marines is 
unwavering. Beginning in fiscal year 2011, military construction 
projects totaling $180 million have helped dramatically improve MCU's 
educational facilities, to include staff noncommissioned officer 
academies across our installations as well as an expansion of our 
primary campus in Quantico. In addition, we will continue to improve 
the quality and quantity of our active duty and civilian faculty.
                        investing in ready units
    The Marine Corps will continue to meet the requirements of 
strategic guidance while resetting and reconstituting the force in-
stride. Our reconstitution efforts will restore our core combat 
capabilities and will ensure units are ready for operations across the 
spectrum of conflict. Sustaining combat operations for more than a 
decade has required the use of a large share of the available assets 
from our home bases and stations. This has produced ready forces where 
they have mattered most, but has taken a toll on nondeployed Marine 
units. Currently, 65 percent of nondeployed units are experiencing 
degraded readiness due to portions of their equipment being 
redistributed to support units deploying forward. While necessary in 
times of crisis, this commitment of our ``seed corn'' to current 
contingencies degrades our ability to train and constitute ready units 
for their full range of missions over time. Unbalanced readiness across 
the force increases risk to timely response to unexpected crises or 
large-scale contingencies. We will continue to emphasize our reset and 
reconstitution efforts that cost-effectively restore combat equipment 
and return it to units for training.
    Vital to maintaining readiness is the operations and maintenance 
(O&M) funding to train in our core missions and maintain our equipment. 
MAGTF readiness continues to improve with larger scale naval exercises 
that are maximized to enhance our ability to operate from the sea. Over 
the next 2 years, we anticipate incremental increases in the core 
training readiness of units as Marines return home from Afghanistan and 
have time to train to their full range of capabilities. The peacetime 
availability and readiness of amphibious warships and maritime 
prepositioning ships are critical dependencies for training readiness, 
and for supporting expeditionary, amphibious operations around the 
globe.
    The Geographic Combatant Commanders (GCCs) continue to register an 
increased demand for crisis response and amphibious forces in order to 
meet requirements across the range of military operations. Forward 
deployments provide deterrence, reassure our allies, posture our forces 
for crisis response, and enable rapid contingency response to major 
conflict. GCCs recognize and appreciate the agility and operational 
reach of ready expeditionary capabilities. As we construct the forces 
for the next decade, we will continue to seek cost-effective ways of 
saying ``yes'' to joint commanders on the leading edge of our national 
security effort, while preserving skills and training necessary for 
larger contingencies. The multipurpose nature of Marine forces makes 
them a cost-effective investment for a wide range of application.
    In addition to our traditional crisis response and expeditionary 
capabilities, the Marine Corps has reinforced its contributions to our 
Marine Special Operations Command (MARSOC) and Marine Forces Cyber 
Command (MARFORCYBER). The demand for our expeditionary MARSOC forces 
remains high as these Marines provide critically needed capability and 
capacity to theater special operations commands supporting both Special 
Operations Command (SOCOM) and the GCC operational requirements. 
Marines have excelled as special operators, combining the Marine ethos 
with the training and skills of the special operations community. 
Additionally, the Marine Corps continues to expand its capability and 
capacity for cyberspace operations; including offensive and defensive 
cyber capabilities. The Marine Corps Information Operations Command 
(MCIOC) supports deployed MAGTFs, integrating information operations in 
support of forward-deployed forces and joint commanders.
                       investing in modernization
    Across the spectrum of conflict, our adversaries have adapted their 
tactics to counter our significant technological advantage. Even many 
``low-end'' threats are now equipped with modern technologies and 
weapons. Our adversaries oppose us with tools of the information age, 
including modern communications, intelligence, and cyber capabilities. 
While state-sponsored opponents continue their development of advanced 
technologies, non-state threats have likewise become increasingly 
sophisticated and lethal. An increasing number of threats now possess 
intelligence capabilities, precision munitions, and unmanned systems. 
This ``rise of the rest'' erodes the technological advantage we have 
enjoyed for decades, making the qualitative advantages of the modern 
Joint force even more important. This situation creates an imperative 
for maintaining our investments in new equipment, better technology, 
research, and development.
    Our desire for our Marines to maintain a qualitative edge over 
their opponents applies equally to both our large-scale weapons 
programs, and the numerous small programs that equip our individual 
Marines with modern capabilities. This modernization mandate is a 
fundamental pillar of a ready force, shared by all of the services. 
With the smallest modernization budget in the Department of Defense, 
the Marine Corps continually seeks to leverage the investments of other 
services, carefully meting-out our modernization resources to those 
investment areas which are the most fiscally prudent and those which 
promise the most operationally effective payoffs.
    Innovative war-fighting approaches and can-do leadership are 
hallmarks of the Corps, but these cannot overcome the vulnerabilities 
created by our rapidly aging fleet of vehicles, systems, and aircraft. 
Long-term shortfalls in modernization will have an immediate impact on 
readiness and will ultimately cost lives on the battlefield. At some 
point, sustaining fleets of severely worn vehicles becomes inefficient 
and no longer cost-effective. This inefficiency reduces available 
modernization resources from an already small account, degrading our 
ability to effectively operate in today's complex security environment. 
Our modernization investment requires a balanced approach across the 
Air-Ground-Logistics Team.
Aviation Combat Element Modernization
    On average, more than 40 percent of our aviation force is deployed 
at any time, with an additional 25 percent preparing to deploy. All 
told, this means two-thirds of Marine Aviation forces are currently 
deployed or preparing to deploy. This creates an increasing cost burden 
as we work to sustain our heavily used and rapidly aging fleet of 
aircraft.
    Accordingly, even as we invest in new aircraft as a part of our 
aviation modernization, we must take every opportunity to drive down 
operations and sustainment (O&S) costs while ensuring the continued 
safety, reliability, and operational relevance of our ``legacy'' and 
recently fielded platforms. The F/A-18A-D, originally designed for a 
6,000-hour service life, has reached an average usage of 6,800 hours. 
Ongoing upgrades and analysis have extended service life to 8,000 
hours, but this buys only limited time. A service life extension 
program to increase service life to 10,000 hours would rely heavily on 
depot capacity, rapid engineering assessment, and adequate funding. Our 
aging AV-8B fleet depends on careful stewardship of its supply chain 
and targeted capability enhancements to keep it relevant through the 
mid-twenties. Similar oversight and investment in the CH-53E, UH-1N, 
and AH-1W will keep our helicopter fleet operating while the next 
generation is fielded. On a positive note, the MV-22 program has 
continued to excel in combat and crisis environments, even as it has 
reduced flight hour costs by 18 percent over the past 2 years. We 
intend to find similar savings throughout Marine aviation.
    To do so, we will use our Aviation Plan--a phased, multiyear 
approach to modernization that encompasses aircraft transitions, 
readiness, aircraft inventory shortfalls, manpower challenges, safety 
and fiscal requirements. The following programs form the backbone of 
our aviation modernization effort:
  --F-35B.--As we modernize Marine fixed-wing aviation assets for the 
        future, the continued development and fielding of the short 
        take-off and vertical landing (STOVL) F-35B Joint Strike 
        Fighter remains the centerpiece of our effort. The capability 
        inherent in a STOVL jet allows the Marine Corps to operate in 
        harsh conditions and from remote locations where few airfields 
        are available for conventional aircraft. It is also 
        specifically designed to operate from amphibious ships--a 
        capability that no other tactical fifth-generation aircraft 
        possesses. The ability to employ a fifth-generation aircraft 
        from 11 big-deck amphibious ships doubles the number of 
        ``aircraft carriers'' from which the United States can employ 
        this game-changing capability. The expanded flexibility of 
        STOVL capabilities operating both at-sea and from austere land 
        bases is essential, especially in the Pacific. Once fully 
        fielded, the F-35B will replace three legacy aircraft--F/A-18, 
        EA-6B, and AV-8B. Training continues for our F-35B pilots. In 
        2012, we flew more than 500 hours and trained 15 pilots. Just 
        recently, in November 2012, we established our first 
        operational squadron, VMFA-121, at MCAS Yuma. Continued funding 
        and support from Congress for this program is of utmost 
        importance for the Marine Corps as we continue with a plan to 
        ``sundown'' three different legacy platforms.
  --MV-22B.--The MV-22B Osprey has performed exceedingly well for the 
        Corps and the Joint Force. This revolutionary tiltrotor 
        aircraft has changed the way Marines operate on the 
        battlefield, giving American and Coalition forces a maneuver 
        advantage and an operational reach unmatched by any other 
        tactical aircraft. The MV-22B has successfully conducted 
        multiple combat deployments to Iraq, six deployments with MEUs 
        at sea, and is currently on its seventh deployment to 
        Afghanistan. In the Pacific, we have fielded our first 
        permanent forward-deployed Osprey squadron, VMM-265, in 
        Okinawa. Our squadron fielding plan continues apace as we 
        replace the last of our Vietnam-era CH-46 helicopters. The MV-
        22B's proven combat capability reinforces the necessity that we 
        continue to procure the full program of record quantities. The 
        record of performance and safety this aircraft brings in 
        support of Marines and the joint force on today's battlefields 
        has more than proven its value to the Nation.
  --CH-53K.--The CH-53K is a new-build heavy lift helicopter that 
        improves on the legacy CH-53E design to increase operational 
        capability, reliability, maintainability, and survivability; 
        while reducing cost. The CH-53K will transport 27,000 pounds of 
        external cargo under high altitude/hot conditions out to 110 
        nautical miles, nearly three times the lift capacity of the 
        legacy CH-53E. It is the only naval rotorcraft able to lift all 
        Marine Corps air-transportable equipment from amphibious 
        warships and the Maritime Prepositioned Force. Our Force 
        Structure Review has validated the need for a CH-53K program of 
        record of eight CH-53K squadrons.
  --UH-1/AH-1.--The H-1 program, composed of the UH-1Y utility and the 
        AH-1Z attack helicopters, is a single acquisition program that 
        leverages 85 percent commonality of major components between 
        the two platforms. This commonality enhances deployability and 
        maintainability while reducing training requirements and 
        logistical footprints. Both aircraft are in full-rate 
        production. The H-1 procurement objective is 160 UH-1Ys and 189 
        AH-1Zs for a total of 349 aircraft. Currently, 181 H-1 aircraft 
        are on contract, with 72 UH-1Ys and 30 AH-1Zs delivered to 
        date. The UH-1Y has supported sustained combat operations in 
        OEF since November 2009. The AH-1Z completed its first 
        deployment alongside the UH-1Y in June 2012 as part of the 11th 
        MEU. The AH-1Z performed extremely well on its initial MEU 
        deployment. These aircraft had high Mission Capable (MC) 
        readiness rates while deployed (89.9 percent MC for AH-1Z, 94.4 
        percent MC for UH-1Y). All subsequent West Coast MEUs are 
        sourced with UH-1Y and AH-1Z aircraft. The continued 
        procurement and rapid transition to these two platforms from 
        legacy UH-1N and AH-1W assets in our rotary-wing squadrons 
        remains a priority.
  --KC-130J.--The new KC-130J Hercules has been fielded throughout our 
        active component, bringing increased capability, performance, 
        and survivability with lower operating and sustainment costs to 
        the Marine Air Ground Task Force. Using the Harvest HAWK weapon 
        mission kit, the KC-130J is providing extended endurance Close 
        Air Support to our Marines in harm's way. Currently, we have 
        procured 48 KC-130Js of the stated program of record 
        requirement totaling 79 aircraft. Continued procurement of the 
        program of record will allow us to fully integrate our active 
        and reserve force with this unique, multimission assault 
        support platform.
  --Unmanned Aerial Systems (UAS).--Marine Corps operations rely 
        heavily on a layer of small UAS systems that complement the 
        larger systems provided by the joint force. These smaller 
        systems provide direct support for forces operating from sea-
        based platforms, and enable critical low-altitude and immediate 
        responsiveness that enable small units on the ground. The RQ-7B 
        Shadow unmanned aircraft system has provided excellent 
        intelligence, surveillance, reconnaissance, and battlefield 
        management capabilities in Afghanistan. The RQ-21A Small 
        Tactical Unmanned Aircraft System is uniquely capable of 
        operating from ship or shore, is transportable by High Mobility 
        Multi-Purpose Wheeled Vehicles (HMMWV), and will be an integral 
        part of the future MAGTF. We remain committed to these two 
        critical programs.
  --Ground/Air Task Oriented Radar (G/ATOR).--The TPS-80 G/ATOR system 
        is the three dimensional short/medium range radar designed to 
        detect low observable/low radar cross section targets such as 
        cruise missiles, UAS, aircraft, rockets, mortars, and artillery 
        shells. G/ATOR replaces five legacy radar systems and supports 
        air surveillance, fire finding, and air traffic control 
        missions. G/ATOR provides fire quality data that supports the 
        integrated fire control concept and the extension of defensive 
        and strike capabilities from the sea to landward in the 
        littorals.
Ground Combat Element Modernization
    Age and operational tempo have taken a toll on our Ground Combat 
Element's (GCE) equipment, creating a requirement to recapitalize and 
modernize key components. Essential to modernizing the GCE is a 
comprehensive technologically advanced vehicle portfolio. Two key 
initiatives to modernize the GCE are the Amphibious Combat Vehicle 
(ACV) and the Joint Light Tactical Vehicle (JLTV). These systems, 
coupled with the recapitalization of our Family of Light Armored 
Vehicles (LAV), a refurbishment of a portion of our legacy High 
Mobility Multi-Purpose Wheeled Vehicle (HMMWV) fleet, and improvements 
in advanced simulations systems, are critical to sustaining individual 
and unit combat readiness while ensuring core capabilities of the GCE.
    Amphibious operations are a core mission of the Marine Corps. 
Amphibious operations is a category which includes a broad range of 
missions including reinforcing diplomatic facilities from sea-based 
platforms, conducting strikes and raids against terrorism targets, 
delivering aid in the case of humanitarian disaster, and conducting 
forcible entry where our forces are not invited. The future security 
environment dictates that we maintain a robust capability to operate 
from the sea, placing special demands on our equipment. When operating 
in a maritime environment, Marine systems are exposed to the effects of 
salt water and extreme weather. Our operational concepts depend on 
rapid maneuver in littoral waters by which we avoid threat strengths 
and exploit weaknesses. Thus, our combat systems must bridge the gap 
between sea and land. Our tactics exploit swift action by Marines 
ashore, mandating a seamless transition from maneuver at sea to 
maneuver on land. In every operating environment we must provide a 
modicum of protection for our Marines while preserving all-terrain 
mobility and minimizing weight. The specialized craft utilized by 
Marines support the unique missions of the sea-based crisis response 
force and are essential for swift maneuver and forcible entry across a 
range of environments.
    Amphibious Combat Vehicle (ACV).--Many of our systems show the 
signs of age, but none more than the current Amphibious Assault Vehicle 
(AAV) which has been in service since 1972. The legacy AAV has served 
the Corps well for over 40 years, but faces multiple component 
obsolescence issues that affect readiness, sustainment costs, safety, 
and our ability to respond from the sea. The Amphibious Combat Vehicle 
(ACV) is needed to replace this aging fleet. To meet the demands of 
both amphibious crisis response and forcible entry, the ACV program 
will develop and field an advanced generation, fully amphibious, 
armored personnel carrier to Marine Corps expeditionary forces. The ACV 
will provide the ability to maneuver from the sea and to conduct 
amphibious operations and combat operations ashore by providing the 
capability to self-deploy from amphibious ships and to seamlessly 
transition between sea and land domains. The ACV will enable the 
efficient, tactical mobility of infantry combat forces from ships to 
inland objectives across beach landing zones under uncertain, 
nonpermissive, or hostile conditions in order to facilitate the rapid 
buildup of combat power ashore. Bridging this sea-land gap with surface 
vehicles is a necessary complement to the maneuver capabilities brought 
by our MV-22 aircraft. Our objective in the ACV acquisition program is 
to provide a sufficient quantity of vehicles to ensure we can meet the 
requirement of the surface assault force for forcible entry and sustain 
MAGTF operations.
    During the interval in which we design, build and field the ACV, we 
must ensure the continued safety, reliability, and operational 
capability of our ``legacy'' AAV. The current AAV platform faces 
significant maintenance challenges and obsolescence issues. 
Accordingly, AAV sustainment efforts, to include the AAV Upgrade 
program, remain a top Marine Corps recapitalization effort priority 
until fielding of the ACV.
    Joint Light Tactical Vehicle (JLTV).--The Joint Light Tactical 
Vehicle (JLTV) will provide the Marine Corps with modern expeditionary 
light combat and tactical mobility while increasing the protection 
afforded our Marines in the light utility vehicle fleet. Working 
closely with the Army as the lead Service, the Marine Corps is a 
partner in developing this key system for the tactical-wheeled vehicle 
fleet of the Joint Force. A relatively light system is necessary to 
retain our expeditionary capabilities aboard amphibious warships, and 
to support transport by rotary wing aircraft. The program also seeks to 
provide a level of protection that is an improvement over the HMMWV. As 
a reflection of a constrained fiscal environment, our initial planned 
purchase is 5,500 vehicles, only enough to meet critical needs in the 
most dangerous combat mission profiles of the light vehicle fleet. The 
JLTV development will benefit from early user and life cycle cost 
analysis to ensure its long-term cost-effectiveness. The Marine Corps 
also seeks funding to refurbish the balance of the HMMWV fleet that 
will be retained. This is a cost-effective strategy to use these older 
vehicles in mission profiles where a lack of the advanced capabilities 
of the JLTV can be mitigated.
    Light Armored Vehicle (LAV).--The Family of Light Armored Vehicles 
(LAVs) enables combined arms reconnaissance and security missions in 
support of the GCE. This family of vehicles has proven itself over more 
than two decades of combat, and is an essential element of the combat 
power of the MAGTF. Heavily utilized in crisis response, conventional 
combat, irregular environments and stability operations, this fleet now 
requires robust recapitalization and modernization in order to sustain 
its capabilities. Additionally, obsolescence issues with several 
critical components threaten the sustainability of the LAVs through the 
expected end of service. Funding is requested to maintain the 
operational availability of these platforms and provide upgrades to 
adapt to the current and anticipated operating environments.
    Ground Training Simulation Systems.--Modernization efforts in 
ground training simulation systems have capitalized on advancements in 
technology developed over a decade of preparing Marines for combat 
deployments in Iraq and Afghanistan. Leveraging our success with these 
programs, we will further enhance combat training to maintain our 
readiness for the current and future security environments. These 
critical simulation systems develop combat unit proficiency in core 
skills such as command and control, leadership decisionmaking, and 
combined arms coordination. They develop proficiency in individual 
skills through combat convoy vehicle operator training, advanced 
gunnery training, and individual marksmanship. These systems complement 
necessary live ammunition and range training, but allow the 
fundamentals of these capabilities to be practiced in a much more cost-
effective manner. Training simulation systems conserve training and 
maintenance funds, reduce ammunition expenditures, and mitigate limited 
availability of training ranges.
    Joint Nonlethal Weapons Program.--As DOD's Executive Agent for the 
Joint Nonlethal Weapons Program, the Marine Corps also continues its 
efforts, in concert with the other Services, to advance nonlethal 
technologies, and to provide capabilities in support of operational 
commanders and our Allies to minimize collateral damage and unnecessary 
loss of life. These capabilities are becoming increasingly relevant in 
the security environment of the new normal of instability, non-state 
actors, and a desire to minimize collateral damage.
Logistics Combat Element Modernization
    Our logistics modernization efforts include the Global Combat 
Support System-Marine Corps (GCSS-MC) as the Information Technology 
enabler for logistics supply chain management throughout the Marine 
Corps. When fully developed, GCSS-MC will provide an unprecedented 
capability for inventory accountability, providing accurate logistics 
data to commanders and logisticians in near real-time at any location 
in the world.
    The past decade's operational tempo and the continuing evolution of 
warfare have also emphasized the importance of engineer equipment 
modernization. Explosive Ordnance Disposal (EOD) capability has become 
increasingly important with the rise of the improvised explosive device 
as the enemy's weapon of choice. Development of the Advanced EOD 
Robotics System and Route Reconnaissance and Clearance Sets have proven 
themselves in combat, saving lives and preempting casualties.
Energy Modernization
    Expeditionary Energy is a multiyear initiative integrated with our 
approach to amphibious and expeditionary operations. Over the last 
decade of combat, Marines have increased their lethality and 
situational awareness, but at the expense of increased requirements for 
fuel and batteries. These dependencies increase the logistics footprint 
and combat weight of our force, impairing our expeditionary 
responsiveness. The Marine Corps takes seriously the necessity to 
increase energy efficiency, deploy renewable energy technology where it 
makes sense, and train Marines to employ resources more efficiently. We 
have made tremendous strides in weaning ourselves from external energy 
dependencies, and we remain committed to continue our investments in 
expeditionary energy. For expeditionary Marines operating in austere 
environments, these energy efficiency measures represent a significant 
increase in combat effectiveness.
             investing in installations and infrastructure
Infrastructure Sustainment
    Marine Corps Installations are a foundational support element to 
our Air-Ground-Logistics teams. Our bases and stations serve as launch 
platforms for our combat deployments, and are host to the realistic 
training and facilities that make our Marines successful on the 
battlefield. Our installations also provide for the safety and support 
of our military families, our combat equipment, and our civilian 
workforce. The quality of life for our Marines, Sailors, and families 
is measurably impacted by the condition of our facilities. Our 
installation commanders are required to be good stewards of their 
properties, to respect natural and cultural resources and to operate in 
a manner that sustains the environment and their mission. We will 
continue to ensure that Marine Corps facilities are well-planned, 
built, and maintained, and that they cost-effectively support Marine 
Corps readiness. To maintain our physical infrastructure and the 
complementary ability to train and deploy highly ready forces, we must 
adequately resource the sustainment and readiness of our bases and 
stations.
    In fiscal year 2014, the Marine Corps Facilities Investment 
strategy ensures that our infrastructure can adequately support Marine 
Corps' needs. The proposed fiscal year 2014 budget provides $653 
million for facilities sustainment of Marine Corps facilities and 
infrastructure, maintaining funding at 90 percent of the sustainment 
model requirement. Our budget request adequately supports environmental 
compliance, family housing improvements, and the replacement of 
inadequate and obsolete facilities across our installations. The fiscal 
year 2014 budget request provides proper stewardship of Marine Corps 
infrastructure. Sequestration necessitates significant cuts in 
facilities investments and subsequent degradation in infrastructure 
conditions and readiness.
    With over $800 million requested in fiscal year 2014 for required 
Military Construction projects, we are prioritizing funding to support 
new mission and new platform requirements, force structure 
repositioning, replacement of aging infrastructure, and support to 
enduring missions. Our efforts to improve force protection, safety, and 
physical security requirements are continuous.
    The fiscal year 2014 budget provides $69 million for military 
construction and $31 million for operations and maintenance funding to 
continue improvements in our installations energy posture. This funding 
will target energy efficiency goals established by the Energy 
Independence and Security Act of 2007 aimed at reducing consumption by 
30 percent from a 2003 baseline. Additional efficiencies will be gained 
by decentralizing older, inefficient steam heating plants and by 
improving our energy management and control systems. Overall, our 
planned investments are intended to increase energy security on our 
installations while reducing the cost of purchased utilities. Lean and 
efficient basing infrastructure allows us to put every precious $1 to 
use making Marines and deploying them where they are needed most.
    To enable essential changes in training requirements as well as new 
weapon systems, we are seeking Congressional support to expand the 
Combat Center at Twentynine Palms, California, extend the existing 
withdrawal of land for the Chocolate Mountain Aerial Gunnery Range, 
California, as well as purchase private property to expand the Townsend 
Bombing Range in Georgia. At Twentynine Palms, we are requesting the 
withdrawal of approximately 150,000 acres from the public domain as 
well as the purchase of approximately 2,500 acres of California State 
Land and 10,000 acres of privately held land enabling it to support 
training and exercises for a Marine Expeditionary Brigade size force. 
The Marine Corps is also requesting to extend the existing withdrawal 
of land for the Chocolate Mountain Aerial Gunnery Range in southern 
California. The current withdrawal expires in 2014 and requires renewal 
by Congress so that this vital range can continue its use for air and 
ground training. Finally, the current 5,000 acre Townsend Bombing 
Range, adjacent to Savannah, is not large enough to meet the required 
safety or space requirements for use of precision guided munitions. We 
are seeking to purchase privately held land to increase this facility 
as well, allowing us to drop a wider range of ordnance in training. 
This is a critically important Marine Corps aviation training 
requirement that would be safely supported with the proposed expansion 
by approximately 28,000 acres. For decades, Townsend Range has been 
used by the joint aviation community as a centrally located and 
preferred Air-to-Ground training facility on the east coast; the 
fielding of the F-35 Joint Strike Fighter to all three Services makes 
the expansion of Townsend Range even more critical.
                        orienting to the future
Rebalancing Toward the Pacific
    As the world's leading democracy and largest economy, the United 
States is a global Nation with economic and security interests 
inextricably linked to the Asia-Pacific. The arc extending from the 
chain of our own Alaskan islands down the Asian continent follows a 
vast littoral and archipelagic swath that is home to close allies, 
emerging partners, and potential threats. It contains vast resources, 
vibrant populations, and great cities. It continues through the narrow 
straits of Southeast Asia and extends all the way into the Indian 
Ocean. Our return to prosperity as a nation (and thus achieve our 
lasting security) depends on the restoration of global growth. No 
engine of growth is more powerful than the Asia-Pacific. Rebalancing to 
the Pacific theater is a central element of strategy. Geographically, 
culturally, economically, even by name, the ``Pacific'' is a maritime 
theater. The vast stretches of ocean, the thousands of small islands 
that dot its map, and the vast inland waterways that shape its 
demography are all artifacts of this maritime character, and have 
implications for the types of forces required to achieve our security 
there. The tyranny of distance underscores the value of forward 
deployed maritime forces in the Pacific region. The Navy-Marine Corps 
team is uniquely suited to operate in this vast blue water and littoral 
environment. Marines have a long legacy of serving in the Pacific; it 
is where the Marine Corps ``came of age.'' We are proud of our heritage 
in that theater through a world war and the many smaller conflicts, 
crises, and contingencies that have followed. Strategic imperatives 
demand that our Nation continues to build on the presence of Sailors 
and Marines who operate daily throughout this region.
    As we draw down our presence in Afghanistan we will reset in 
stride, resuming our Unit Deployment Program in Okinawa and re-
establishing our force posture in the Pacific. The Marine Corps has 
developed a comprehensive campaign for a future force lay down in the 
Pacific that retains the ability to contribute a stabilizing presence, 
continues to contribute to deterrence and regional stability in 
Northeast Asia, revitalizes our traditional partnerships while 
developing new ones, and postures forces to take advantage of key 
partnership opportunities in Southeast Asia. Our desired end state 
through this rebalance is four geographically distributed and 
operationally resilient Marine Air Ground Task Forces (MAGTFs) trained 
and prepared to conduct combined arms and amphibious operations in 
support of the global requirements of the joint force.
    In the Pacific, forward presence is a key necessity for timely 
response to crisis. Where hours matter, a response measured in weeks or 
months wanes in relevance. Expeditionary Marine forces operating in the 
Western Pacific can trim 2 weeks off the response time of units coming 
from the continental U.S. Forward naval presence and training with our 
Pacific allies demonstrates our commitment to the region, and builds 
trust that cannot be surged during times of crisis.
Innovation and Experimentation
    The Marine Corps has remained at the forefront of innovation, 
especially during the last decade. Through experimentation and 
realistic training, the Marine Corps has adapted to the challenges of 
the modern operating environment, and has developed new concepts, 
tactics, techniques, and procedures to ensure Marines are prepared to 
meet the challenges of the future. Two key components of our training 
innovation are our Marine Corps' Tactics and Operations Group (MCTOG) 
and our Marine Corps Logistics Operations Group (MCLOG). These 
organizations represent the collective wisdom of years of combat 
operations rapidly turned directly into our training curricula. 
Combined with the Marine Aviation Weapons and Tactics Squadron One 
(MAWTS-1), we are implementing a professionalization syllabus and 
certification process for our mid-level combat leaders.
    Through a rigorous process of wargaming, technological assessment, 
and experimentation, the Marine Corps Warfighting Laboratory (MCWL), 
works closely with the Office of Naval Research and other partners to 
produce material and nonmaterial solutions for our operating forces. 
This mix of combat veterans, technical experts, and forward thinkers 
conducts timely innovation to meet current needs and emerging threats. 
We intend to build on this ability to adapt and innovate through MCWL 
and the Marine Corps University. Leveraging the human capital 
represented in a combat-proven generation of Marines is essential for 
our future force.
Large Scale Exercises
    Nations around the world, many of whom are our allies, are 
purchasing and constructing amphibious capabilities at an increasing 
rate. Even as total fleet numbers decline, the number and tonnage of 
amphibious fleets is on the rise, and the growth of expeditionary 
maritime capabilities is similarly resurgent. Our allies and partners, 
especially in the Pacific, continue to improve amphibious arsenals and 
realize the importance for this capability, as do our competitors and 
potential adversaries. The forward-deployed Navy-Marine Corps 
amphibious team continues to be a significant power projection 
capability and a compelling model for other countries to emulate. Our 
ability to train with and mentor this global force development is 
essential.
    In 2012, the Navy-Marine team conducted a number of large-scale 
amphibious exercises to revitalize, refine, and strengthen our core 
amphibious competencies. Exercises such as Bold Alligator on the U.S. 
East Coast, Cobra Gold in Thailand, and SsangYong in South Korea each 
draw significant international participation. Our allies have seen the 
broad utility of expeditionary forces in achieving national security 
objectives, and are investing to achieve these capabilities themselves. 
These large exercise series, and others like them, leverage the 
explosive growth of amphibious capabilities among our allies and 
partners. They contribute not only to the training readiness of our own 
forces, but also achieve combined training objectives with our allies. 
They demonstrate our collective ability to provide the mechanisms of 
collective security in the global commons. The investment of operating 
funds to conduct these large-scale exercises not only trains forces, 
but also builds strong security relationships.
          keeping faith with our marines, sailors and families
Family Readiness
    The Marine Corps remains acutely aware of the critical relationship 
between quality of life and Marine Corps combat readiness. The strong 
support of Congress in providing quality of life funding continues to 
yield needed enhancements in family support programs. Our Marine Corps 
Family Team Building (MCFTB) trainers and Family Readiness Officers 
support the Unit, Personal and Family Readiness Program to ensure 
Marines and their families maintain a high level of family readiness. 
Over the last year, we have made significant strides in making our 
entire syllabus of MCFTB training available online via computer based 
training modules. As of March 1, families are now able to register for 
an account and utilize computer-based training on our Marine-Net 
training Web site. With over 227,000 subscribers and growing, our 
online family readiness Web site, e-Marine, continues to be a valuable 
and innovative tool to securely and safely share family readiness 
information while improving lines of communication within individual 
commands. Marines, family members, and unit commanders can access 
documents, view photos and videos, participate in forums, and receive 
important information about their Marine's unit from anywhere in the 
world.
Wounded Warriors
    The Marine Corps' Wounded Warrior Regiment (WWR) is a fundamental 
component of the Marine Corps' pledge to ``keep faith'' with those who 
have served. The WWR supports Marines wounded in combat, those who fall 
severely ill, and those injured in the line of duty. The WWR 
administers the Marine Corps' Recovery Care Coordination Program that 
ensures medical and nonmedical needs fully integrate with programs such 
as the Warrior Athlete Reconditioning Program. Facilities such as our 
new Warrior Hope and Care Centers provide necessary specialized 
facilities that allow us to support our wounded warriors and their 
families.
    Key to this care is ensuring Marines execute recovery plans that 
enable their successful return to duty or reintegration to their 
civilian communities. Around the country, we have established District 
Injured Support Cell Coordinators who assist Marines transitioning from 
active duty to veteran status. Our WWR Medical Staff provides medical 
subject matter expertise, advocacy, and liaison to the medical 
community. The Sergeant Merlin German Wounded Warrior Call Center 
conducts an average of 7,000 outreach calls per month and receives 
calls for assistance 24 hours a day from both active duty and veteran 
Marines. Our contact centers conduct outreach to Marines who remain 
with their parent command ensuring their needs are met. Depending upon 
the individual Marine's requirements, these programs and services are 
coordinated for optimal care delivery, proving that Wounded Warrior 
care is not a process, but a persistent relationship between the Marine 
Corps and our Marines.
    One of my greatest concerns is the long-term care and support for 
our wounded veterans. Many of our young men and women have sustained 
injuries that will necessitate support for the remainder of their 
lives. Given the youthfulness of this wounded population, this 
represents a debt to our Nation's warriors that will have to be paid 
for several decades. Our Wounded Warrior capabilities are an enduring 
measure of our commitment to keep faith with our young men and women, 
and we expect this capability will continue well beyond our return from 
Afghanistan.
Resiliency
    We continue to invest, treat, and care for our Marines with Post-
Traumatic Stress (PTS) and Traumatic Brain Injury (TBI). We are working 
to ensure that Marines understand that, ``it's OK to not be OK.'' Our 
efforts will continue to ensure that Marines seek help and are provided 
effective care when they need it. We stress that all Marines and 
Sailors have a responsibility to look out for one another and to assist 
anyone who might be struggling.
    PTS and TBI are invisible enemies we cannot ignore. We are 
thoroughly screening all Marines and Sailors prior to deployment, 
enhancing the delivery of care in theater and identifying and testing 
all at-risk personnel as they return from deployment. Enhanced 
resilience, achieved through training and improved physical, spiritual, 
and psychological fitness, can decrease post-traumatic stress, decrease 
incidents of undesirable and destructive behaviors, and lead to greater 
likelihood for future good health. Most service members who seek and 
receive psychological health support improve, and are eligible to 
remain on active duty.
    Since January 2010, we have been building Operational Stress 
Control and Readiness (OSCAR) teams at the unit level. These teams 
consist of selected unit Marines, leaders, medical and religious 
personnel, and mental health professionals who work together to provide 
a network of support. This model empowers Marines with leadership 
skills to break stigma and act as sensors for the commander by noticing 
small changes in behavior and taking action early. OSCAR teams 
strengthen Marines, mitigate stress, identify those at risk and treat 
those who need support, with the goal of swiftly re-integrating Marines 
back into the force. This investment comes at a cost, and places 
increased demand on an already stressed Navy medical capacity.
    In fiscal year 2013, we will continue to advance our Marine Total 
Fitness concept to develop Marines of exemplary physical, 
psychological, spiritual, and social character. Marine Total Fitness 
infuses fitness-based information and concepts into all aspects of a 
Marine's training and readiness and prepares Marines to successfully 
operate in and respond to the rigors, demands, and stressors of both 
combat and garrison.
Sexual Assault Prevention and Response (SAPR)
    Sexual assault is a crime. Like other serious crimes, it is 
incompatible with our core values, negatively impacts individual 
Marines, and directly undermines readiness, unit cohesion, and morale. 
Protecting our Marines and eradicating sexual assault from our ranks 
are top priorities for me and our Corps. I believe we are making real 
and tangible progress. Over the last year, we have taken deliberate and 
substantive steps toward dramatic changes in our sexual assault 
prevention and response capabilities. The focus of effort has been on 
changing our culture--specifically, changing the behavior of those who 
might commit sexual assault and the actions of those who respond to it. 
We believe that all Marines are part of the solution, from small unit 
leaders to peer and bystander intervention, to legal professionals, to 
unit commanders. In April 2012, I handpicked a two-star general to lead 
an Operational Planning Team (OPT) comprised of our Corps' most 
credible officers and senior enlisted Marines. They were tasked with 
defining the sexual assault problem in our Corps and providing me 
recommendations on how we could eliminate it from within our ranks. 
This study led to our Sexual Assault Prevention and Response Campaign 
Plan. While recognizing that there is no single solution to preventing 
and responding to sexual assault, this plan makes every Marine 
accountable in our fight against it. We reconfigured the entire SAPR 
program at the Headquarters level, assigning oversight to a General 
Officer and a newly established team of experts. In an unprecedented 
move, we pulled one of our very best Colonels from his operational 
command to implement the initiatives outlined in the Campaign Plan. We 
brought back all of our General Officers to Quantico in July for 2 days 
of training and cross-leveling of their responsibilities in turning 
this crime around. On the heels of that effort, the Sergeant Major of 
the Marine Corps brought all of his top senior enlisted leaders back to 
D.C. in August to deliver the same message.
    The campaign's first phase consisted of 42 tasks, including new 
large-scale training initiatives at all levels. It was comprised of 
Command Team Training for senior leaders, bystander intervention 
training for Non-Commissioned Officers, and All Hands training for 
every single Marine. In these training sessions, we employed ethical 
decision games and interactive discussions to engage all Marines in 
this difficult topic. To achieve long-term cultural change, this 
training will be sustained through enhancing the training curricula in 
all of our professional schools, customizing the training based on the 
rank and experience of the individual Marine.
    Protection of the victims of sexual assault, even while cases make 
their way through the legal system, is an immediate and enduring 
requirement which we take very seriously. Regarding response to sexual 
assault, we professionalized our victim advocate community by revising 
our advocacy training and implementing credentialing requirements for 
SAPR personnel. Additionally, we have added 47 full-time Sexual Assault 
Response Coordinator and Victim Advocate billets for fiscal year 2013. 
We have completely reorganized our legal community to improve our 
ability to successfully prosecute these complex cases after they have 
been investigated. The centerpiece of this new model is the Regional 
Complex Trial Team, which ensures we have the right prosecutor on the 
right case. Our complex trial teams are staffed with experienced 
military prosecutors and augmented by civilian--Highly Qualified 
Experts--giving us a wealth of experience to prosecute complex sexual 
assault cases. These teams will not only be able to prosecute ``special 
victims'' type cases, but all types of complex cases.
    This effort complements our Campaign Plan's central Phase II 
initiative: the establishment of Sexual Assault Response Teams (SARTs). 
SARTs will be established regionally to prevent a fragmented approach 
to victim care. This requires continued collaboration with various 
entities, such as the U.S. Navy Bureau of Medicine and Surgery and 
Naval Criminal Investigative Service (NCIS), adding to the enhanced 
training and surge capability that NCIS has already implemented to 
expedite assault investigations.
    Perhaps counter-intuitively, one potential manifestation of our 
intensified institutional response will likely be an increase in 
unrestricted reported cases. If this represents an increase in the 
bonds of trust between our junior Marines and their chain of command, I 
will consider that a successful step on the path to eliminating this 
issue in the Marine Corps. Eliminating sexual assault in our ranks is 
our ultimate goal, and I will stay personally and actively engaged in 
leading this campaign.
Suicide Prevention
    During 2012, the Marine Corps experienced a rise in suicides and 
suicide attempts after 2 encouraging years of declining numbers. During 
calendar years 2010 and 2011, 37 and 32 Marines, respectively, died by 
suicide. For calendar year 2012, the number of suicides increased to 
48. We remain committed to preventing this great tragedy. Suicide is an 
issue that belies simple or quick solutions; it is an important issue 
that demands our continual attention. We have learned that the most 
effective methodology for us to prevent suicides is vigilant and 
persistently engaged leadership at every level. Proactive leaders are 
alert to those at risk for suicide and take action to help Marines 
optimize their physical, psychological, social, and spiritual aspects 
of their lives. To counter suicide, affirming and restoring the 
indomitable spirit of Marines is an enduring mission.
    Our primary challenge remains teaching Marines to engage our many 
services early, before problems worsen to the point where they 
contemplate or attempt suicide. Last year we signed the first formal 
policy and procedural guidance for the Marine Corps Suicide Prevention 
Program. ``Never Leave a Marine Behind'' suicide prevention training 
focuses on how Marines can help one another, and how they can seek help 
early before a situation becomes a crisis. In 2012, we also expanded 
our successful--DSTRESS--Line worldwide, which provides anonymous 24/7 
counseling services to any Marine, Sailor, or family member. 
Additionally, we have trained and implemented Suicide Prevention 
Program Officers for every battalion and squadron. We will continue 
focusing our efforts on preserving the health of our greatest and most 
cherished resource, our Marines, Sailors, and their families.
Civilian Marine Workforce
    Civilian Marines exemplify our core values. They embrace esprit de 
corps, teamwork, and pride in belonging to our Nation's Corps of 
Marines. The 95 percent of our civilian workforce that is employed 
outside the Headquarters element in the Pentagon, are located at our 
installations, bases, and stations; they are the guards at our gates, 
the clerks who pay our bills, the therapists who treat our wounded, the 
experts who repair our equipment, our information technology support, 
and the teachers who instruct our children. Sixty-eight percent of our 
civilian Marines are veterans who have chosen to continue to serve our 
Nation. Of those, a full 13 percent have a certified disability. Still, 
our civilian workforce is very small in comparison with similar 
organizations. The Marine Corps maintains a very frugal ratio of one 
civilian to every 10 active duty Marines. Our civilian nonappropriated 
funded workforce continues to steadfastly provide vital support to our 
Marines, reserve Marines, their families, and our wounded, ill, and 
injured. Since 2009, the Marine Corps has taken proactive measures to 
prioritize civilian requirements and realign resources to retain an 
affordable and efficient workforce directly linked to our mission. In 
our effort to restrain growth, we implemented a hiring freeze from 
December 2010 through December 2011 to achieve our appropriated funded 
civilian end strength commensurate with a goal of 17,501. We started 
into this era of budgetary uncertainty not fully recovered from the 
hiring freeze and we have no chance of recovering in fiscal year 2013. 
In pursuit of the leanest possible institution, the Marine Corps' 2013 
budget restrains growth in our civilian Marine workforce; our 2014 and 
beyond budget plans are based on a stabilized workforce. Further 
civilian reductions will severely jeopardize our ability to meet 
mission requirements.
Women in Service Restriction Review
    The Marine Corps continues its efforts to review the laws, 
policies, and regulations that restrict the service of female Marines. 
As our policies evolve, we must ensure the effectiveness of our combat 
units, the long-term physical well-being of all of our Marines, and the 
broadest possible career opportunities for all. To that end, I 
initiated a measured, deliberate, and responsible research effort to 
provide the meaningful data necessary to make fact-based 
recommendations to the senior leadership of the Department of Defense 
and Congress. Our research efforts will continue as we implement the 
January 24, 2013 Secretary of Defense decision to rescind the 1994 
Direct Ground Combat Definition and Assignment Rule. Additionally, in 
order for us to collect performance data in our most demanding and 
rigorous ground combat skills training environment, female graduates of 
our Basic Officer Course at The Basic School are afforded the 
opportunity to volunteer to attend our Infantry Officers Course. That 
effort is ongoing and will continue into 2016 as we collect the 
necessary data.
    During this past year, we requested and received approval for an 
exception to the 1994 Ground Combat Exclusion Rule. Under this 
Exception to Policy (ETP), the Marine Corps opened 371 Marine and 60 
Navy positions in combat arms units previously closed to females. These 
19 previously closed operational units include artillery, tanks, 
assault amphibians, combat engineers, and low altitude air defense 
communities. The assessments and feedback from these units to date has 
been encouraging.
    Following SECDEF's required notification to Congress later this 
spring, we intend to further expand the ETP beyond these original 19 
battalions to include opening Military Occupational Specialties (MOSs) 
within Air-Naval Gunfire Liaison Company units and the 0203 Ground 
Intelligence Officer MOS. During 2013, ETP participants and Commanders 
will continue to provide assessments which will afford our leadership 
the opportunity to address issues such as optimum cohort size, 
mentorship, and career development. Currently, 90 percent of our 
military occupational specialties are open to females.
    Additionally this year, the Marine Corps will continue our 
measured, deliberate, and responsible research effort by completing our 
review and validation of standards for those MOSs with the greatest 
physical demands. Once complete, our goal is to correlate and norm 
these proposed physical standards with our already established Physical 
Fitness Test (PFT)/Combat Fitness Test (CFT). The goal is to develop a 
safe, predictive mechanism to use during the MOS assignment process for 
all Marines, both male and female, to ensure they are assigned where 
they have the greatest likelihood to excel to their fullest potential.
Returning Quality Citizens
    It is vital that we meet the needs of our Marines who transition 
from service. In March 2012, we implemented the new Transition 
Readiness Seminar (TRS) to maximize the transition-readiness of all 
service members. In accordance with the Veterans Opportunity to Work 
(VOW) to Hire Heroes Act, TRS revolutionized our approach to meet the 
individual goals of each Marine as he or she transitions to the next 
phase in their life. The seminar is a week long program which includes 
a mandatory standardized core curriculum and also provides four well-
defined military-civilian pathways: (1) College/Education/University, 
(2) Career/Technical Training, (3) Employment, or (4) Entrepreneurial. 
Each pathway has associated resources and additional tools to better 
prepare our Veteran Marines. An essential feature of the TRS is that it 
allows Marines to choose and receive transition information and 
education in line with each Marine's future goals and objectives.
                                summary
    Even in challenging times, our great Nation remains the world's 
largest economy and an indispensable leader in the global community of 
nations. Our interests span the globe, and our prosperity and security 
are to be found in the protection of a just international order. That 
order is threatened daily by the instabilities of a modernizing world, 
putting our citizens, our interests, and our allies at risk. While we 
seek peace as a nation, the headlines remind us that those who would do 
us harm continue to bring conflict to our doorstep. The Marine Corps 
remains the Nation's ready hedge against unpredictable crises, an 
insurance policy that buys time when hours matter. In special 
partnership with the Navy, and on the ready leading edge of the larger 
Joint force, your Marines provide the capability to respond to today's 
crisis, with today's force . . . TODAY. The American people can rest 
assured that their Marines are poised around the globe, ready to 
respond swiftly when danger, difficulty or disaster strikes.
    I pledge that your Marine Corps will continue to work with Congress 
and the Department to provide the Nation's ready expeditionary force 
with economy, frugality, and good stewardship. Through Congress, the 
American people entrust us with their most-precious capital: their 
sons, their daughters, and their hard-earned resources. With your 
continued support, we will carefully invest this capital to provide 
young Marines with the ethos, training, and equipment that have made 
them successful for over two centuries. We will uphold high standards 
of training, leadership and discipline. We will keep faith with our 
Wounded Warriors. We will care for our families. Most importantly, we 
will ensure that your Marines are ready when the Nation needs us the 
most. We will do this all with dignity, humility, and a keen 
sensitivity to the sacred trust the American people have placed in us. 
Thank-you for your continued faith in us. We remain . . . Semper 
Fidelis.

                        MARINE CORPS DEPLOYMENTS

    Senator Durbin [presiding]. Thank you very much.
    I might remind my colleagues that we have a 12 o'clock 
vote. I am going to try to give everyone a chance to ask 
questions before we have to leave for that vote. I will ask the 
following question: General Amos, we were advised this morning 
that the Marine Corps has just received approval to deploy a 
task force to Moron Air Base in Spain. They started moving 
aircraft and personnel this past weekend. There was an article 
that was published in February, but at the time, the location 
and makeup of the force had not been released. The purpose of 
the deployment I understand is to help U.S.-Africa command more 
rapidly respond to events in North Africa. I would like to ask 
you this question: What precipitated this decision, and what do 
you anticipate the marines will be called on to do in this new 
assignment?
    General Amos. Chairman, thanks for the opportunity to talk 
about it. Yesterday morning, six MV-22 Ospreys left New River 
to stage in Maine on their way across the Atlantic. They will 
be followed by--the force will be comprised of about 550 
marines and sailors, and they will predominantly be based, to 
begin with, out of Moron, Spain.
    Their job is to provide a crisis response capability for 
the combatant commander. General Ham, when he was the combatant 
commander, and I talked about it. You take a look at the forces 
that would be available in the Africa theater, and with the 
exception of just a few special operations forces (SOF) and, of 
course, marines at embassies and security forces, there are 
very few others that he has available to respond to a crisis.
    So this is an opportunity now to provide that crisis 
response force. It will have a marine infantry company 
reinforced. It will have signals intelligence, cyber 
capabilities, and logistics. And they will be able to respond 
to both--he and to the combatant commander, EUCOM, as they see 
fit.
    Senator Durbin. It is my understanding that current 
deployment to Sigonella in Italy has resulted in the frequent 
deployment of 15- to 20-man teams to advise, assist, and train 
friendly militaries in Africa. The most recent iteration 
deployed from Camp Lejeune was about 130. The numbers you have 
given us sound at least comparable, if not substantially more, 
than Sigonella. What will be the difference in the types of 
assignments that this new unit might face?
    General Amos. Chairman, the Sigonella detachment, which we 
stood up almost a year ago now, is predominantly for training, 
advising, and assisting, giving General Ham then, now General 
Rodriguez, the ability to actually do in small teams, train 
with his African partners.
    This response team that I just described, the crisis 
response force, it can do training, but it also if something 
happens, you now have an asset that you can move very quickly, 
along with the C-130 tankers and the V-22s. You can move it 
very quickly in the Africa continent to respond to a crisis.
    Senator Durbin. So have you been given any indication of at 
least the area of potential deployment?
    General Amos. Sir, I do not right now. When I talked to 
General Ham to begin with, I told him, I said, ``You can--we 
will provide this force. You can put it on the African 
continent anywhere that you have--the State Department makes 
arrangements.'' Right now, they are temporarily going to Moron, 
Spain as a placeholder. But, sir, I cannot tell you where they 
are going to go. I think they are going to move some time, and 
I would not surprise me to find them moving around the Africa 
continent.

                       F-35 JOINT STRIKE FIGHTER

    Senator Durbin. Thank you very much. I just have a minute 
and a half remaining. The question I am about to ask is going 
to be the subject of a later hearing, but I would like to at 
least get a response from Admiral Greenert or Secretary Mabus 
about the current status of the Joint Strike Fighter program as 
it relates to your branch of the service.
    Admiral, this has been going on for 12 years. Some $9 
billion has been spent. It is my understanding the average cost 
of the aircraft, even discounted in volume, is going to be 50 
percent more than anticipated. I am also told that as of this 
point, only 43 percent of the program has been flight tested 
some 12 years after it was initiated.
    Can you tell me your feeling about the status of this 
program and whether or not it is going to provide the aircraft 
that the Navy needs at a sustainable cost?
    Admiral Greenert. Well, we are--the Navy is looking at the 
C version, the carrier version. It is the third of the three. 
So the tests are more in the beginning stages for that class.
    So far I am satisfied with those tests, but most of them 
are aeronautics and the airplane itself; that is, the frame and 
the engines. Satisfactory so far. But for me, we still need to 
get the tail hook to work right. That is on a track. And for 
me, we have to be able to have software that can employ all the 
weapons that the Hornet, our Super Hornet, plays because this 
aircraft has to integrate into the air wing at sea. I cannot 
just have it as an adjunct.
    And so what we need is a tail hook, the helmet to get done, 
the software to get done, and test it properly so that it can 
employ all the weapons so that at that time, right around 2017, 
2018, it can embed into the air wing.
    Right now, I am optimistic, but we will see.
    Senator Durbin. I am not going to dwell on this. There are 
plenty of questions I could ask both General Amos, Secretary 
Mabus, and yourself to follow up. There will be a separate 
hearing on this Joint Strike Fighter. I think it is important 
that we at this level, at the Appropriations Committee, ask 
some of these important questions about this critical program.
    I am trying to now to take a look at the order of 
precedence and recognition here, and it is my understanding 
that Senator Shelby, the ranking Republican on the Senate 
Appropriations Committee, is next.
    Senator Shelby. Well, you are kind. Thank you.
    Senator Durbin. We have a lot of rank issues here, which we 
have to resolve.
    Senator Shelby. Thank you, Mr. Secretary. Mr. Secretary, 
the Navy's joint high speed vessel, as you are familiar with, I 
think is a valuable addition to the Navy. You have said that 
here before. It has an expansive mission bay of some 20,000 
square feet, which enables a ship to move 600 tons of cargo at 
over 35 knots, while carrying over 300 combat ready troops.
    Given the speed--given the ship's speed, cargo capability, 
and ability to maneuver in the shallow waters, would it not be 
prudent for the Navy to look at expanding the joint high speed 
vessel mission beyond theater transport, or what do you have in 
mind?

                        JOINT HIGH SPEED VESSEL

    Secretary Mabus. And as the Commandant said, thank you for 
the opportunity to talk about this vessel that we are so proud 
of. It is one of our most flexible platforms. It does the 
things that you described, and we have already begun to expand 
its role into theater cooperation.
    I visited the first joint high speed vessel, the research 
vessel, the Swift, off the coast of Africa when it was doing 
African partnership station. And I also saw the same ship off 
the coast of Panama when it was doing partnership related 
activities with our Central American partners and allies.
    And so from everything from transporting marines, soldiers, 
and their equipment for either combat or training or lift 
throughout the vast distances of the Pacific, for example, to 
doing partnership engagements, to other missions that as we get 
these ships into the fleet, see their capabilities, we can 
expand. But we are very happy with this ship and with this 
program.
    Senator Shelby. You like what you see, do you not?
    Secretary Mabus. We do.
    Admiral Greenert. Senator, may I make a comment? I have 
just assigned a three-star panel to do exactly what you said, 
to expand the concept of the operation working with the Marine 
Corps to find out what we can do. This, in my view, is a vessel 
with a lot of potential.
    Senator Shelby. The 300 combat, you are generally speaking 
of marines, are you not?
    Admiral Greenert. Generally speaking, yes, sir, and more.

                          LITTORAL COMBAT SHIP

    Senator Shelby. Admiral, I have one quick question for you. 
It is my understanding that the littoral combat ships (LCSs) 4 
through 8 have experienced some schedule delays beyond their 
originally scheduled delivery date. Could you provide 
clarification to the committee on the revised delivery schedule 
for these ships, and do you believe that the delay in delivery 
of these ships represents anything out of the ordinary for that 
of a second ship of a new ship class? In other words, are you 
satisfied that the current delivery schedule will meet the 
needs of the Navy, I think is the bottom line.
    Admiral Greenert. Bottom line is, Senator, I believe that 
the current delivery schedule will meet the needs of the Navy. 
I will provide for the record the exact delivery.
    Senator Shelby. Okay.
    Admiral Greenert. But these were mostly scheduling. It was 
mostly just some hitches that you get here and there when you 
get a new class of ship. Mr. Stackley and I are very 
comfortable with the schedule they are on now.
    Senator Shelby. Secretary Mabus, when the authorized dual 
buy acquisition strategy that you are very familiar with comes 
to a conclusion in 2015, what factors will the Navy consider 
when determining how to proceed with procuring additional 
littoral combat ships? Some of the criteria.
    Secretary Mabus. Senator, one of the things that the Chief 
of Naval Operations (CNO) has done is set up another panel on 
LCS to come up with the way it should be used, the concept of 
operations, lessons learned. We just deployed Freedom (LCS-1) 
to Singapore. It got there this week for an 8-month deployment. 
We are planning to put four in Singapore. And it is our plan 
today to buy 52 of these incredibly capable vessels.
    And as we see the operational qualities and capabilities of 
both variants, and how it fits into the existing fleet, and how 
it fits into our existing deployments, we will be making those 
decisions. But right now, from everything we have seen, both 
versions are performing very well.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Durbin. Senator Murray.
    Senator Murray. Thank you very much to all of you for being 
here and your testimony. I want to thank you all for 
specifically addressing sexual assault in your written remarks 
and testimony, and I am encouraged by some of the efforts that 
are being taken on these incredibly important issues.

                   SEXUAL ASSAULT PREVENTION PROGRAMS

    I understand that Secretary Hagel released a new Department 
of Defense Instruction on Sexual Assault Prevention and 
Response Program Procedures on March 28. Secretary, let me 
start with you. How did those efforts that you took within your 
service inform the development of that instruction in 
particular?
    Secretary Mabus. Thank you, Senator. The office, our Sexual 
Assault Prevention Office unique in the Pentagon, reports 
directly to me. I put it in the Secretariat because I think 
this is such a crucial issue facing our force. That office 
worked very closely with the DOD-wide effort to come up with 
best practices, to come up with some of the lessons that we are 
learning and beginning to learn, but also to highlight perhaps 
some of the differences that services face because of our 
different circumstances and the different ways we deploy and we 
are employed.
    I will give you one very quick example. We, after a very 
close look, found that we had few problems at boot camp, but 
our problems began at A-school where all our enlisted sailors 
go immediately after boot camp. And so our focus--part of our 
focus has been on correcting the problems at that school, which 
perhaps may be unique to the Navy.
    The other thing that we deploy at sea on myriad different 
kinds of ships and types of ships and making sure that we can 
get the--number one, the instructions to the entire fleet, the 
training to the entire fleet, but also sexual assault response 
coordinators, Naval Criminal Investigative Service (NCIS) 
investigators, to the sites where these things may be needed.
    And if I could be permitted, just one other thing. I have 
been asked if I am concerned about sexual assault, and my reply 
has been that is not an accurate description, and I do not 
think it applies to either General Amos or Admiral Greenert. I 
am angry about it. This is an attack on our sailors and 
marines, and it is an attack from the inside. And it is 
something we simply have to fix.
    If somebody was walking around taking shots at random at 
our sailors and marines, we would fix it. And this is no less 
of an attack on the integrity and the structure of our force.
    Senator Murray. I appreciate that response.
    General Amos, let me ask you. In your testimony, you 
described a number of good steps you have taken to combat 
military sexual assault in the Marine Corps, and talked about 
how sexual assault is entirely incompatible with the culture of 
the Marine Corps. But I am just concerned by a recent USA Today 
article that talked about the results of the survey. And 
according to the report, of all the services, the Marine Corps 
has the highest percentage of female servicemembers reporting 
they were sexually assaulted. Do you have any thoughts on why 
that might be?
    General Amos. Senator, thanks, and I thought you would 
bring that up. If you were not, I was going to because I 
thought the article, while well written, the historical data in 
there is shameful. It is shameful for the Marine Corps, not for 
USA Today. But it is historical data. When I saw that article, 
I went back and I sat with my team that has been after this now 
for--since probably about last May. And we have a major 
campaign plan under way to change the culture of the Marine 
Corps.
    The data that was collected to accommodate that survey, 
while shameful, it is historical data. It was taken 10 months 
before the implementation of what we are doing right now. It 
begins with me. It begins with the Sergeant Major of the Marine 
Corps.
    And, Senator, I want you to know we are committed to 
changing the culture. Everything I put in my posture statements 
are things that we are doing. I went back yesterday and I just 
said, ``Okay, help me understand why this is--what is the 
reality versus what might have appeared in the paper?'' And if 
you would not mind, I would like to just read a couple of 
things to you as a result of the survey.
    The survey was conducted at the height of what we call 
phase one, which is the strike phase, the thing to change our 
culture from the top to the bottom. So it covers the period 
that was 10 months before we even began these latest efforts.
    Confirmed our reports that 97 percent of all marine members 
indicated that they received training within the last 12 
months. I mean, high quality staffer training in the last 12 
months, 97 percent. It indicates that 93 percent of the females 
and 88 percent of the male marines would actively intervene in 
the situation where they saw or observed a sexual assault 
taking place. I mean, that is significant. That is the 
bystander training intervention that Secretary Mabus was 
talking about, and that is key to turning around sexual 
assault. You cannot just turn your back to your brother or your 
sister. You have to intervene to do something about it.
    It shows that Marine Corps women are more likely than other 
service women to indicate awareness of victim advocates present 
on their installation and to do something about it. It 
indicates that Marine Corps women are more likely than other 
service women to indicate that, one, they were offered chaplain 
services, medical forensic services, satisfied with the 
quality--this is important to me--of sexual assault advocacy 
services, satisfied with the quality of counseling.
    Some of the things that also came out as a result of this 
is what we have done to reorganize the actual legal aspect----
    Senator Murray. My time has expired, and I want to 
recognize that. I appreciate your looking back at the 
historical data, but I think it is just imminent upon all of us 
to really take this seriously. And I appreciate your doing it, 
and we are going to stay on top of that.
    And my time unfortunately is out. And, General, if I can 
talk with you again on this in the future, I would appreciate 
it.
    General Amos. Senator, I will come by and pay an office 
call with you.

                      ASIA-PACIFIC FOCUS OF FORCES

    Senator Durbin. Thank you.
    Senator Cochran.
    Senator Cochran. Let me ask, I suppose, the Secretary and 
then the others of the panel can respond to this, too.
    Our posture in the Asia-Pacific is obviously increasing, 
and this is a focus of some importance in our military force 
generally, but particularly for the Navy and Marine Corps. More 
and more ships are being deployed to the area. More attention 
is being paid to Asia--the Asia-Pacific region.
    Is this giving anybody cause for concern, or do we also at 
the same time have an initiative under way to try to be 
sensitive to countries like China specifically, who may be 
having thoughts that we are doing this in a provocative way? 
What is the situation with that; is there an overview comment 
that can be made?
    Secretary Mabus. You described what we are doing very well, 
Senator, in terms of moving assets into the Pacific, in terms 
of moving both ships, sailors, and marines into that area. We 
have been very transparent about doing this, and we have been 
very transparent about the reasons for doing this. America is a 
Pacific power. America and our economic well-being depends in 
large measure on free access, free commerce, free trade in the 
Pacific.
    Now I would argue that the U.S. Navy, of which you were a 
proud part a few decades ago along with me, has never left the 
Pacific, and we have been a stabilizing force in the Pacific 
for scores of years. This is not aimed at any one country. This 
is not aimed at any particular event. What this is aimed at is 
the recognition of the importance of the Western Pacific, of 
the importance of our alliance there, of the importance of 
making sure that we have the--an adequate presence to keep 
those open sea lanes, to keep those--that freedom of trade, to 
keep the global economies free and moving as we have done for 
so many years now.
    Senator Cochran. Thank you, Mr. Chairman.

                         SEQUESTRATION IMPACTS

    Senator Durbin. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
have three quick questions.
    Admiral Greenert, in reading your written remarks, page 4 
and 5, you say that sequestration in fiscal year 2013 is 8 
percent, about $6.1 billion total. And then if the caps are not 
revised, the 2014 number would be $10 to $14 billion, which 
over 2 years could add up to $20 billion.
    What kind of a blow would that be? I think, you know, we 
have to look at this now as a continuing thing and what it is 
going to do to us. It is fine for 1 year, but you add year 2, 
year 3, year 4, and it is a real problem. So in 2 years if this 
continues, what impact would it have on the United States Navy?
    Admiral Greenert. Senator, my concern, particularly in that 
regard is that when you look at what we were able to do in 2013 
in the investment account, $6 billion, we lost some units; that 
is, units of purchase, some aircraft. We were able to retain 
most of the ships we were building by taking a part of that 
budget, that 6 to 8 percent, that you would use to build a 
ship, and it is called ``the cost to complete.'' That is your 
documents. That is your training. That is your ancillary 
equipment. And we deferred that to when the ship would be 
complete so that we did not lose the ship in that year.
    I have taken that shot. So now when I get into the next 
year and I have that kind of billions of dollars, I am very 
concerned being able to sustain the shipbuilding account and 
the aircraft account.
    We are very tightly wound in those two accounts and the 
industrial base. Senator, the bottom line is, my concern is the 
industrial base, that somewhere along the line I am building 
not enough ships or not enough aircraft to sustain the 
competitive industrial base, not just the big primes, but the 
secondary and tertiary people and industries that provide 
components.

                         MARINE SECURITY GUARDS

    Senator Feinstein. Thank you. Do you mind if I just take a 
minute more?
    General Amos, the last time we talked, you were going to 
send 1,000 marines to various posts, diplomatic posts. Has that 
begun, and what is the result?
    General Amos. Senator, it has been approved via the 
National Defense Authorization Act (NDAA), as you are aware, we 
have three embassies right now that the State Department has 
approved to try to stand up a marine security guard detachment 
there between now and June. There are five more between now and 
the end of the fiscal year.
    We are in concert with the State Department. We are working 
with them because, as you know, they have to provide the 
facilities for the marines to go to. So we are on track for 
that right now. It will be a gradual growth of that thousand, 
and we are excited about it.

                    JOHNSON VALLEY LAND ACQUISITION

    Senator Feinstein. Good. Thank you very much.
    Secretary Mabus, in 2009, and this is a big California 
problem right now, I met with Major General Eugene Payne, then 
the Assistant Deputy Commandant for Installations and 
Logistics, and Major General Melvin Spiese, then Commanding 
General of Training and Education, to try to find a compromise 
between the Navy and off road recreation enthusiasts regarding 
the expansion of Marine Corps Air Ground Combat Center at 
Twentynine Palms.
    We have the largest off-road vehicle area--I did not 
realize this--with hundreds of thousands of people using it in 
a place called Johnson Valley. To make a long story short, we 
got a solution in the following ways: Certain lands were 
reserved for off-highway vehicle (OHV) recreation managed by 
the Bureau of Land Management (BLM), lands were transferred to 
the Navy to become part of the Twentynine Palms Base, and lands 
to be jointly used by both marines and for OHV recreation. This 
arrangement was called Alternative Six in the Navy's 
Environmental Impact Statement for Base Expansion and Joint 
Use.
    The Navy ultimately selected this option as their preferred 
alternative and issued a record of decision on February 11, 
2013. Last week, legislation was introduced in the House by 
Representative Paul Cook, which proposed a new strategy for 
this marine training at Twentynine Palms. The bill would not 
transfer any Johnson Valley land to the Navy for base 
expansion, but instead require the Secretary of the Interior to 
authorize military use of the area twice a year for sustained 
combined arms live fire training.
    What is the Marine Corps view of this particular 
legislation, and will it eviscerate the agreement that we came 
to in 2009?
    Secretary Mabus. Senator, you laid out very accurately how 
much work went into that agreement and the compromises reached. 
And as you pointed out, the Navy--the Department of the Navy 
working with the Marine Corps made that its record of decision, 
and that is the position that we stand by.
    Senator Feinstein. So you will stand by it with respect to 
the House bill.
    Secretary Mabus. Senator, I am not familiar with the House 
bill.
    Senator Feinstein. Okay. I think it will become familiar.
    Secretary Mabus. But I am very familiar with what we have 
done.
    Senator Feinstein. Right, okay. But you are still 
supportive of that, and that is what I wanted to know. So thank 
you very much.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, General, thank you for being here 
today. I very much appreciate your service and have enjoyed 
working with all of you.
    Secretary Mabus, last year you testified before us that the 
Navy would certainly like to take advantage of the opportunity 
to use competitive multiyear procurements in order to procure 
more ships and achieve savings to the taxpayers. And as you are 
well aware, Congress has been very eager to work with you in 
that regard. We authorized these competitive multiyear 
contracts and authorized the Navy to procure up to 10 
destroyers in last year's authorization act, and provided an 
additional billion dollars for that purpose.
    We risk throwing away significant savings on the order of 
hundreds of millions of dollars as well as undermining the 
stability of the industrial base that we have worked so hard 
together to preserve if we do not take advantage of this 
opportunity. It is my understanding that the Navy would need to 
notify Congress in the next 2 weeks in order to sign the 
contracts before the current bids from the shipbuilders expire 
because they were submitted some 10 months ago.
    What is the status of the multiyear procurement contract 
for the DDG-51? And if this is something the admiral should 
comment on, whichever one of you should comment.

                           DDG-51 PROCUREMENT

    Secretary Mabus. I will take the first view and ask Admiral 
Greenert to come in with more details. But we have been, as you 
pointed out, we get a big savings from this multiyear. And 
thanks to particularly this committee authorizing an additional 
DDG-51 up to 10 ships in the next 5 years, 5-year multiyear, we 
will see significant savings. And the--putting a third DDG in 
fiscal year 2012--fiscal year 2013 to be--which will make 10 
over this 10-year period.
    We have been working very closely with the two shipyards 
involved to make sure in terms of their bids expiring, in terms 
of locking in these savings. And frankly, the culprit here is 
sequestration because you provided the correct amount of money 
in the appropriations bill for 2013 to accomplish this. 
Sequestration then took its percentage out of the amount of 
money that you provided.
    So that is what we have been working on internally and with 
this committee, with the shipbuilders, to make sure that we 
have those funds to do that. But we are very cognizant of that, 
and Secretary Stackley has been working with--both CNO and I 
have both been very involved in this because of the importance 
of it and because of the amount of money that we can save and 
get more ships for the Navy.
    Senator Collins. It really is a win-win for the Navy and 
for the taxpayers as well.
    On Monday, the Navy delivered a 118-page report on the 
investment plan for the modernization of naval shipyards. I 
know that others need to question, and my time is going to 
expire, so I am going to put a question into the record on that 
report with the chairman's permission.
    But I want to thank you for the comprehensive nature of the 
report and for accelerating a project that is important in 
consolidating some of the workshops at the Portsmouth Naval 
Shipyard in Kittery. That is going to help the yard be even 
more efficient.
    And I think it is important that the Navy validated 
concerns that a lot of us had that the GAO had identified about 
the huge backlog at our four public shipyards. So I look 
forward to continuing to work with you on that. And I will 
submit my other questions for the record in the hopes of giving 
my colleagues more time.
    Thank you.
    Senator Durbin. Thanks, Senator Collins. Of course, that 
will be included in the record.

                  VIRGINIA-CLASS SUBMARINE PROCUREMENT

    Senator Durbin. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentleman, thank you for your distinguished service to the 
Navy, and to the Marine Corps, and to the Nation.
    One of the most successful shipbuilding programs is the 
Virginia-class submarine in terms of cost, and on time 
delivery, and many other dimensions. And, Mr. Secretary or the 
CNO, I understand that you are ready to award the Block IV 
contract. Do you have a sense of timing when that might take 
place?
    Admiral Greenert. I will take that for the record and get 
back to you, sir.
    Senator Reed. Thank you very much.
    Admiral Greenert. It is coming along very well, but I will 
get you the details.
    [The information follows:]

    Contract award is expected in October 2013.

    Senator Reed. Do you have also a notion of the size of the 
block? There has been some discussion of 10 ships or----
    Admiral Greenert. Ten.
    Senator Reed. Ten, very good. Thank you. And as you know 
from Senator Collins' comments, we have been able to structure 
this as a multiyear procurement. We have two boats in this 
budget. And it helps in terms of efficiency, and I think, 
again, it is one of those programs that is very cost-effective 
and very necessary.
    Secretary Mabus. If I could just add----
    Senator Reed. Absolutely, Mr. Secretary.
    Secretary Mabus [continuing]. It is one of our very best 
programs. These boats are coming in ahead of schedule in the 
case of the----
    Senator Reed. Mississippi.
    Secretary Mabus [continuing]. Incredibly well-named USS 
Mississippi.
    It came in probably a year ahead of schedule and right on 
budget.

                OHIO-CLASS SUBMARINE REPLACEMENT PROGRAM

    Senator Reed. That is a tribute to Senator Cochran and the 
Secretary of the Navy just coincidentally. But it is very aptly 
named.
    Let me just shift to another program which is critical to 
our national security, and that is the Ohio-class replacement. 
And, in fact, given its recognized ability to avoid detection, 
its invulnerability, it becomes more and more critical to the 
triad. And I wonder, Mr. Secretary or the CNO, if you can 
comment on its growing importance in terms of the need for it 
at sea.
    Secretary Mabus. Well, that need has been amply documented, 
justified. We are on track with all the research and 
development (R&D) and early development work to begin 
construction in 2021 for the first boat to put to sea in 2029, 
which would be exactly on schedule. We are also working very 
closely with our partners, the British, on the common missile 
compartment since they are buying for their successor class the 
same missile compartment using the same missiles.
    But one word of caution: We are on track today. It is a 
large program. It is an expensive program. Actually two words 
of caution: One is sequestration holds the potential to upset 
this timeline in a fairly dramatic way; and second, as we get 
closer to time, there will have to be, as I believe Deputy 
Secretary of Defense Carter said in his transmittal of the 
shipbuilding report last year, a discussion in terms of the 
Ohio-class replacement and the rest of our shipbuilding 
programs in terms of how we finance this, because for a period 
of time they are building these Ohio-class replacements. As I 
said, a very expensive, incredibly important program. But we 
need to keep the rest of our shipbuilding base intact.
    Senator Reed. If I can follow up, Admiral Greenert: Is 
there a possibility that if we slip this, that it will reach a 
point at which we cannot have as many ballistic missile 
submarines at sea as we need for deterrence and for strategic 
posture?
    Admiral Greenert. That is feasible, but unacceptable, I 
would say, Senator. Yes, so we cannot slip it. And the 
Secretary had it right. People ask me what is my number one 
program of concern, and I would tell you it is the Ohio 
replacement program. I look at that more than any other one.
    Senator Reed. Well, thank you, Admiral. Just one point is 
that this is, I would say, the most survivable leg of the 
triad. And it is not just the Navy's program. It is a national 
program. And I wonder if there is any consideration of 
supporting the Navy's efforts with funds that are more 
generically defense rather than more specifically Navy.
    Secretary Mabus. I think that was the conversation I was 
referring to that we had.
    Senator Reed. Oh, I thank you very much. I wanted to make 
sure that was clear.
    One final point. My time has expired. But, General Amos, 
thank you for your great marines and what they do. And I know 
you have got money in for Bold Alligator. It is important to 
let these marines test their skills before they are called upon 
to do it against hostile fires. And so I thank you.
    Senator Durbin. Senator Coats. We are on the roll call.
    Senator Coats. Thank you, Mr. Chairman. I am conscious of 
the fact that we have to leave shortly, so I will be as brief 
as I possibly can. But I know that if you are not there before 
me, the majority leader will hold it open. I am not so sure 
that that applies to the other--works the other way around.
    Sequester has been brought up numerous times here, and I 
would just throw my two cents worth in here. I was happy to be 
part of the group that gave you the flexibility you needed. My 
thought on all of this is that this is not the best way to 
address our spending problems. We need to replace sequester 
with a long-term plan that puts us on the right direction 
toward fiscal health.
    In that regard, clearly the ability, at least on the 
spending side, to separate the essential functions from the 
like to do but cannot afford to do right now, from the--you 
know--maybe that has run its course and we do not need to do it 
anymore from the why did that get in there in the first place. 
That flexibility absolutely has to be part of what I think a 
long-term plan that replaces sequester is. I am glad you had 
the flexibility, but we need to provide that in the long-term 
plan.
    And then unless we recognize that entitlement reform is 
eating up the discretionary, everything this committee has to 
deal with here. Getting to the essential functions and 
providing for the common defense is the highest, in my view, 
the highest essential function that this country has to address 
and that the Congress has to address. So I want to be part of 
doing that and making that the top priority because it affects 
America's security. And then if we could throw in tax reform 
with that, we might have something.
    But let me just say, Admiral Greenert, in 2012, in an 
article in Proceedings, you said, ``Future conflicts will be 
won in the arena of electromagnetic spectrum and cyber space. 
We must merge then master those realms.'' Now, first of all, I 
want to thank you for your visit to Crane where we do a lot of 
this stuff, and I know it is not necessarily in the highest 
profile of the Navy because it is not on the coast. But you met 
some of the 3,000 engineers, scientists, and technicians out 
there, and I very much thank you for doing that.
    General Amos, Secretary Mabus has been there also, and it 
would be a great trifecta for us if you would--if I could host 
you on a visit out there. I would ask you to talk to Admiral 
Greenert in terms of the value of that because we do a lot of 
things there for the Marines across the range of functions, and 
it would be a great honor for you if, say, on a trip somewhere 
you could make a stop at that point.
    So, but, Admiral Greenert, just in the interest of time, if 
you could just comment a little bit about this article and this 
future warfare preparation that we need to address, and give me 
your thoughts on that for the record.
    Admiral Greenert. Well, what I have found is a lot of 
potential adversaries and really a lot of technology today is 
in the electromagnetic spectrum. And what I mean is people 
detecting what we emit in that entire spectrum.
    We are using it for everything today: Wi-Fi, cell phones, 
you name it. So what do we--how do we--what do we know about 
it? What do we know? Our ships and airplanes and all of our 
units, what is our electromagnetic spectrum signature we did 
not know?
    So, number one, we have got to get our electromagnetic 
hygiene right. How much energy are we putting out and what 
frequency, because in the cold war we called that emission 
control, and we need to get back to that. Number two, then we 
have got to look at our radar, sonars, and all of those things, 
why we are using the frequency we use, and then reduce the 
number of antenna we have and make them more flexible and then 
frequency hop so we can control our own. Then number three, our 
detection. How do we use it? That is, the things that we use to 
detect electromagnetic, things in the electromagnetic spectrum. 
And then lastly, let us know it, use it, understand it, control 
it, and then we can take cyber to a whole new level because it 
is another domain that we can enter with our cyber 
capabilities.
    Senator Coats. Thank you. Thanks to the three of you for 
all your years of service. I think it is extraordinary what you 
have provided the Nation, and very much appreciate it.
    Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator Coats.

                     ADDITIONAL COMMITTEE QUESTIONS

    We are on the roll call, which is going to end very 
briefly. I want to thank our witnesses for coming today. The 
dialogue will continue about the fiscal year 2014 budget.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ray Mabus
            Question Submitted by Senator Richard J. Durbin
    Question. The Defense Department (DOD) spent $660 million on 
Tuition Assistance in fiscal year 2012. Servicemembers took almost 
900,000 voluntary education courses across DOD, including more than 
130,000 courses in the Navy and more than 77,000 courses in the Marine 
Corps. We know from an investigation by the Senate HELP Committee that 
half of those funds go to for-profit colleges. The report concluded 
that, ``it is unclear whether the revenues translate into meaningful 
educational benefits for military students.''
    What is the Navy doing to ensure that Sailors and Marines receive a 
quality education and also what is Navy doing to ensure that Tuition 
Assistance has the high standards our servicemembers rely on to perform 
in the military and wherever their career takes them?
    Answer. The Navy and Marine Corps only authorize tuition assistance 
funding to educational institutions accredited by a U.S. Department of 
Education-recognized accrediting organization, as required by 
Department of Defense and Department of the Navy policy.
    The Navy and Marine Corps do not distinguish between non-profit and 
for-profit schools as long as the institution has signed the DOD 
Memorandum of Understanding (MOU), which establishes eligibility 
criteria for institutions that provide education programs through the 
DOD Tuition Assistance program, and meets the U.S. Department of 
Education accreditation standards.
    The Navy and Marine Corps ensure accountability by requiring 
Sailors and Marines to have a Navy College Office or Marine Corps 
Education Services Office approved educational plan before tuition 
assistance funding can be approved and before classes may begin.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Secretary Mabus, you have been clear that the Navy and 
Marine Corps must operate forward and be ready to respond when called 
upon. Would you discuss the consequences of reduced funding on 
readiness this year and what it means for next year? What are you doing 
this year to mitigate the impact and can you describe in more detail 
what the degradation of surge capacity would mean?
    Answer.
                                  navy
    Under sequestration, Navy is focusing readiness efforts on deployed 
and next-to-deploy units to meet the approved fiscal year 2013 Global 
Force Management Allocation Plan (GFMAP) and prepare to meet the fiscal 
year 2014 GFMAP. While this allows us to meet the adjudicated Combatant 
Commander (COCOM) needs, it comes at the cost of surge capacity.
    Navy projects that over two thirds of all Fleet units will not meet 
material and training conditions for deployment by the end of fiscal 
year 2013. Historically, this would be near 50 percent given our tiered 
training and rotational force. Under historical funding levels (base 
plus OCO--overseas contingency operations), it would take most of 
fiscal year 2014 to recover to normal surge force generation capacity. 
Continued sequestration in fiscal year 2014 would exacerbate Navy's 
surge capacity shortfall, delay recovery by further reducing training 
and operations for non-deployed units, and build maintenance backlogs 
requiring years to recover.
    The immediate impacts of the current $4.1 billion fiscal year 2013 
shortfall in Operations and Maintenance, Navy (OMN) funding include a 
reduction in deployments (one fewer carrier in CENTCOM and no further 
SOUTHCOM ship deployments), reduced steaming days and training 
opportunities for non-deployed ships, and reduced flying hours for non-
deployed air wings (resulting in two air wings being at minimum safety 
levels by the end of fiscal year 2013). As the proficiency of non-
deployed crews and air wings degrades, the ability to respond to 
emergent COCOM demands in a timely manner will be reduced. Any need for 
these forces to deploy would require extensive just-in-time training 
and preparations, delaying availability of ready forces to the COCOM.
    The total impact to Navy's surge capacity will depend on the length 
and magnitude of the OMN funding shortfall. As crews train at minimal 
levels for longer periods and maintenance backlogs grow larger, the 
time and costs required to recover increase dramatically.
                              marine corps
    America's ``Force in Readiness'' must maintain a high state of 
readiness at all times to respond to contingencies and commitments 
throughout the globe. Despite the constrained funding resulting from 
sequestration, the passing of H.R. 933 mitigated most of the near-term 
operational impacts in fiscal year 2013. The Marine Corps will meet 
near-term readiness commitments for deployed and next-to-deploy forces 
and continue to rebalance to the Pacific and support the Marine 
Rotational Force Darwin and the Unit Deployment Program.
    While the Marine Corps is capable of meeting all deployment 
requirements for our near-term deployable forces in fiscal year 2013, 
we have mortgaged our long-term infrastructure and the unit readiness 
of our home station units. We cannot continue to sustain these levels 
of reductions in fiscal year 2014 without immediate impact to our 
deployed and next to deploy forces and our non-deployed crisis response 
forces at home.
    Facilities sustainment reductions, that were used to mitigate 
shortfalls in fiscal year 2013, would be unsustainable and would 
degrade home station training and quality of life for Marines and their 
families. The curtailment of training and maintenance would degrade the 
readiness of non-deployed crisis response forces. Over half of Marine 
Corps ground units and one-third of Marine Corps aviation combat units 
would remain below acceptable readiness levels. Sequestration would 
also adversely impact operations and exercises in fiscal year 2014 and 
beyond.
    Sequestration's impacts on the availability of amphibious and 
maritime prepositioning ships are a concern for maintaining the Marine 
Corps' forward amphibious presence. The combat readiness of these ships 
is a foundational requirement for training for and executing 
expeditionary force presence and amphibious force projection 
operations. As such, reduced amphibious ship availability and readiness 
could present a significant challenge to the training and maintenance 
of Naval Expeditionary Forces, thus driving overall readiness levels 
lower. Continued Congressional support for the Navy's shipbuilding and 
surface ship-to-shore connector programs is vital to retain and 
maintain an adequate fleet of modern combat-ready amphibious ships, 
which provide continuous naval expeditionary presence and project power 
across the globe.
                       automated test and retest
    Question. Would the use of Automated Test and Retest (ATRT) 
technology decrease costs associated with testing on naval platforms, 
to include surface ships, submarines and aviation assets?
    Answer. Automated test and analysis technologies, like ATRT by 
Innovative Defense Technologies (IDT), possess the capability to reduce 
time associated with testing and analysis through automation. To date, 
automated test and analysis technologies have provided opportunities 
for cost avoidance and improved testing processes vice cost savings. 
Automated test and analysis technologies provide an opportunity to 
increase the depth and breadth of testing coverage, typically 
unachievable through manual methods, thus improving quality for complex 
computer programs without a budget increase for testing and evaluation.
    Question. Are there instances in which the Department of the Navy 
SBIR policy with respect to ATRT technologies has not been observed? If 
so, what corrective actions were taken?
    Answer. No, the Navy has always adhered to its Small Business 
Innovation Research (SBIR) policy with automated test and analysis 
technologies. The Navy awarded SBIR contracts to IDT in 2006 (Phase I) 
and 2011 (Phase III) for ATRT and has obligated over $50 million 
against those contracts for ATRT SBIR projects within Program Executive 
Offices for Submarines, Integrated Warfare Systems, Carriers, Ships, 
Littoral Combat Ship (LCS) and Command, Control, Communication, 
Computers and Intelligence. The Navy's support of the ATRT SBIR 
directly aided in the maturity of this capability through its broad 
usage across many Navy programs, thus enabling this small business to 
become competitive in the automated testing and analysis marketplace. 
Specifically, IDT was recently selected by Lockheed Martin Mission 
Systems and Training (LM MST) to accomplish the automated testing and 
analysis requirements under the AEGIS Combat System Engineering Agent 
(CSEA) contract.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby
    Question. In its fiscal year 2014 budget, the Navy chose to 
terminate funding for the Reentry Systems Application Program (RSAP). 
RSAP is an important national security program essential to sustaining 
the ballistic missile industrial base and reentry capability of our 
nuclear forces. Without adequate RSAP funding, the ballistic missile 
industrial base will be significantly weakened, and our military will 
lose the benefit of hundreds of technical experts striving to maintain 
and improve missile technology. Why would the Navy eliminate an entire 
program that seems to be so important to our nuclear deterrent?
    Answer. In order to sustain the sea-based strategic deterrent, 
research and development is required to ensure a safe, credible, 
reliable, and effective Submarine Launched Ballistic Missile 
capability. The Reentry Systems Application Program (RSAP) is a 
research and development (R&D) program that successfully contributed to 
the development of the Trident II D5 Life Extension Program (D5LE).
    Due to fiscal constraints and allocation of funds to higher Navy 
funding priorities, such as the Ohio Replacement Program, the Navy did 
not fund RSAP in the fiscal year 2014 budget. The Navy will continue to 
assess the scope and requirements of this program for inclusion in 
future budget submissions based on funding availability and the ability 
of D5LE to serve as the initial payload for the Ohio Replacement 
Program.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. Section 231 of title 10, United States Code, requires the 
Secretary of Defense to provide the Annual Naval Vessel Construction 
Plan providing a detailed construction plan of combatant and support 
vessels for the Navy over the next 30 fiscal years. This document is 
supposed to be delivered with the budget request, but the Congress has 
not yet received this document.
    What is the status of the Annual Naval Vessel Construction Plan?
    Answer. The Department of Defense submitted the Annual Report to 
Congress on the Long-Range Plan for the Construction of Naval Vessels 
for fiscal year 2014 to Congress on May 10, 2013.
    Question. On April 22, 2013, the Navy delivered a 118-page report 
on the Investment Plan for the Modernization of Naval Shipyards. This 
was a report that I and other Senators requested following a 2010 GAO 
report that identified significant shortfalls in shipyard 
infrastructure. I want to thank you for the comprehensive nature of 
this report and for accelerating a project to consolidate some of the 
workshops at Portsmouth Naval Shipyard to the fiscal year 2014 budget. 
This project will make the yard even more efficient than it already is.
    I want to share two findings from your report with the Committee 
because they really sum up the overall report. The first finding is 
that the overall condition of the shipyard infrastructure is worse than 
Navy infrastructure on average. The average naval shipyard facility age 
is 60 years But what amazed me the most is that the average drydock is 
79 years old, and some facilities as old as 198 years old. Overall, 
Naval shipyards have a $3.45 billion facility maintenance backlog, 
which is higher than the overall Navy average. This backlog includes 
$1.18 billion of critical backlogs, which are defined as mission 
essential facilities with a rating of less than 60. I understand that 
the Navy would like to implement an investment plan to eliminate the 
$3.5 billion backlog in 10 years, but the Navy is unable to eliminate 
the backlog for 17 years because of fiscal constraints.
    Would you elaborate on what specific barriers exist delaying the 
backlog for 17 years?
    Answer. The current fiscal environment compounded by competing 
priorities has created barriers to infrastructure investment. The Navy 
recognizes the importance of infrastructure investments to improve 
mission-essential facilities as quickly as possible, especially given 
the critical nature of Naval Shipyard facilities and requirements for 
uninterrupted service for aircraft carrier and submarine depot 
maintenance, and increased the level of investment to address the 
backlog at mission essential facilities. This investment is 
approximately 40 percent higher than the average investment in other 
Navy installations, which is appropriate considering that naval 
shipyard infrastructure is below the Navy average. Ideally, we want to 
accomplish these efforts within a decade; however, due to competing 
requirements for our resources, we plan to accomplish our goals by 
2029.
    Question. Secretary Mabus, in your testimony you describe that the 
forward presence Seapower provides helps to deter or dissuade 
adversaries and demonstrates American resolve and commitments to 
security of sea lanes and regions around the world without a large and 
expensive footprint ashore. It is this unique and important 
characteristic that, in my view, makes the Navy well-suited to 
protecting and extending U.S. interests around the world, especially 
given the Nation's weariness with large land wars and occupations.
    Can you elaborate on your vision for the Navy's role during the 
next several decades?
    Answer. A key element of our global defense posture is forward and 
ready naval forces that serve as a central element of America's 
capacity to act and influence where it matters, when it matters most. 
The Navy/Marine Corps team will provide America's leaders with an 
expansive range of options to shape and respond to the challenges of 
the 21st century:
  --Because we operate forward while respecting the sovereignty of 
        others, naval forces will remain particularly well-suited to 
        build the trust and confidence that underpin our strong 
        alliances and partnerships, strengthen international 
        cooperation, promote maritime security and ensure free access 
        to the maritime commons.
  --As they have done for decades, forward-operating naval forces will 
        continue to be poised to respond rapidly to crises. Naval 
        forces' inherent mobility allows them to quickly move to areas 
        affected by unforeseen developments, employing forward-deployed 
        forces that are versatile enough to respond to a range of 
        missions in varied locations, and then reinforce and sustain 
        expeditionary power as needed.
  --Operating forward around the world, naval forces strengthen 
        homeland defense by detecting and defeating threats as far from 
        the United States as possible. From ballistic missile defense 
        to the screening and high seas interdiction of suspicious 
        ships, the Navy will continue to provide a wide spectrum of 
        capabilities that seamlessly integrate with the joint force, 
        other elements of the U.S. Government, as well as our 
        international allies and partners.
  --Naval forces will reassure our allies and partners and deter 
        aggression through the certain ability to rapidly deny an 
        adversary's objectives or to impose unacceptable costs. Our 
        ballistic missile submarine (SSBN) force--the most survivable 
        leg of the strategic nuclear triad--will continue to play an 
        essential role in the Nation's ability to deter adversaries 
        from employing weapons of mass destruction (WMD).
  --Should deterrence fail, the Navy-Marine Corps team stands ready to 
        defeat adversaries in combat. Naval forces--operating as 
        integral elements of a joint or combined force--will enable the 
        United States and its allies to take the fight directly to the 
        enemy whenever and wherever required.
    As the United States continues to fulfill its global 
responsibilities in an evolving world, forward and ready naval forces 
will be ever more vital to America's national security and prosperity.
                                 ______
                                 
          Questions Submitted to Admiral Jonathan W. Greenert
                Question Submitted by Senator Jack Reed
    Question. Admiral Greenert, I understand that you are ready to 
award the Block IV contract. Do you have a sense of when that might 
take place?
    Answer. Contract award is expected in October 2013.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Admiral Greenert, you have been clear that the Navy and 
Marine Corps must operate forward and be ready to respond when called 
upon. Would you discuss the consequences of reduced funding on 
readiness this year and what it means for next year? What are you doing 
this year to mitigate the impact and can you describe in more detail 
what the degradation of surge capacity would mean?
    Answer. Under sequestration, Navy is focusing readiness efforts on 
deployed and next-to-deploy units to meet the approved fiscal year 2013 
Global Force Management Allocation Plan (GFMAP) and prepare to meet the 
fiscal year 2014 GFMAP. While this allows us to meet the adjudicated 
Combatant Commander (COCOM) needs, it comes at the cost of surge 
capacity.
    Navy projects that over two thirds of all Fleet units will not meet 
material and training conditions for deployment by the end of fiscal 
year 2013. Historically, this would be near 50 percent given our tiered 
training and rotational force. Under historical funding levels (base 
plus OCO), it would take most of fiscal year 2014 to recover to normal 
surge force generation capacity. Continued sequestration in fiscal year 
2014 would exacerbate Navy's surge capacity shortfall, delay recovery 
by further reducing training and operations for non-deployed units, and 
build maintenance backlogs requiring years to recover.
    The immediate impacts of the current $4.1 billion fiscal year 2013 
shortfall in Operations and Maintenance, Navy (OMN) funding include a 
reduction in deployments (one fewer carrier in CENTCOM and no further 
SOUTHCOM ship deployments), reduced steaming days and training 
opportunities for non-deployed ships, and reduced flying hours for non-
deployed air wings (resulting in two air wings being at minimum safety 
levels by the end of fiscal year 2013). As the proficiency of non-
deployed crews and air wings degrades, the ability to respond to 
emergent COCOM demands in a timely manner will be reduced. Any need for 
these forces to deploy would require extensive just-in-time training 
and preparations, delaying availability of ready forces to the COCOM.
    Our ability to assess the longer term impact to Navy's surge 
capacity will depend on the status of the fiscal year 2014 budget 
request (to include OCO), the amount of general transfer authority 
received in fiscal year 2013 and the number of fiscal year 2013 
operations and maintenance issues which carry over to fiscal year 2014 
as a result of sequestration. Generally speaking, as crews train at 
minimal levels for longer periods and maintenance backlogs grow larger, 
the time and costs required to recover increase dramatically.
    Question. Admiral Greenert, the Navy has made significant progress 
in development of the Electromagnetic Railgun. Could you describe the 
Navy's efforts and plans concerning the railgun and also describe the 
potential advantages of the technology? Are there cost benefits of 
employing this technology?
    Answer. Railgun is an innovative technology with promising 
potential to impact multiple war-fighting gaps both afloat and ashore, 
including integrated air and missile defense, naval surface fire 
support, strike, surface warfare, and air warfare missions. Railgun is 
in a science and technology phase. Key technology developments and 
demonstrations are still required in the areas of power storage, 
transfer and replenishment, shipboard integration and safety, 
repetitive-rate fires, and hypervelocity projectile development and 
control prior to it transitioning to an acquisition program.
    Navy has invested $334 million during the period fiscal year 2005-
2013. Progress to date is very promising in critical technologies for 
barrel life, power system density, and tactical barrel design.
    The ongoing development plan calls for ONR to continue Railgun 
development at the current level of effort through fiscal year 2017. 
This phase is focused on developing an actively cooled tactical Railgun 
barrel and pulsed power components that are cooled for repetitive 
firing rate operations. This year ONR also initiated a science and 
technology effort to develop a hypervelocity projectile (HVP) that can 
travel atspeeds greater than Mach 5 (1700 m/s). The HVP design goal is 
to enable multimission capability and compatibility for use in multiple 
gun platforms including Railgun. Critical projectile technologies are 
being developed and test fired from both Railguns and powder guns.
    We are committed to cost-saving collaboration with the Office of 
the Secretary of Defense Strategic Capabilities Office, which recently 
initiated an experiment to test Railgun as part of a forward base 
defense strategy. Savings through common system design and shared 
technology products are anticipated.
    The potential advantages of this technology are illustrated by 
operational analyses and physics-based modeling. The results of a 
growing body of analysis support Railgun's war-fighting impact across a 
range of mission sets. Lethality modeling and kinetic impact testing 
have shown the lethal effectiveness of a Railgun hypervelocity 
projectile. Additionally, the compact size of the projectile and 
elimination of gun powder and rocket motor propellants leads to 
increased safety as well as many more rounds being stored in ship 
magazines.
    A large cost benefit can be anticipated across the entire mission 
set from successful development and implementation of Railgun 
technology that meets performance requirements. The relatively low cost 
projected for a Railgun precision guided projectile means that each 
engagement including missile threats is much cheaper than using current 
defensive methods, even when multiple Railgun rounds are required. 
Railgun has great potential to shift the cost curve sharply to our 
advantage.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. Admiral Greenert, you state in your testimony that the 
2014 budget submission supports the defense strategic guidance to 
enable the Navy to maintain commitments in the Middle East and the 
rebalance to Asia-Pacific. Secretary Mabus, in your testimony you 
characterized the Navy's operational tempo in 2012 as ``high'' and that 
almost half the fleet was at sea and more than 70,000 Sailors and 
Marines were deployed on a daily basis conducting combat and maritime 
security operations, exercises with our international partners, and 
humanitarian assistance missions.
    Following the Navy's $10.7 billion reduction in fiscal year 2013 
funding due to sequestration and the budget uncertainty in fiscal year 
2014 and beyond, can the Navy possibly maintain the same pace of 
operations it is currently conducting?
    Answer. In response to fiscal pressures in fiscal year 2013, we 
were compelled to recommend the fiscal year 2013 GFMAP be changed to 
cancel one ship deployment to the Pacific, two ship deployments to 
Europe and cancel all but one fiscal year 2013 ship deployment to U.S. 
Southern Command. We continue to evaluate opportunities to add 
deployments to these regions as our fiscal position becomes clearer. In 
addition to reducing overseas deployments, we have also reduced the 
amount of operations and training our ships and aircraft conduct when 
not deployed.
    The President's fiscal year 2014 budget fully funds Navy's 
commitments under the fiscal year 2014 Global Force Management 
Allocation Plan (GFMAP). Our ability to assess the longer term impact 
to Navy's pace of operations will depend on the status of the fiscal 
year 2014 budget request (to include OCO), the amount of general 
transfer authority received in fiscal year 2013 and the number of 
fiscal year 2013 operations and maintenance issues which carry over to 
fiscal year 2014 as a result of sequestration. Generally speaking, as 
crews train at minimal levels for longer periods and maintenance 
backlogs grow larger, the time and costs required to recover increase 
dramatically.
    Question. In January 2013, the Navy modified the long-standing goal 
of a 313-ship Navy to a goal of a 306-ship Navy. In its July 2012 
report on the cost of the fiscal year 2013 30-year shipbuilding plan, 
the Congressional Budget Office estimates that the plan would cost an 
average of $20 billion per year in fiscal year 2012 dollars, or 
approximately 19 percent more than the Navy estimates, to implement.
    Do you believe the Navy will reach its goal of 306 ships in the 
future?
    Answer. Yes. The Annual Long-Range Plan for Construction of Naval 
Vessels for fiscal year 2014 reaches 300 ships in 2019, and the Navy 
force structure reaches the required inventory level of 306 ships in 
2037.
    In the 2020s, we reach the required levels of large surface 
combatants, nuclear attack submarines (SSNs), amphibious ships, and 
aircraft carriers, leaving us short of only small surface combatants 
and support ships.
    Question. Secretary of Defense Chuck Hagel has announced yet 
another strategic review of the Department of Defense, which is 
expected to be completed by the end of May. There have been no less 
than six comprehensive reviews since 1989, and yet the relative share 
of the DOD budget allocated to each of the services has remained nearly 
constant throughout all of these reviews. If the real, tough choices 
were being made to reflect the changing strategic environment over 
time, I would expect to see at least some shift in how the budget is 
allocated among the military services.
    Do you agree that reallocations within the budget rather than equal 
budget cuts across each of the services is a reasonable expectation 
following a strategic review?
    Answer. With any change in strategic direction, it's reasonable to 
expect changes to capability and force structure requirements that may 
not align to a constant relative share of funding. Pending the results 
of future strategic reviews, I cannot speculate on specific resource or 
funding allocations.
    Question. The strategic guidance and related defense priorities 
call for rebalancing toward the Asia-Pacific region and put heavy 
reliance on unmanned systems and special operations forces.
    How many ships and what types of ships are being relocated to the 
Asia-Pacific region in support of this new posture during the next 5 
years?
    Answer. Navy's President's fiscal year 2014 budget continues our 
emphasis on the Asia-Pacific rebalance to achieve 60 percent of the 
fleet homeported in the Asia-Pacific region by 2020 and providing 
deploying platforms with the newest capabilities to the region.
    From fiscal year 2013 to fiscal year 2018, the Navy will deliver 
the following new construction ships to San Diego: two America-class 
amphibious assault ships (LHA); two San Antonio-class amphibious 
transport docks (LPD); three Arleigh Burke-class guided missile 
destroyers (DDG); two Zumwalt-class DDGs; and ten total Freedom and 
Independence-class littoral combat ships (LCS). One additional new 
Arleigh Burke DDG will be delivered to Pearl Harbor.
    From fiscal year 2013 to fiscal year 2018, the Navy will relocate 
the following ships: nine Virginia-class fast attack submarines (SSN) 
to San Diego and Pearl Harbor to backfill decommissioning Los Angeles-
class SSNs; one SSN to Guam from San Diego; and two aircraft carriers 
(CVN) back to San Diego upon completing their midlife refueling. Also 
from fiscal year 2013 to fiscal year 2018, the Navy's Military Sealift 
Command (MSC) will relocate four new Joint High Speed Vessels (JHSV) 
and one High Speed Transport (HST) in the Asia-Pacific Region. In 
accordance with MSC's business model, these MSC ships operate without a 
designated homeport.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. The Navy's fiscal year 2014 budget request for sonobuoy 
procurement is a significant increase over previous year's levels. I'm 
aware of how important these acoustic sensors are to the Navy's anti-
submarine warfare capability. Could you please comment on this increase 
and its importance to the Navy's overall mission readiness?
    Answer. The increase in sonobuoy procurement funding will improve 
Navy's overall Anti-Submarine Warfare (ASW) mission readiness. Most 
importantly, this funding puts sonobuoy procurement on a trajectory to 
meet the minimum inventory requirements for the entire family of air-
delivered acoustic sensors by the end of the Future Years Defense 
Program (FYDP). Additionally, the Air ASW community is migrating from a 
primarily passive to a more capable and sophisticated Multi-static 
Active Coherent (MAC) capability, which will enable a more effective 
and efficient wide area search for submarines. The MAC capability 
provides the foundation for the P-8A Poseidon's ability to detect 
submarines. Accordingly, our inventory of MAC sonobuoys must be built 
up to support Combatant Commander ASW mission execution requirements. 
Finally, this funding profile will enable Navy to train more frequently 
with sonobuoys, improving the readiness of our forces to support Fleet 
and Combatant Commander ASW requirements.
    Question. I am concerned that 2025 is too long to wait for the Navy 
to realize its goal of improved Electromagnetic decisionmaking across 
the fleet given the vast array of threats we face today. Are there any 
laws or regulations that need to be changed to accelerate this 
timetable?
    Answer. Currently there are no laws or regulations that need to be 
changed to accelerate a delivery date. Major efforts are underway to 
improve Electromagnetic decisionmaking, the majority of which are 
scheduled to deliver prior to 2025. Examples are available upon 
request.
    Question. What opportunities exist for greater cooperation between 
the U.S. Navy and Coast Guard? What is the status of the National Fleet 
Program?
    Answer. The U.S. Navy and U.S. Coast Guard have and will continue 
to seek opportunities for closer cooperation. In these times of fiscal 
austerity, seeking these opportunities enables both Services to 
leverage each other's capabilities and resources. Some current examples 
include:
  --Numerous formal agreements exist between the Navy and Coast Guard 
        to promote the sharing of capabilities and resources. This 
        includes leveraging each other's training systems through the 
        use of common schools for several enlisted ratings, pilot 
        training, and system-specific technical training that provides 
        significant savings in training overhead costs to both 
        services. Last year, Navy and Coast Guard finalized an 
        agreement to base our ships and aircraft at each other's 
        airfields, port facilities, and shore installation to help 
        reduce infrastructure costs. Navy and Coast Guard have already 
        exercised this agreement to base Coast Guard Cutter Valiant at 
        Naval Station Mayport and are currently exploring other 
        cooperative basing opportunities.
  --Both Services utilize several common systems and platforms. For 
        example, both Services operate the H-60 and C-130 aircraft 
        which provides efficiencies in the procurement and life cycle 
        sustainment costs of these aircraft. Similarly, the Coast 
        Guard's National Security Cutter and the Navy's Littoral Combat 
        Ship share many common systems and spare parts facilitating 
        Navy-Coast Guard logistics integration initiatives.
  --Coast Guard Law Enforcement Detachments routinely embark Navy ships 
        for counter-drug, counter-piracy, and other operations which 
        leverage the naval warfighting capability of our ships and the 
        law enforcement capability of the Coast Guard all from the same 
        platform.
  --The Commandant and I and our staffs regularly hold formal talks to 
        discuss opportunities for increased cooperation. Additionally, 
        the Coast Guard and Navy have assigned liaison officers to 
        corresponding staffs to help identify and promote opportunities 
        for increased cooperation between the services.
    The National Fleet Program remains a central tenet of the Navy and 
Coast Guard's cooperative efforts. The Navy and Coast Guard best serve 
the Nation when we deliberately prepare our forces for integrated 
maritime operations. Such preparation ensures the Nation has capable 
and ready forces to address the full spectrum of national requirements 
from routine peacetime operations to crisis and sustained conflict.
    Discussion of the National Fleet Program was a central topic at the 
May 2012 Warfighter Talks between myself and the Commandant of the 
Coast Guard (Commandant). At these talks, the Commandant and I directed 
our staffs to update the National Fleet Policy to include the creation 
of a flag-level National Fleet Board to provide oversight and 
governance to the multiple Navy-Coast Guard teams working on 
interoperability and commonality issues. This board will ensure the 
Navy and Coast Guard continue to develop complimentary and non-
redundant multi-mission assets that optimize our effectiveness across 
the full spectrum of naval and maritime missions. The Commandant and I 
also signed a joint shipbuilding letter re-emphasizing our commitment 
to the National Fleet Program and highlighting the complementary and 
non-redundant nature of our respective shipbuilding programs.
    The U.S. Navy and U.S. Coast Guard remain committed maritime 
partners both now and in the future. The capability we each provide is 
critical to the defense of this Nation and our national interests. As 
we both face challenging fiscal times, our Services will continually 
seek opportunities for closer cooperation.
    Question. I salute the Navy for making an unprecedented effort to 
find areas of commonality between Navy SSP and the Air Force. Despite 
significant technical differences between the Minuteman and Trident II 
D5, do you feel there are potential areas where efforts can be shared 
by both the Air Force and the Navy in order to gain efficiencies, 
preserve the knowledge base, and reduce total costs? Is this something 
you are willing to discuss with your Air Force counterpart?
    Answer. Yes, there are potential opportunities for strategic 
collaboration between the Air Force and the Navy for sustainment of 
ballistic missile systems, and we are investigating those 
opportunities. The Navy and the Air Force are both addressing the 
challenges of sustaining aging strategic weapon systems and have begun 
to work collaboratively to ensure these capabilities are retained in 
the long-term to meet our requirements. We are seeking opportunities to 
leverage technologies and make the best use of scarce resources. We are 
already seeing benefits to the department from efforts on the Joint 
Warhead Fuze Modernization program, which are adaptable to the Navy's 
W88 and the Air Forces W87 and W78 reentry systems.
    The Navy and the Air Force have established an Executive Steering 
Group to identify and investigate potential collaboration opportunities 
and oversee collaborative investments for sustainment of our strategic 
systems. As a part of this effort, technology area working groups have 
been established to study collaboration opportunities in the areas of 
Reentry, Guidance, Propulsion, Launcher, Radiation Hardened 
Electronics, Ground Test and Flight Test systems, and Nuclear Weapons 
Security/Surety. We are assessing the spectrum of potential commonality 
with the goal of using commonality where appropriate while ensuring 
essential diversity where needed to ensure that one technical issue 
does not overly impact the Nation's strategic deterrent.
    Question. Why is it important for the U.S. Navy to have a state-of-
the-art museum in the Nation's Capital? How will a relocated National 
Museum of the U.S. Navy, leveraged with non-Federal resources, raise 
public awareness on the need for a strong U.S. Navy? Do you plan on 
charging admission fees?
    Answer. The move of the National Museum of the United States Navy 
would be a major step in the Navy's strategic plan to energize public 
and private awareness of the integral role Navy plays in our defense 
and in the protection of our interests as a maritime nation. The move 
is designed to galvanize internal and external support for Navy history 
and heritage and to leverage non-Federal resources to accomplish that 
mission. A state-of-the-art museum in the Nation's Capital would:
  --Make Navy history and heritage readily accessible to the American 
        public by moving the National Museum of the United States Navy 
        outside of the security boundary of the Washington Navy Yard.
    --The museum has been in its current location without significant 
            renovation, since its founding in 1963 by Admiral Arleigh 
            Burke.
    --Since September 2001, public access to the Museum has been 
            increasingly difficult due to increasing security 
            requirements. The result has been a significant decrease in 
            visitorship, from a high of nearly 400,000 annually in the 
            late 1990s, to less than 100,000 in 2012.
  --Enable the Navy to preserve the entire Navy Headquarters Art 
        collection (over 18,000 items) at the new location, as well as 
        preserving numerous other ``at risk'' artifacts.
  --The new facility would significantly expand the capability and 
        capacity for the museum to conduct educational programs for 
        students in the National Capital Region through a state-of-the-
        art STEM program. In addition, it would support the STEM 
        efforts of the Navy museum system across the country and at all 
        educational levels from K-12 to undergraduate to graduate.
  --Finally, the move to a publicly accessible, state-of-the-art 
        facility in the Nation's Capital would significantly increase 
        private/non-profit support for the museum and thereby decrease 
        the requirement for appropriated funds. The goal is for the 
        non-profit partner to fund exhibit design, development, 
        construction, and installation at a cost of approximately $150 
        million. Further, the goal is for a combination of non-profit 
        and volunteer support to defray approximately two-thirds of the 
        sustained operating costs of the National Museum.
    Navy does not plan on charging admission fees.
    Question. The multi-volume Dictionary of American Naval Fighting 
Ship (DANFS) is woefully out of date. How much would it cost over the 
FYDP to update DANFS?
    Answer. Naval History and Heritage Command (NHHC) defines as ``out 
of date'' any ship's history that is either incomplete or non-existent. 
There are many other complete ships histories in DANFS that do not meet 
current historiographical standards, but are not included in this 
response.
    The total cost to use contract labor over the FYDP to update DANFS 
would be $10,800,000 or $2,160,000 annually. Using term Federal 
employees would probably cost less, based on a GS-9 pay grade 
requirement for the work. The estimated cost over the FYDP to use 22 
term GS-9 Federal employees from fiscal year 2015-2019 would be 
$9,143,200 or $1,828,640 annually. The positions would be eliminated 
once the work was completed. However, due to the Federal employee 
hiring freeze and challenging budget environment NHHC currently is not 
authorized the additional term FTE discussed above.
    Once DANFS is up to date, projected historian capacity at the 
command by fiscal year 2019 would reach a level where the program would 
be self-sustaining.
                                 ______
                                 
              Questions Submitted to General James F. Amos
            Questions Submitted by Senator Dianne Feinstein
    Question. In 2009, I met with Major General Eugene Payne, Jr. (then 
Assistant Deputy Commandant for Installations and Logistics) and Major 
General Melvin Spiese (then Commanding General Training and Education 
Command) to try to find a compromise between the Navy and off-road 
recreation enthusiasts regarding the expansion of the Marine Corps Air 
Ground Combat Center at Twentynine Palms.
    While the Navy's initial proposal contemplated an expansion that 
may have required nearly all 188,000 acres of Johnson Valley, the 
largest off-road recreation area in the Nation, to be dedicated to 
military training, General Payne and General Spiese graciously agreed 
to study an alternative that would allow the area to be apportioned in 
the following way:
  --Lands reserved for OHV recreation and managed by the BLM;
  --Lands to be transferred to the Navy to become part of the 
        Twentynine Palms base; and
  --Lands to be jointly used by both the Marines and for OHV 
        recreation.
    Under this arrangement, described as Alternative 6 in the Navy's 
Environmental Impact Statement for the base expansion, the joint-use 
area would be available to the Marines for 2 months each year to 
conduct Marine Expeditionary Brigade-level training and available for 
recreational use the remaining 10 months of the year. The Navy 
ultimately selected this option as their preferred alternative and 
issued a Record of Decision on February 11, 2013.
    Last week, legislation was introduced in the House by Rep. Paul 
Cook which proposes a new strategy for Marine training at Twentynine 
Palms. It is my understanding that the bill would not transfer any 
Johnson Valley land to the Navy for base expansion, but instead require 
the Secretary of the Interior to authorize military use of the area 
twice a year for sustained, combined arms, live-fire training.
    What is the Marine Corps' view of this legislation?
    Answer. Although H.R. 1676 proposes to withdraw Johnson Valley for 
recreational and military use, the bill limits military readiness by 
not allowing the Marine Corps to adequately train for the full range of 
military operations; namely, Marine Expeditionary Brigade (MEB) level 
training. The hallmark of Marine Corps combat success is their 
effective use of combined arms techniques. Successful employment of 
this highly specialized and complex war fighting approach requires air-
ground training that includes simultaneous live-fire and maneuver. H.R. 
1676 significantly restricts training to only the proposed 42 days per 
year and imposes severe limitations on allowed equipment, weapons 
systems, and ordnance; restrictions that effectively negate any 
training value. Specifically, the bill does not include an exclusive 
military use area, thereby limiting the use of dud producing ordnance--
such as artillery rounds and aviation delivered bombs. Use of these is 
an essential part of combined arms training. In short, this proposal 
prevents the Marine Corps from accomplishing the necessary MEB level 
training, the precise reason why the Marine Corps requested the 
withdrawal of Johnson Valley in the first place. Accordingly, USMC does 
not support this bill. We believe the DON record of decision addressing 
MEB training at Twentynine Palms and the Administration's legislative 
proposal strikes the balance between military training, public access 
and safety in Johnson Valley.
    Question. If Congress were to approve the House bill, what impact 
would this have on military readiness?
    Answer. This bill would have a negative effect on Marine Corps 
readiness by not filling the current lack of a Marine Expeditionary 
Brigade (MEB) level, combined arms training area. MEBs must train to be 
able to conduct intensive operations over extended distances--to 
include integrating live-fire artillery, mortars, tanks, and aviation 
fires with maneuver--while simultaneously receiving real-time 
logistical support. Nine years of study and analysis validated that the 
only viable alternative to support MEB level, combined arms, live-fire 
training was to expand the Marine Corps Air Ground Combat Center 
(MCAGCC) training area into Johnson Valley.
    It is my understanding that the House bill is inspired largely out 
of concern for the economic impact that base expansion will have on the 
local economy. The fear is that if the Johnson Valley OHV Area is 
dramatically reduced from its current size, fewer people will visit the 
area, reducing local tax revenues.
    Question. What is the latest available information regarding how 
base expansion will impact the local economy?
    Answer. The Final Environmental Impact Statement analyzed how the 
base expansion would impact the local economy. The analysis indicates 
that the expansion would generate an additional 110 jobs, $4 million in 
salaries, and $7.5 million in additional regional sales. This would 
offset a projected loss from the recreational and film industries of 
$1.5 million in sales and $216,000 in taxes. For point of reference, 
the Retail Trade and Accommodation/Food Services sectors of Yucca 
Valley, Apple Valley and Victorville (the three largest local 
communities realizing economic benefits from the off-highway vehicle 
(OHV) community for which data is available) generate about $1.1 
billion annually in sales. Of particular note, the King of the Hammers 
Race, the single largest generator of economic activity associated with 
OHV recreation in Johnson Valley that constitutes an estimated 15 
percent of the total yearly visitation to Johnson Valley, would 
continue under the Administration's proposal.
    Question. Is there anything the Navy do to try to off-set the 
impact that base expansion might have on the local economy and 
potential lost revenue to local government? For example, does the 
Department of Defense have authority to provide funds to local 
jurisdictions to mitigate the impact of base expansion?
    Answer. As indicated above, the additional 110 jobs, $4 million in 
salaries, and $7.5 million in additional regional sales would offset 
the loss from the recreational and film industries of $1.5 million in 
sales and $216,000 in taxes. The Department of the Navy has no 
mechanism to make payments in lieu of taxes; however, it should be 
recognized that even before the expansion, the base is a significant 
economic contributor to the local economy. For example, the base's 2012 
workforce payroll is approximately $600 million, most of which is spent 
in the local area by personnel stationed and employed on the base. In 
addition, the U.S. Department of Education contributes to San 
Bernardino County school impact aid of approximately $1.8 million a 
year, and in 2012 the base contracted with local vendors in the amount 
of $28 million.
    The potential loss of Johnson Valley land is a serious concern for 
OHV-users and others who visit the area to camping, hiking, rock-
hounding and general outdoor recreation.
    Question. Can you please describe the efforts the Navy has taken to 
address these concerns in the expansion plan?
    Answer. The Administration proposal would set aside 43,000 acres of 
Johnson Valley exclusively for recreational use and an additional 
43,000 acres for shared use with exclusive recreational use 10 months 
out of the year. USMC would use and manage the shared use area for only 
two 30-day periods per year. We propose Congress designate the shared 
use area and remaining portion of Johnson Valley as an off-highway 
vehicle recreation area. This designation would ensure that this 86,000 
acre area would be forever available for off-highway vehicle 
recreation. USMC and Bureau of Land Management (BLM) would coordinate 
management of the Johnson Valley off-highway vehicle recreation area 
via a Recreation Management Group, which would include the views of 
stakeholders such as off-highway vehicle user groups and race 
organizers, the State of California, and environmental advocates. A key 
component of the plan will be development and implementation of a 
barrier plan to ensure safe public access. This plan will include 
installation of fencing, berms, gates and signs as well as increased 
security during training events and an educational component. The 
Administration's proposal would establish an exclusive military use 
area of 103,000 acres.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. General Amos, you have been clear that the Navy and 
Marine Corps must operate forward and be ready to respond when called 
upon. Would you discuss the consequences of reduced funding on 
readiness this year and what it means for next year? What are you doing 
this year to mitigate the impact and can you describe in more detail 
what the degradation of surge capacity would mean?
    Answer. America's ``Force in Readiness'' must maintain a high state 
of readiness at all times to respond to contingencies and commitments 
throughout the globe. Despite the constrained funding resulting from 
sequestration, the passing of H.R. 933 mitigated most of the near-term 
operational impacts in fiscal year 2013. The Marine Corps will meet 
near-term readiness commitments for deployed and next-to-deploy forces 
and continue to rebalance to the Pacific and support the Marine 
Rotational Force Darwin and the Unit Deployment Program.
    While the Marine Corps is capable of meeting all deployment 
requirements for our near-term deployable forces in fiscal year 2013, 
we have mortgaged our long-term infrastructure and the unit readiness 
of our home station units. We cannot continue to sustain these levels 
of reductions in fiscal year 2014 without immediate impact to our 
deployed and next to deploy forces and our non-deployed crisis response 
forces at home.
    Facilities sustainment reductions, that were used to mitigate 
shortfalls in fiscal year 2013, would be unsustainable and would 
degrade home station training and quality of life for Marines and their 
families. The curtailment of training and maintenance would degrade the 
readiness of non-deployed crisis response forces. Over half of Marine 
Corps ground units and one-third of Marine Corps aviation combat units 
would remain below acceptable readiness levels. Sequestration would 
also adversely impact operations and exercises in fiscal year 2014 and 
beyond.
    Sequestration's impacts on the availability of amphibious and 
maritime prepositioning ships are a concern for maintaining the Marine 
Corps' forward amphibious presence. The combat readiness of these ships 
is a foundational requirement for training for and executing 
expeditionary force presence and amphibious force projection 
operations. As such, reduced amphibious ship availability and readiness 
could present a significant challenge to the training and maintenance 
of Naval Expeditionary Forces, thus driving overall readiness levels 
lower. Continued Congressional support for the Navy's shipbuilding and 
surface ship-to-shore connector programs is vital to retain and 
maintain an adequate fleet of modern combat-ready amphibious ships, 
which provide continuous naval expeditionary presence and project power 
across the globe.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. The Marine Corps has had considerable success in 
leveraging the Navy's technical base, like that which exists at NSWC 
Crane. What do you see as the Marine Corps' way forward in leveraging 
the Navy's technical activities like NSWC Crane?
    Answer. For several years, the Marine Corps has placed a priority 
on leveraging the Navy's government technical workforce, to include the 
Naval Surface Warfare Center-Crane. We have been able to gain access to 
a superior workforce that provides experienced technical expertise to 
assist the Marine Corps' acquisition, engineering and technical 
functions.
    Our partnership with institutions like NSWC-Crane allows the Marine 
Corps to benefit from world class government engineers and scientists 
to leverage investments made by other Services to develop essential 
technical expertise directly relevant to our mission. We are able to 
avoid unnecessary costs associated with developing and sustaining these 
capabilities in-house and provide the best value to the Marine Corps 
and other stakeholders we support and represent.
    We expect to continue to rely on NSWC-Crane to provide the Marine 
Corps with the best long-term technical and engineering solutions.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The Defense Subcommittee will reconvene on 
Wednesday, May 8, at 10 a.m., to receive testimony from the 
Department of the Air Force. And the subcommittee stands in 
recess.
    Secretary Mabus. Thank you.
    [Whereupon, at 12:16 p.m., Wednesday, April 24, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 8.]

</pre></body></html>
